<html>
<title> - IMPLEMENTATION OF THE ADOPTION AND SAFE FAMILIES ACT OF 1997</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
      IMPLEMENTATION OF THE ADOPTION AND SAFE FAMILIES ACT OF 1997

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 8, 2003

                               __________

                           Serial No. 108-18

                               __________

         Printed for the use of the Committee on Ways and Means







                       U.S. GOVERNMENT PRINTING OFFICE
90-545                       WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, Jr., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 1, 2003, announcing the hearing................     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Wade F. Horn, 
  Ph.D., Assistant Secretary for Children and Families...........     7
U.S. General Accounting Office, Cornelia M. Ashby, Director for 
  Education, Workforce, and Income Security Issues...............    19

                                 ______

American Bar Association, Mark Hardin............................    55
American Public Human Services Association, and Utah Department 
  of Human Services, Robin Arnold-Williams.......................    39
Baltimore County Department of Social Services, Judith M. 
  Schagrin.......................................................    48
Cornerstone Consulting Group, Jennifer Miller....................    70
National Conference of State Legislatures, Hon. Dave Heaton......    33
WinShape Center, Inc., and Horatio Alger Association, S. Truett 
  Cathy..........................................................    51

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, statement.......................    81
National Indian Child Welfare Association, Portland, OR, 
  statement......................................................    89
Voice for Adoption, statement....................................    91


      IMPLEMENTATION OF THE ADOPTION AND SAFE FAMILIES ACT OF 1997

                              ----------                              


                         TUESDAY, APRIL 8, 2003

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
April 1, 2003
No. HR-2

                      Herger Announces Hearing on

                   Implementation of the Adoption and

                       Safe Families Act of 1997

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to examine implementation of the 
Adoption and Safe Families Act of 1997 (ASFA) (P.L. 105-89). The 
hearing will take place on Tuesday, April 8, 2003, in room B-318 of the 
Rayburn House Office Building, beginning at 3:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives from the U.S. Department of 
Health and Human Services (HHS) and other experts in child welfare 
issues. However, any individual or organization not scheduled for an 
oral appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    In response to growing concerns regarding the well-being of 
children in foster care, Congress in 1997 enacted ASFA. This landmark 
legislation ensures that the safety and health of children play a 
paramount role in child welfare decisions, so that children are not 
returned to unsafe homes. Addressing criticism that children were 
lingering in foster care for long periods of time, ASFA included 
provisions to expedite legal proceedings so that children who cannot 
return home may be placed for adoption or another permanent arrangement 
quickly. Since 1997, all States have enacted laws to implement ASFA 
provisions to ensure the safety and health of children in foster care.
      
    The Act also created the Adoption Incentives program under Title 
IV-E of the Social Security Act to reward States for their efforts to 
promote permanency of children in foster care. This program provides 
incentive payments to States equal to $4,000 for each foster child 
whose adoption is finalized (over a base level) and $6,000 for the 
adoption of a foster child with special needs above the base level. 
Funds have been appropriated for these incentive payments for each of 
fiscal years 1999 through 2003. This program is currently authorized 
through fiscal year 2003. The President's budget for fiscal year 2004 
would continue the Adoption Incentives program, while focusing 
incentives on the adoption of older children.
      
    In announcing the hearing, Chairman Herger stated, ``Since the 
passage of ASFA, States have implemented a number of policies to ensure 
that child safety is the key consideration in any child welfare 
decision. The number of children adopted also has increased 
dramatically, which has resulted in States' collecting millions of 
dollars in incentive payments that can spur added efforts. This hearing 
will let us review the effects of the major changes made in 1997 and 
consider what else needs to be done to better protect children and 
strengthen families.''
      

FOCUS OF THE HEARING:

      
    The hearing will review implementation of the 1997 Adoption and 
Safe Families Act. The hearing also will review the Adoption Incentives 
program created under that Act and consider proposals for 
reauthorization of this program.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="630b0602110a0d04000f061108104d14021a10020d070e06020d10230e020a0f4d0b0c1610064d040c15">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Tuesday, April 22, 2003. 
Those filing written statements who wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver their 200 copies to the Subcommittee on Human Resources in room 
B-317 Rayburn House Office Building, in an open and searchable package 
48 hours before the hearing. The U.S. Capitol Police will refuse 
sealed-packaged deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e464b4f5c4740494d424b5c455d00594f575d4f404a434b4f405d6e434f47420046415b5d4b00494158">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Good afternoon and welcome.
    The purpose of today's hearing is twofold: first, to review 
the implementation of the 1997 Adoption and Safe Families Act 
(ASFA) (P.L. 105-89), and second, to consider proposals for 
changes, especially regarding the adoption incentives program 
that requires reauthorization this year.
    The landmark 1997 law has played an important role in 
improving how we protect our Nation's most vulnerable children.
    As implemented by the States, the 1997 law has resulted in 
numerous changes to ensure that child safety is the key 
consideration in any child welfare decision. No system is 
perfect, and we certainly are aware of well-publicized 
tragedies involving children. Today we will continue our review 
of whether the 1997 changes are working as intended, and what 
other changes might be needed to improve child safety.
    The 1997 law addressed criticisms that children were 
lingering too long in foster care. That legislation included 
provisions to speed up legal proceedings so children who cannot 
return home may be placed quickly for adoption or in another 
permanent arrangement.
    Another set of changes now reward States for their efforts 
to promote the adoption of children from foster care. It is 
good news that the number of children adopted has increased 
dramatically since 1997. Because of the adoption incentive 
program we created, States now receive millions of dollars they 
can reinvest in activities to promote child welfare. I am 
pleased to note that President Bush's budget proposes to 
continue this worthwhile program.
    Let me just say that I look forward to working with all our 
colleagues on both sides of the aisle on this issue. Mr. 
Cardin, I understand you and several of our colleagues have 
introduced child welfare legislation, and Mr. Camp and Mrs. 
Johnson, among others, have worked diligently on this issue in 
recent years. So, we have a wealth of experience on this 
Subcommittee.
    I look forward to hearing from all of our witnesses today. 
Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. Mr. Cardin, would you like to make an opening 
statement?
    [The opening statement of Chairman Herger follows:]
Opening Statement of The Honorable Wally Herger, Chairman, Subcommittee 
on Human Resources, and a Representative in Congress from the State of 
                               California
    Good afternoon. The purpose of today's hearing is twofold: First, 
to review the implementation of the 1997 Adoption and Safe Families 
Act; and second, to consider proposals for changes, especially 
regarding the adoption incentives program that requires reauthorization 
this year.
    The landmark 1997 Adoption and Safe Families Act has played an 
important role in improving how we protect our Nation's most vulnerable 
children.
    As implemented by the States, the 1997 Act has resulted in numerous 
changes to ensure that child safety is the key consideration in any 
child welfare decision. No system is perfect, and we certainly are 
aware of well-publicized tragedies involving children. Today we will 
continue our review of whether the 1997 changes are working as 
intended, and what other changes might be needed to improve child 
safety.
    The 1997 law addressed criticisms that children were lingering too 
long in foster care. So that legislation included provisions to speed 
up legal proceedings so children who cannot return home may be placed 
quickly for adoption or in another permanent arrangement.
    Another set of changes now reward States for their efforts to 
promote the adoption of children from foster care. I'm pleased that the 
number of children adopted has increased dramatically since 1997. 
Because of the adoption incentives program we created, States now 
collect millions of dollars they can reinvest in activities to promote 
child welfare. I am pleased to note the President's budget proposes to 
continue this worthwhile program.
    Let me just say that I look forward to working with all our 
colleagues on both sides of the aisle on this issue. Mr. Cardin, I 
understand you have introduced legislation on this issue. And Mr. Camp 
and Mrs. Johnson, among others, have worked diligently on this issue in 
recent years. So we have a wealth of experience on this Subcommittee.
    I look forward to hearing from all of our witnesses today.

                                 <F-dash>

    Mr. CARDIN. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing.
    I think it is very important that we continue to monitor 
the effectiveness of ASFA. We are talking about America's most 
vulnerable children, and I think it's important that this 
Committee take every opportunity we can to evaluate where we 
are, see what is going well, and where we can make improvements 
as far as congressional attention.
    As you pointed out, the 1997 legislation was enacted on a 
bipartisan basis. It was a commitment by the Congress to work 
on providing the resources and attention for children who are 
abused, children who are in foster care, and children who are 
in need. It was designed to ensure the safety of the children 
who come in contact with the child welfare system and to 
expedite the permanent placement of children living in foster 
care.
    The legislation amended the existing child welfare laws to 
require that a child's health and safety be the paramount 
concern, and the children who cannot be returned to their home, 
we would put a priority on adoption. We offered adoption 
incentives in the 1997 law.
    As you pointed out, the initial statistics are very 
encouraging. We have seen that adoptions out of the public 
child welfare systems has nearly doubled since 1995. That is 
certainly a very encouraging number. We also see that States 
have exceeded their adoption expectations and have earned more 
in adoption incentive payments than we had anticipated. That's 
good news. We should all be pleased that the States are 
actually outperforming where we thought they would be.
    We didn't stop in 1997. We also, as you know, 2 years later 
followed with the Foster Care Independence Act (P.L. 106-169), 
which was a bill that came out of this Committee on a very 
strong, bipartisan basis, and dealt with children aging out of 
foster care, because we also recognized this was another group 
of vulnerable children.
    So, Mr. Chairman, we have a history on this Committee of 
working in a bipartisan manner for children who are at risk, 
children who are abused or neglected, and I think we need to 
continue that. We need to reauthorize the Adoption Incentive 
Grant program; we need to get the expertise of the witnesses 
that are before us today, figuring out what we can continue to 
do in order to build on our prior record of attention to 
children who are at risk.
    So, I look forward to hearing from the witnesses, starting 
with Dr. Horn, and I look forward to working with you.
    [The opening statement of Mr. Cardin follows:]
Opening Statement of The Honorable Benjamin Cardin, a Representative in 
                  Congress from the State of Maryland
    Mr. Chairman, let me begin by thanking you for calling this hearing 
to review the implementation on the Adoption and Safe Families Act of 
1997 (ASFA) and to review proposals to reauthorize the Adoption 
Incentives program that was created under the Act.
    The 1997 Act was developed in this Committee on a bipartisan basis. 
It was designed to ensure the safety of children who come into contact 
with the child welfare system and to expedite permanency for children 
living in foster care. The legislation amended the existing Federal 
child welfare law to require that a child's health and safety be of 
``paramount'' concern in any efforts made by the State to preserve or 
reunify the child's family. The legislation also included a provision 
to ensure that necessary legal procedures occur expeditiously, so that 
children who cannot return home may be placed for adoption or another 
arrangement quickly. Finally, the 1997 legislation also created the 
Adoption Incentives program that rewards to States that increase their 
numbers of adoptions from foster care.
    Since the enactment of this legislation, there have been some 
positive strides for children. For example, the number of adoptions out 
of the public child welfare system has nearly doubled since 1995. 
Moreover, States have exceeded adoption expectations and have earned 
more in adoption incentive payments than anticipated. As a result, more 
children are being placed in safe, stable and permanent environments at 
a faster rate.
    The 1997 Act was followed up two years later with the Foster Care 
Independence Act, another bipartisan product from this Committee. The 
legislation increased funding for services for youths who were ``aging 
out'' of foster care and expanded State flexibility to design programs 
to improve the transition of older foster children from State custody 
to independent living.
    Both the 1997 legislation and the Foster Care Independence Act 
represent a commitment on the part of Congress to target specific 
problems in the child welfare system and to provide States with 
resources to meet the needs of our most vulnerable children.
    We should continue to work in the same bipartisan spirit to improve 
the child welfare system's capacity to respond to children who are 
abused or neglected, and to place those who are unable to return home 
into safe, loving, and permanent homes.
    As a start, I look forward to working with the Committee and the 
Administration in developing proposals to reauthorize the Adoption 
Incentive Grants under this program, and other legislation to promote 
the safety and well-being of children who come into contact with the 
child welfare system.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
                                 ______
                                 
    I would like to welcome Judith Schagrin who is the Assistant 
Director of the Baltimore County Department of Social Services. Ms. 
Schagrin has been with the Baltimore County Department of Social 
Services for 20 years, and has served as the Agency's Administrator for 
the Foster Care and Adoptions Program for the last 5 years. In addition 
to her work for the County, she also serves as a foster parent to a 
severely emotionally disturbed adolescent and provides respite care to 
three emotionally disturbed young boys. We are very pleased to have her 
with us today to share her experiences with the implementation of the 
1997 legislation in Baltimore County.

                                 <F-dash>

    Mr. CAMP. Mr. Chairman.
    Chairman HERGER. Yes.
    Mr. CAMP. If I might, just for a second, this legislation, 
which former Member Barbara Kennelly and I worked very hard 
on--I agree with much of what the Chairman and Mr. Cardin have 
said, that it was really brought about when we saw that the way 
the Social Security Act was being implemented did not really 
protect children and families. So, we came up with this 
legislation to do that.
    I am looking forward to your testimony, Dr. Horn, about the 
recommendations that you might have to enhance the Act, which 
includes the adoption incentives and all part of it. So, I look 
forward to the testimony and hearing about how, over the last 
few years, this legislation has worked. Thank you.
    Chairman HERGER. Thank you, Mr. Cardin, and I thank the 
gentleman from Michigan, Mr. Camp. I thank both of you for the 
great work that you have put into this program. It needed a lot 
of work, and I think we have come a long way. Certainly we have 
a long way to go. So, I thank everyone.
    Before we move on to our testimony, I want to remind our 
witnesses to limit their oral statements to 5 minutes. However, 
without objection, all of the written testimony will be made a 
part of the permanent record.
    For our first witness today, we are honored to have with us 
again the Honorable Wade F. Horn, Ph.D., Assistant Secretary, 
Administration for Children and Families, U.S. Department of 
Health and Human Services (HHS). Mr. Secretary.

   STATEMENT OF THE HONORABLE WADE F. HORN, PH.D., ASSISTANT 
SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Dr. HORN. Thank you, Mr. Chairman, for the opportunity to 
appear before you and this Committee to discuss the 
implementation of ASFA.
    As many of you know, I'm a clinical child psychologist, and 
I have devoted my professional career to improving the well-
being of children. I have a longstanding interest in child 
welfare policy and practice, and like all of you, I am 
committed to improving the delivery of child welfare services 
throughout the country.
    The passage of ASFA represented a landmark in child welfare 
reform, and while there is evidence of positive change 
resulting from ASFA, there also are clear indications that the 
goals of ASFA remain elusive for far too many children and 
families. Therefore, it is important that we continue to work 
together to seek improvements in Federal child welfare 
programs.
    The ASFA was significant for several reasons. The Act 
clearly stated that the goals of the child welfare system were 
safety, permanency, and well-being, and it removed any 
ambiguity that safety of children is the paramount concern that 
must guide all child welfare services. Advancing these goals, 
ASFA provided numerous tools to States and the Federal 
Government to bring about systemic reforms regarding safety, 
permanency, adoption promotion, improved services, and 
accountability.
    Since the passage of ASFA, the Administration for Children 
and Families has worked diligently to fully implement these 
reforms. We have worked with the States to bring their laws and 
policies into compliance with ASFA; we have implemented the new 
Federal programmatic authorities authorized by ASFA; and we 
have woven the goals and requirements of ASFA into other 
ongoing work.
    One of the strengths of this legislation is its emphasis on 
tracking results for children and families. As required by 
ASFA, HHS consulted with State officials, advocates, 
researchers, and other experts, and developed a set of national 
child welfare outcome measures to track State performance. We 
have issued two reports on State performance thus far, and 
expect to submit a third report very soon.
    We also have continued to work with States to improve 
information systems and increase the quantity and quality of 
data that States collect and report. We have, for example, made 
significant investments in the Statewide Automated Child 
Welfare Information Systems (SACWIS) resulting in 29 States 
with comprehensive operational systems, 8 with partially 
operational systems, and 9 more which have taken steps toward 
planning or implementing a SACWIS system.
    The data shows some positive trends and results, most 
notably in the area of adoption. The number of children adopted 
from foster care grew from 31,000 in 1997 to 50,000 in 2001.
    Finally, our new system for monitoring child welfare 
services, the Child and Family Services Review (CFSR), is the 
cornerstone of our efforts to review State performance and 
ensure compliance with key provisions of the law, including 
requirements of ASFA. It also is our means to partner with the 
States in identifying areas that need improvement. The CFSR 
began in 2001 and, to date, we have reviewed 32 States, with 
plans to complete all reviews by March 2004.
    This Administration's commitment to support the goals and 
build on the legacy of ASFA is reflected in our 2003 budget 
request, as well as the President's 2004 budget request and 
legislative proposals. We were pleased to be able to work with 
this Committee and other Members of Congress to pass 
legislation reauthorizing and increasing the funding level for 
the Promoting Safe and Stable Families program, along with the 
authorization and first time funding of the President's 
proposal to provide education and training vouchers for youth 
who age out of foster care. Our fiscal year 2003 appropriations 
provided almost $405 million for Promoting Safe and Stable 
Families, and included funding for nearly $42 million to 
support educational vouchers for youth aging out of foster 
care. The President's 2004 budget request would go a step 
further and fully fund the Promoting Safe and Stable Families 
program at $505 million, and the educational vouchers program 
at $60 million.
    Now I would like to briefly turn to two critical policy 
changes that we have also proposed. As part of our 2004 budget, 
we have put forward legislative changes guided in part by what 
we've learned from ASFA. Specifically, we are proposing to 
reauthorize and better target the Adoption Incentives program 
originally created by ASFA. By providing a fiscal incentive, 
and by shining a bright light on State performance in adoption, 
this program has made a substantial contribution to increasing 
the number of children adopted over the past 5 years.
    However, when we analyzed the adoption data, we have 
learned that while the overall number of children being adopted 
has grown dramatically, older children in foster care still 
face excessively long waits for adoption and, in many cases, 
are never adopted. Therefore, we are proposing to amend this 
program so that it continues to recognize and reward overall 
increases in the number of adoptions, but provide a special 
focus on the adoption needs of children age 9 and older.
    Finally, I would like to briefly mention another proposal 
we have put forward to strengthen the child welfare system, a 
new State child welfare program option that would give States 
the opportunity to receive their Title IV-E foster care funds 
as a flexible, fixed allotment that can be used to support a 
range of child welfare services. We believe that this option 
will provide a powerful new means for States to structure their 
child welfare programs in a way that supports the goals of 
safety, timely permanency, and enhanced well-being for children 
and families, while relieving States of unnecessary 
administrative burdens.
    The ASFA and other recent changes in the law have made a 
meaningful and positive impact on the delivery of child welfare 
services. The work of assuring safety, permanency, and well-
being for every child who comes to the attention of a child 
welfare agency or court in this country remains a challenging 
task. I look forward to working with this Committee in ways to 
continuously strive to better the outcomes for all of these 
children.
    I would be pleased to answer any questions that you might 
have.
    [The prepared statement of Dr. Horn follows:]
Statement of The Honorable Wade F. Horn, Ph.D., Assistant Secretary for 
  Children and Families, U.S. Department of Health and Human Services
    Thank you for the opportunity to appear before you to discuss the 
implementation of the Adoption and Safe Families Act of 1997 and the 
impact of this critical legislation on child welfare. Within this 
context, I also am pleased to be able to present information on the 
Administration's proposal to reauthorize the Adoption Incentive 
Program, one of the innovative and extremely successful changes made by 
the Adoption and Safe Families Act.
    As many of you know, I am a clinical child psychologist by 
training, and I have devoted my professional career to improving the 
well-being of children. I have a longstanding interest in child welfare 
policy and practice and, like you, I am committed to improving the 
delivery of child welfare services throughout the country.
    It is particularly appropriate that this Subcommittee is taking a 
look at the implementation of the Adoption and Safe Families Act 
(ASFA), because passage of ASFA represented a landmark in child welfare 
reform. It set clear goals that helped to sweep away ambiguity and 
false dichotomies about the mission of child welfare services; it 
required as a condition of receiving program funds changes in State 
laws and policies, which in turn drove changes in front-line practice; 
it increased our national emphasis on results and reaffirmed the 
importance of accurate data collection and reporting to track results; 
it expanded resources for services; and it focused specific attention 
on promoting adoption.
    I appreciate the opportunity to discuss our work in implementing 
ASFA and some of the results we have seen since its implementation. 
While there is evidence of positive change resulting from ASFA, there 
also are clear indications that the goals of ASFA remain illusive for 
too many children and families. Therefore, it is important that we 
continue to work together to seek improvements in Federal child welfare 
programs.

The Federal Legal Framework for Child Welfare

    To understand the importance of ASFA, it is useful to place it in 
the context of the history of Federal policy development in child 
welfare. Much of the legal framework for today's child welfare services 
system was established by the Adoption and Child Welfare Act of 1980. 
This law laid out important principles and requirements to protect the 
rights of both children and families. Among the key provisions were 
requirements that States make reasonable efforts (1) to prevent the 
unnecessary removal of children from their homes and, (2) for children 
who are placed in foster care, to reunify children with their families 
when possible. The law also required individualized case planning for 
children in foster care and required periodic administrative reviews as 
well as a dispositional hearing before a court within 18 months of 
placement and every 12 months thereafter.
    While the 1980 law made vital contributions to the reform of child 
welfare policy and practice, as time passed, concerns remained that:

    <bullet> Ltoo often children's safety was not the primary concern;
    <bullet> Linadequate attention was being paid to services that 
could prevent abuse and neglect or resolve problems before they became 
a crisis;
    <bullet> Lefforts to reunify children went on for too long or were 
undertaken in instances that were clearly not ``reasonable'';
    <bullet> Lchildren were remaining in foster care for too long 
without a decision being made about a permanent placement; and,
    <bullet> Ltoo little attention was being paid to the need to find 
adoptive families for thousands of children who were waiting for a 
permanent, loving home.

    In response to these and other concerns, the 1990's brought a 
number of important reforms to Federal law, but the most significant 
and wide-reaching reforms were embodied in the Adoption and Safe 
Families Act of 1997.

The Importance of the Adoption and Safe Families Act

    The Adoption and Safe Families Act, or ``ASFA,'' was significant 
for several reasons. First, it clearly stated that the goals of the 
child welfare system are safety, permanency and well-being. The law 
removed any ambiguity that safety of children is the paramount concern 
that must guide all child welfare services. It also made clear that to 
address the developmental and emotional needs of children in foster 
care, decisions about permanency need to be made in a timely manner. 
Foster care needs to be regarded as a temporary setting, not a place 
for children to grow up. In advancing these goals, ASFA provided 
numerous tools to States and the Federal Government to bring about 
systemic reforms regarding safety, permanency, promotion of adoption, 
improved services and accountability.

    <bullet> LReforms in Safety--The law reaffirmed the importance of 
making reasonable efforts to preserve and reunify families, but 
emphasized the need to ensure children's safety in all such decisions. 
It also clarified that there are instances in which States are not 
required to make efforts to keep children with their parents, such as 
cases in which a parent has been convicted of murdering another child, 
a parent has had his or her rights to another child terminated 
involuntarily, or a court has found that the child has been subjected 
to aggravated circumstances as defined in State law (such as 
abandonment, torture or chronic abuse).
    <bullet> LThe law also required States to conduct criminal 
background checks of prospective foster and adoptive parents (unless 
the State Governor or legislature explicitly opts out of the 
requirement).
    <bullet> LReforms in Permanency--The law also required significant 
systemic reforms to ensure decisions are made about children's 
permanency in a timely manner. Permanency hearings are now required to 
be held no later than 12 months after a child enters care, six months 
earlier than had previously been required. In addition, for children 
who cannot be returned home safely, a requirement was added that States 
make reasonable efforts to find an adoptive home or other permanent 
living arrangement. The law further clarified that States could use 
concurrent planning, whereby they simultaneously work toward 
reunification and seek out potential adoptive parents or families in 
the event the child cannot be safely reunified.
    <bullet> LFor children who have been in foster care for 15 of the 
previous 22 months, the law required States to initiate proceedings to 
terminate parental rights, except in specified circumstances such as 
when the child is being cared for by a relative, the State agency has 
documented a compelling reason not to file the requisite petition, or 
the State agency has not provided the services deemed necessary to 
return the child safely to the home.
    <bullet> LPromotion of Adoption--In addition, ASFA created the 
first performance-based incentive in child welfare, the Adoption 
Incentive Program. This legislation authorized the payment of adoption 
incentive funds to States that are successful in increasing the number 
of children who are adopted from the public foster care system. The 
amount of the payments to States is based on increases in the number of 
children adopted from the foster care system in a year, relative to a 
baseline number. I'll speak more about this provision later in my 
statement.
    <bullet> LOther adoption improvements included removing 
interjurisdictional barriers and improving access to health care for 
adopted children.
    <bullet> LServices to Children and Families--The law recognized the 
importance of timely and quality services to families, including 
adoptive families. It expanded and extended the program previously 
known as Family Preservation and Family Support Services, and required 
funds to be spent in four categories of services: family support 
services that strengthen families and alleviate crises before they 
become serious; family preservation services that prevent the need to 
remove children from home; time-limited family reunification services 
to facilitate the safe return of children in foster care, when 
appropriate; and adoption promotion and support services.
    <bullet> LEmphasis on Accountability and Innovation--In addition to 
requiring States and the Federal Government to track the number of 
adoptions each year under the Adoption Incentive Program, the law 
required the Department of Health and Human Services, in consultation 
with State officials and other child welfare experts, to develop child 
welfare outcome measures and to prepare an annual report showing each 
State's progress.
    <bullet> LFinally, recognizing that greater innovation is needed to 
achieve positive outcomes for children and families in the child 
welfare system, ASFA expanded the number of demonstration projects that 
the Secretary may award, and gave the Secretary the discretion to 
extend projects beyond their originally approved period. This authority 
enables States to test new approaches to child welfare services 
delivery and financing, while requiring a rigorous evaluation and cost-
neutrality.

Implementation of ASFA

    Since the passage of ASFA, the Administration for Children and 
Families has worked diligently to fully implement its reforms. We have 
worked with the States to bring their laws and policies into compliance 
with ASFA; we have implemented the new Federal programmatic authorities 
authorized by ASFA, such as the Adoption Incentive Program, the 
Promoting Safe and Stable Families Program, and the expanded child 
welfare waiver demonstration authority; and we have woven the goals and 
requirements of ASFA into other ongoing work.
    As a result of these efforts and the commitment of States to better 
the lives of these vulnerable children, we have seen several 
indications that ASFA is having an impact on children and their 
families. I would like to discuss some hopeful signs of change, based 
on an analysis of national data from the Adoption and Foster Care 
Analysis and Reporting System (AFCARS).

Changes in Outcomes

    One of the strengths of ASFA is its emphasis on tracking results 
for children and families. As required by ASFA, the Department 
consulted with State officials, advocates, researchers and other 
experts and developed a set of national child welfare outcome measures 
to track State performance. We have issued two annual reports on State 
performance on these outcome measures and expect to be able to submit a 
third report very soon. While these reports show some areas of 
progress, they also point to areas that deserve more attention.
    We also have continued to work with States to improve information 
systems and increase the quantity and quality of data that States 
collect and report. We have, for example, made significant investments 
in Statewide Automated Child Welfare Information Systems (SACWIS). 
Spurred by Congress' approval of enhanced funding from FY 1994-FY 1997 
and through ongoing financial support and technical assistance, 29 
States now have operational systems that are comprehensive and capable 
of supporting both improved case management and required data 
reporting. An additional 8 States have systems that are partially 
operational and 9 more have taken steps toward planning or implementing 
SACWIS.
    In addition to making strides toward developing the infrastructure 
needed to track performance--the development of measures, modernized 
information systems and improved data reporting--we are also seeing 
some positive trends in results, most notably in the area of adoption. 
The number of children adopted from the foster care system grew from 
31,000 in FY 1997 to 50,000 in FY 2001. We expect that the final number 
of adoptions for FY 2002 will exceed last year's impressive results.
    We are committed to continuing to track results and will use this 
information to shape our ongoing efforts to improve child outcomes 
focused on safety, permanency and well-being.

Child and Family Services Reviews

    Our new system for monitoring child welfare services, the Child and 
Family Services (CFS) Reviews, is the cornerstone of our efforts to 
review State performance and ensure compliance with key provisions of 
law, including many requirements of ASFA. It also is our means to 
partner with the States in identifying areas that need improvement and 
in working with them to bring about those improvements. I would like to 
take a few moments to describe the reviews and what we are learning 
from them.
    The CFS reviews began in FY 2001 and to date we have reviewed 32 
States. We will complete the first round of reviews for all 50 States, 
the District of Columbia, and Puerto Rico by the end of March 2004.
    This is the most comprehensive and far-reaching Federal review of 
State child welfare services ever conducted. The review covers all 
areas of child welfare services, from child protection and family 
preservation, to adoption and positive youth development. The review 
requires that State child welfare agencies, in collaboration with a 
range of other State and local representatives, engage in an intense 
self-examination of their practices and analyze detailed data profiles 
that the Federal Government provides from our national data bases on 
child welfare. We follow the self assessment phase of the review with 
an intense onsite review--in which we pair teams of Federal and State 
staff to review cases and interview children, parents, and foster 
parents--to identify areas of strength in State child welfare programs 
and areas that require improvement. This joint approach to reviewing 
States has had the effect of not only engaging States in identifying 
their own strengths and weaknesses, but in building the commitment of 
States to make needed improvements and strengthen their capacity to 
self-monitor between Federal reviews.
    When weaknesses are identified, States enter into Program 
Improvement Plans to address any of the areas where we find 
deficiencies. Through a network of National Resource Centers, we 
provide technical assistance to help States develop and implement their 
Program Improvement Plans.
    We hold the States accountable for achieving the provisions of 
their Program Improvement Plans but, in order to assist them in making 
needed improvements, we suspend Federal penalties while a State is 
implementing its plan. If a State fails to carry out the provisions of 
its Program Improvement Plan or fails to achieve its goals, we will 
begin withholding applicable penalties.
    Among the most significant findings of the CFSR across the 32 
States are the following:

    <bullet> LStates are performing slightly better on safety outcomes 
for children than on permanency and well-being. In fact, the timely 
achievement of permanency outcomes, especially adoption, for children 
in foster care is one of the weakest areas of State performance.
    <bullet> LAll State Program Improvement Plans will need to include 
provisions to strengthen the quality of front-line practice in such 
areas as conducting needs assessments of children and families and 
developing effective case plans.
    <bullet> LMost of the States will need to make significant 
improvements in their judicial processes for monitoring children in 
foster care, such as assuring timely court hearings and increasing 
their attention to timely termination of parental rights, where 
appropriate.
    <bullet> LThe reviews point to a strong correlation between 
frequent caseworker visits with children and positive findings in other 
areas, such as timely permanency achievement and indicators of child 
well-being.

Commitment to Continued Improvement of the Child Welfare System

    This Administration's commitment to support these goals and to 
build on the legacy of ASFA is reflected in the legislative 
accomplishments we have been able to achieve thus far and in the budget 
and new proposals we have put forward for FY 2004. We are proud of the 
progress made to date in providing more resources to States to support 
children, youth and families. We were pleased to be able to work with 
this Committee and other Members of Congress to pass legislation in the 
last Congress reauthorizing and increasing the funding level for the 
Promoting Safe and Stable Families Program, which funds family support, 
family preservation, time-limited reunification and adoption promotion 
and support services and also provides funding for the Court 
Improvement Program. And we are appreciative of the authorization and 
first-time funding of the President's proposal to provide education and 
training vouchers for youth who ``age out'' of foster care. This 
program will offer youth a chance to complete their education, thereby 
improving their prospects to become truly independent and self-
sufficient adults.
    Our FY 2003 appropriations provided almost $405 million for the 
Promoting Safe and Stable Families Program, $29 million over the FY 
2002 level, and included additional funding of nearly $42 million to 
support educational vouchers for youth aging out of foster care. The 
President's FY 2004 request would go a step further and fully fund the 
Promoting Safe and Stable Families Program at $505 million and the 
educational vouchers program at $60 million. I hope that you will join 
us in supporting these targeted, but important investments, as well as 
critical policy changes to adoption incentives and foster care that I 
would like to turn to briefly.

Child Welfare Legislative Enhancement

    As part of the FY 2004 budget we also have put forward legislative 
changes guided in part by what we have learned from ASFA. Specifically, 
we are proposing to reauthorize and better target the Adoption 
Incentive Program that was originally created by ASFA. By providing a 
fiscal incentive and by shining a bright light on State performance in 
adoption, this program has made a substantial contribution to 
increasing the number of children adopted over the past five years.
    However, as we have analyzed adoption data, we have learned that 
while the overall number of children being adopted has grown 
dramatically, older children in foster care still face excessively long 
waits for adoption and, in many cases, are never adopted. This is 
clearly a problem that warrants our attention.
    In fact, data from AFCARS show that by age 9, the probability that 
a child will continue to wait in foster care exceeds the probability 
that the child will be adopted. Furthermore, the number of children in 
this older age group is growing, now representing almost half of the 
children waiting to be adopted nationally.
    To ensure that the adoption incentive focuses on these hard-to-
place children, the President proposes that the Adoption Incentive 
Program be amended so that it continues to recognize and reward overall 
increases in the number of adoptions, but also provides a special focus 
on the adoption needs of children age 9 and older. Under this new 
proposal, adoption incentives would be awarded using two independent 
baselines: one for the total number of children adopted from the public 
foster care system; and the other for children age nine and older 
adopted from the public foster care system. Similar to current law, 
once a State reaches the baseline for the total number of adoptions for 
the year, it would become eligible to receive a $4,000 incentive 
payment for each additional child adopted from the public child welfare 
system. Additionally, we would establish a separate baseline for the 
number of children age 9 and older who are adopted. Once the State 
reaches this new baseline for a year, it would receive a $6,000 payment 
for each additional child, age 9 and above, adopted from the public 
child welfare system.
    Awarding the incentive funds in this way will provide a special 
focus on the adoption needs of older children, while maintaining the 
goal of increasing adoptions for all waiting children. We look forward 
to working with you to reauthorize this critical program.
    Finally, I would like to take this opportunity to briefly mention 
another proposal to strengthen child welfare systems in the President's 
FY 2004 budget. We are proposing a new Child Welfare Program Option 
that would give States the opportunity to receive their Title IV-E 
foster care funds as a flexible, fixed allotment that can be used to 
support a range of child welfare services. We believe that this option 
will offer a powerful new means for States to structure their child 
welfare services program in a way that supports the goals of safety, 
timely permanency and enhanced well-being for children and families, 
while relieving them of administrative burdens. Given the continuing 
problems faced by States in managing their child welfare programs, we 
all must think about more creative ways to strengthen these programs. 
This alternative financing option responds to suggestions made by many 
States to provide them with more flexibility to address the needs of 
these vulnerable children and families. I look forward to having the 
opportunity to discuss this proposal with you more fully in a future 
hearing.

Conclusion

    The Adoption and Safe Families Act and other recent changes in 
Federal law have had a meaningful and positive impact on the delivery 
of child welfare services. In particular, changes in law and philosophy 
have helped thousands more children find the love and security of an 
adoptive family. But the work of assuring the safety, permanence and 
well-being of every child who comes to the attention of a child welfare 
agency or court in this country remains a tremendously challenging 
task. We are committed to working with the States, Members of Congress, 
community and faith-based organizations, and concerned citizens to 
continuously strive for better outcomes for all of these children.
    I would be pleased to answer any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Horn. Now we will turn to 
questions. I would like to remind the Members that they each 
have 5 minutes for witness questions. The gentleman from 
Michigan, Mr. Camp, to inquire.
    Mr. CAMP. Thank you. Dr. Horn, I notice in your testimony 
you talk about the dramatic increase in adoptions from 1997 to 
2001. Is there any one factor that you can attribute to this 
increase, any policy in the Adoption or Safe Families Act, or 
set of policies that are being implemented by the States that 
you might attribute this to?
    Dr. HORN. I think there are at least two very significant 
policy changes in the 1997 law. The first was a clear focus on 
moving children quickly to adoption, as opposed to allowing 
children to live out their childhood in the foster care system. 
I think that that clear message in the ASFA legislation has 
been taken to heart by the States and they, in fact, are 
placing more focus on adoption.
    In addition to that, I do think the Adoption Incentives 
Program has been very helpful in providing a fiscal incentive 
for States to move children quickly towards adoption. I don't 
think there is any question in any objective observer's mind 
that the creation of the Adoption Incentives Program has had a 
significant impact on moving children who have had their 
parental rights terminated toward finalized adoption.
    Mr. CAMP. Thank you. I also want to talk about this 
incentive award. Arguments might be made that this would 
distract, if you focus on older children, that that might 
distract from special needs children, for example. Could you 
just discuss that a little bit?
    Dr. HORN. Sure. First of all, it is important that we 
recognize that the term ``special needs'' in the context of the 
Title IV-E Adoption Assistance Program is a term of art. It is 
not restricted to the sort of common definition of special 
needs to mean children with disabilities. It has a much broader 
definition.
    One of the things that we noticed when we looked at the 
adoption data over the last 5 years is that, while it is true 
that the total number of adoptions increased over the last 5 
years, the percentage or proportion of those adoptions that 
were children with special needs has stayed relatively constant 
over time at about 75 percent. So, there does not seem to be 
any specific incentive for moving children with special needs 
towards adoption independent of the incentive to move children 
in general towards adoption.
    However, there is one group of children that it does not 
appear have moved in the same way toward adoption in the same 
proportion as other children, and that is older children. Our 
data shows that once a child reaches age 8 or 9, the odds of 
them staying in foster care, as opposed to being adopted out of 
foster care, becomes greater. In fact, what we see is that the 
proportion of children who are 9 years old or older that are 
free for adoption has grown over the last 5 years, from about 
38 percent to about 46 percent.
    So, what we would like to do is continue to have an 
incentive to move the broad base of children into adoption from 
the public welfare system through a continuing financial 
incentive to increase the number of adoptions, while at the 
same time creating a separate incentive for moving children who 
are older toward adoption as well.
    Mr. CAMP. Thank you. One last question. You mentioned in 
your testimony about the 1997 law removing the ambiguity about 
the safety of children being the most important thing. States 
have implemented a number of policies to ensure that child 
safety is a key consideration. Can you comment on the effect of 
these new laws or policies and their effect on child safety?
    Dr. HORN. Clearly, ASFA had an impact on State laws, and we 
have worked with the States over the last 5 years to ensure 
that the requirements of ASFA now are reflected in State law.
    When we look at outcomes for children, however, it is clear 
that we are seeing better outcomes in terms of adoptions, but 
it is less clear that we are seeing better outcomes in terms of 
safety and/or permanency. Now, the good news is things are not 
getting worse in terms of safety or permanency, but the data 
does not give us reason to believe that we have seen 
substantial increases in those areas. We think that we, the 
Federal Government and the States, need to do a better job in 
this area in translating changes in law into improved practice 
that results in better outcomes for children in this area.
    What we intend to do is continue to work with the States as 
our partners in this arena in order to make sure that those 
changes in State law actually translate into better safety 
outcomes for kids.
    Mr. CAMP. Thank you. Thank you very much.
    Chairman HERGER. Thank you. The gentleman from Maryland, 
the Ranking Member, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Dr. Horn, let me just 
ask you one question of clarification. In regard to the bonuses 
on adoption, whether it's the under nine or over nine, what is 
the Administration's position as to base year or baseline on 
judging the performance of a State? I'm not sure where you've 
come down on that.
    Dr. HORN. In terms of the incentive for increasing the 
total number of adoptions, we would keep the base year the way 
it is under current law, which as I'm sure you will recall is 
an average of fiscal years 1995, 1996, and 1997. That baseline 
goes up, in fact, if adoptions go up in a given year, so we 
want to continue to provide incentives for more adoptions in 
subsequent years. Under our proposal, we would suggest that 
2003 be the base year for the adoption of older children.
    Mr. CARDIN. Thank you for that clarification. The U.S. 
General Accounting Office (GAO) released a report entitled 
``Child Welfare: HHS Could Play a Greater Role in Helping Child 
Welfare Agencies Recruit and Retain Staff.'' The report points 
out what I think many of us know, that as a result of low 
salaries, high caseloads and insufficient training, we've had a 
very large turnover of caseworkers dealing with children in our 
child welfare system. The GAO concluded that the turnover 
negatively affects the relationship in dealing with the 
children because there is not the relationship that develops 
that can be very helpful in dealing with the problem.
    I'm interested as to whether you concur in that, as to 
whether you think we should be playing a more aggressive role 
in regards to the qualifications and the problems facing 
caseworkers.
    Dr. HORN. As a clinical psychologist who has worked both in 
the child welfare system and interacted with it for much of my 
professional career, I can tell you that to have the best 
outcome for kids, you need a well-qualified, experienced, and 
well-trained professional workforce. So, I concur with the 
ideas reflected within the GAO report, that we need to work 
aggressively to try to ensure that we have a high degree of 
professionalism, experience, and well-trained workers within 
the child welfare system.
    It is an area that HHS has devoted, and will continue to 
devote, discretionary funds in order to accomplish that goal. 
Also within the context of the increased funding that we have 
requested for the Promoting Safe and Stable Families program, 
those moneys could also be used to enhance the professional 
development of caseworkers in the child welfare system. So, 
yes, I agree with the fundamental thrust of the GAO report.
    Mr. CARDIN. I appreciate the fact that the Administration 
has put the extra money in their budget. Congress hasn't been 
as generous in prior years. We haven't funded up to the 
authorized levels. The fact that the Administration is 
supporting an extra $200 million is no guarantee that Congress, 
in fact, will make those dollars available. If his is any 
indication, it probably will not.
    May I suggest that you may want to support making that 
mandatory funding rather than discretionary funding, to make 
sure the promises that we're making are actually kept by the 
Congress.
    Dr. HORN. As you know, the President's fiscal year 2004 
budget has asked for that entire $200 million in additional 
money to be appropriated. We're quite serious about that, and 
we will look forward to working with the Congress to ensure 
that all of that money is, in fact, appropriated this year. So, 
we are not backing away from that $200 million increase. We 
would like that whole increase, and we hope that the Congress 
will appropriate those moneys.
    Mr. CARDIN. I look forward to working with you in that 
regard. I would just tell you, you wouldn't have to spend as 
much time if it was mandatory rather than discretionary. You 
could then use your lobbying of Congress to do different things 
and wouldn't have to spend the time worrying about the money. 
Wouldn't that be a little bit easier for you?
    [Laughter.]
    I'm trying to help you.
    Dr. HORN. It's nice to know you are sympathetic to my 
overscheduled day.
    Mr. CARDIN. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you. Now the gentlelady from 
Connecticut, Mrs. Johnson, to inquire.
    Mrs. JOHNSON. Thank you, Mr. Chairman, and welcome, Dr. 
Horn. It's a pleasure to have you.
    In preceding bills, we enabled the States, or actually 
encouraged the States, to seek waivers, to be able to use their 
foster care placement funds more flexibly. Indeed, in my State 
we had tremendous success with a consortium of child caring 
facilities using that waiver, to be able to move the child from 
home to an institutional setting, to residential treatment 
facilities, and back out to maybe a trial permanent placement. 
There's a lot of gradations along, but we were able to use that 
waiver to manage our money far more flexibly in regard to that 
child's well-being to both minimize the time the child was 
separated from the family, maximize the positive re-entry 
experience of the child into their family and community, or 
accelerate and improve the chances of a permanent placement 
being successful.
    What have you learned from those waiver programs, and how 
many of the States that did them would like to make that 
flexibility permanent across the board, and would your proposed 
legislation allow a State to move to that kind of flexibility 
as a total statewide policy as opposed to a waivered project?
    Dr. HORN. As you know, I work for a Secretary who is very 
supportive of flexibility, and certainly in the area of child 
welfare, we think there needs to be greater flexibility. We 
were supportive of the provision within the bill, H.R. 4, that 
extended and, in fact, expanded the waiver demonstration 
authority in the child welfare area.
    One of the things we have learned in the past is that 
States do have an interest in being able to spend Title IV-E 
foster care funds more flexibly than under current law. One of 
the reasons that we put forward our proposal to provide States 
the option to use Title IV-E foster care funds more flexibly is 
so that State spending isn't limited to foster care maintenance 
payments and administrative costs associated with children in 
foster care who have already been abused and neglected. We feel 
that our option allows States flexibility to construct a more 
rational system.
    Mrs. JOHNSON. It just seems to me that you could be much 
more aggressive at this point. We have a lot of experience with 
this. Maybe we're going to hear about this in the next panel, 
but I would like to hear about some of the States who had 
enormous success with this. What was the difference between 
those States who had success and those States who tried it and 
didn't have success? Are there some criteria we can draw from 
that?
    Frankly, we have got to get away from setting driving 
funding, because that's not in the child's interest. The money 
ought to be following the abused child until the child is 
settled in a permanent and healthy placement. So, if you can, I 
would like you to come back in the future with a few of the 
most successful State waiver programs, and what can be learned. 
It's nice to give States flexibility, but some who don't want 
to be bothered with that level of integration and communication 
around the child, as opposed to around the agency and their 
program, I think need a push. So, I don't think waivers are 
enough any more.
    Now, I'm not an expert, so I understand that I'm saying 
this from limited information. That's why I would like to see 
the results of those waivers more concretely, to see whether we 
shouldn't be learning from those waivers to go beyond 
flexibility to push people into more integrated systems of 
care.
    I see the light is turning yellow, so let me state my 
second question. We know that 80 percent of families in which 
there is abuse and neglect also have an adult with a substance 
abuse problem. Are we aggressively targeting that? Are we 
saying we know this, we've known this for over a decade, and 
you must identify that abuse problem, and the adult abuser must 
be in a substance abuse treatment plan?
    I am very pleased that the President has brought more money 
into the system, but what imperative are we putting on States 
to go after this problem?
    Dr. HORN. One of the things we did recently was team up 
with Substance Abuse and Mental Health Services Administration, 
particularly the Center for Substance Abuse Treatment, and 
created a new national resource center that is dedicated to 
working with this issue of substance abuse within the context 
of the child welfare system. So, we hope that that new national 
resource center will help to drive innovative practice all 
across the country. You're exactly right, substance abuse is 
the driver for so many of the cases that come in contact with 
the child welfare system. Frankly, we need to do a better job.
    As you noted, the President has asked for additional 
resources, $600 million over 3 years, for substance abuse 
treatment in the form of vouchers that could be integrated into 
the child welfare system to provide greater access for those 
families where substance abuse is an issue.
    Mrs. JOHNSON. Thank you.
    Chairman HERGER. Thank you. Dr. Horn, in our next panel, 
one of our witnesses made a statement that I would like you to 
comment on, if you would. Ms. Schagrin, in her testimony on 
page 2, says, with respect to the inflexibility of the Title 
IV-E program, one proposal is to block grant Federal funds in 
exchange for offering States greater flexibility in their 
expenditures. ``Dismantling Federal oversight and 
accountability is simply a tragic abdication of responsibility 
for our Nation's most helpless children . . .'' Would you care 
to comment on that statement?
    Dr. HORN. What it suggests to me is that we have to do a 
better job of communicating what is actually in our proposal, 
because that does not reflect our proposal at all.
    First of all, it is not a block grant. It allows States the 
option to provide themselves with the ability to spend their 
Title IV-E foster care dollars more flexibly. More 
fundamentally, the statement that somehow we are dismantling 
protections is incorrect. Our proposal specifically says that 
we will maintain all of the child protections contained within 
current law for States that choose this option.
    In fact, we believe that in the States that elect this 
option, you will actually see an enhanced oversight of those 
protections--and here's why. Right now, a lot of the 
protections are contained within the Title IV-E foster care 
legislation. The way that we review Title IV-E foster care 
cases is we draw a sample of kids in foster care who are Title 
IV-E eligible. That is only about 42 or 43 percent of the 
cases. So, when we draw our sample and look at the protections 
for those cases, we are not drawing the sample from the 
universe of everybody in foster care, but only from those who 
are in Title IV-E foster care, about 42 or 43 percent of the 
cases.
    What we propose is that, if the States elect this option, 
they no longer have a Title IV-E foster care program in the way 
that we currently think about it, but all the protections would 
still apply. The oversight would then be done within the CFSR.
    When we draw the samples to review at the case level in the 
CFSR, we don't draw just from the Title IV-E cases, the 43 
percent of the cases that are eligible. We draw from the entire 
universe of cases, which would provide us with the opportunity 
to ensure the protections are in place, not just for the kids 
who are in Title IV-E, but for all the kids in care, whether 
they are Title IV-E eligible or not. So, we actually believe 
that our proposal for States who choose this option would 
enhance the ability for us to provide oversight for all 
children in care, not just those children who are Title IV-E 
eligible.
    Chairman HERGER. Thank you very much for your testimony, 
Dr. Horn. At this point I would like to invite our next panel 
to please have a seat at the table. On today's panel we will 
hear from Cornelia Ashby, Director, Education, Workforce, and 
Income Security Issues at GAO; the Honorable Dave Heaton, a 
Representative in the Iowa House of Representatives, on behalf 
of the National Conference of State Legislatures (NCSL); Robin 
Arnold-Williams, Executive Director, Utah Department of Human 
Services, on behalf of the American Public Human Services 
Association (APHSA). To introduce the next witness, I turn to 
the gentleman from Maryland, Mr. Cardin.
    Mr. CARDIN. Thank you. It is my pleasure to welcome Judith 
Schagrin to our Committee, who is the Assistant Director of the 
Baltimore County Department of Social Services, which you have 
already mentioned so prominently in asking a question.
    Ms. Schagrin has been at the Baltimore County Department of 
Social Services for 20 years and has served as the Agency's 
Administrator for Foster Care and Adoption Programs for the 
last 5 years. In addition to her work with the county, she also 
serves as a foster parent to a severely emotionally disturbed 
adolescent and provides respite care for three emotionally 
disturbed young boys. We are very pleased to have her with us 
today, and I thank her for being here.
    Chairman HERGER. Thank you. We also have with us S. Truett 
Cathy, Founder of WinShape Center, Inc. That's a very 
attractive tie you have on, Mr. Cathy. We have Mark Hardin, 
Director of the National Child Welfare Resource Center on Legal 
and Judicial Issues, and Director of Child Welfare, Center on 
Children and the Law, American Bar Association (ABA), and 
Jennifer Miller, Senior Consultant at Cornerstone Consulting 
Group. We will now hear from our witnesses. Ms. Ashby, please.

    STATEMENT OF CORNELIA M. ASHBY, DIRECTOR FOR EDUCATION, 
WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Ms. ASHBY. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me here today to discuss the 
implementation of ASFA.
    My testimony will address four issues: changes in outcomes 
and characteristics of children in foster care from ASFA's 
enactment through fiscal year 2000; States' implementation of 
ASFA's fast track and 15 of 22 provisions; States' use of 
ASFA's adoption-related funds; and practices States use to 
address barriers to achieving permanency for children in foster 
care.
    The fast track provision allows States to bypass efforts to 
reunify families in certain egregious situations. The 15 of 22 
provision requires States, with a few exceptions, to file a 
petition to terminate parental rights (TPR) when a child has 
been in foster care for 15 of the most recent 22 months.
    My comments are based on our analysis of national data from 
HHS, a survey we conducted of child welfare directors in the 50 
States and the District of Columbia, and information obtained 
during visits to 6 States and interviews with Federal officials 
and child welfare experts. We reported our findings from this 
work to you and the other requesters in a June 2002 report.
    The number of annual foster care adoptions increased by 57 
percent from ASFA's enactment through 2000. However, data 
limitations restricted our ability to determine how other 
foster care outcomes and children's characteristics changed. 
The limitations also restricted our ability to determine how 
ASFA affected the number of adoptions of other foster care 
outcome.
    However, recent HHS data provides some information about 
the characteristics and experiences of foster care children 
after enactment of ASFA. For example, children leaving foster 
care between 1998 and 2000 spent a median of nearly 1 year in 
foster care, and those who were adopted spent a median of about 
3\1/2\ years in foster care. Upon leaving foster care, most 
children returned home to the families they had been living 
with prior to entering foster care. However, about a third of 
the children who went home to their birth families in 1998 
subsequently returned to foster care by 2000.
    Few States provided data on the numbers of children 
affected by ASFA's fast track, and 15 of 22 provisions, and HHS 
collects very little data on the use of these provisions. Four 
States that provided fast track data in response to our survey 
indicated that they do not use this provision frequently. They 
described several court-related issues that make it difficult 
to fast track more children, including court delays, a 
reluctance on the part of some judges to relieve the State from 
reunification efforts, and difficulty in proving the existence 
of the aggravated circumstances that would justify fast 
tracking.
    Survey responses from the few States that provided data on 
the 15 of 22 provision indicate that these States do not file 
TPRs for many children who are in care for 15 months. Officials 
in the six States we visited reported that they determined the 
filing of TPR under this provision for many children is not in 
the children's best interest.
    States reported in our survey that they most commonly use 
their adoption related funds to recruit adoptive families and 
provide post-adoption services. Child specific recruitment 
efforts included featuring children available for adoption on 
television, hosting matching parties for prospective adoptive 
parents to meet children available for adoption, and taking 
pictures and making videos of foster children to show to 
prospective families.
    General recruitment efforts included promoting adoption 
through national adoption month events, hiring additional 
recruiters, and partnering religious groups. About 60 percent 
of the States responding to our survey funded post-adoption 
services such as counseling, respite care, support groups, and 
recreational activities.
    States have developed a range of practices to address 
longstanding barriers to achieving permanency for children in a 
timely manner. However, because few of these practices have 
been vigorously evaluated, limited information is available on 
their effectiveness.
    Such practices include mediation involving family members 
and potential adoptive parents, assigning a judge trained in 
handling child welfare issues to a cluster of rural counties, 
targeting efforts to recruit adoptive parents to individuals 
who may be more likely to adopt children with special needs, 
and subsidizing long-term guardianships.
    In conclusion, the availability of reliable data, both on 
foster care outcomes and the effectiveness of child welfare 
practices, is essential to efforts to improve the child welfare 
system. In this regard, to obtain a clear understanding of how 
ASFA's two key permanency provisions are working, we 
recommended in our June 2002 report that the Secretary of HHS 
determine the feasibility of collecting data on States' use of 
the fast track and 15 of 22 provisions. In addition, we are 
currently conducting an engagement for the Senate Finance 
Committee and the House Majority Leader on States' automated 
child welfare information systems. I expect this report to be 
issued in July.
    Mr. Chairman, this concludes my remarks. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Ashby follows:]
Statement of Cornelia M. Ashby, Director for Education, Workforce, and 
         Income Security Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me here today to discuss the implementation of the Adoption 
and Safe Families Act of 1997 (ASFA). As you are aware, this 
legislation was enacted in response to concerns that some children were 
languishing in temporary foster care while prolonged attempts were made 
to reunify them with their birth families. ASFA contained two key 
provisions that were intended to help states move children in foster 
care more quickly to safe and permanent homes. One of these provisions, 
referred to as ``fast track,'' allows states to bypass efforts to 
reunify families in certain egregious situations. The other provision, 
informally called ``15 of 22,'' requires states, with a few exceptions, 
to file a petition to terminate parental rights (TPR) when a child has 
been in foster care for 15 of the most recent 22 months. In addition, 
ASFA emphasized the importance of adoption when foster children cannot 
safely and quickly return to the care of their birth parents. Toward 
that end, ASFA established incentive payments for states that increase 
their adoptions. In addition, the law provided a new source of funds 
for states to use to promote and support adoptions through the 
Promoting Safe and Stable Families (PSSF) program.
    My testimony today will focus on four key issues: (1) changes in 
the outcomes and characteristics of children in foster care from the 
time ASFA was enacted through fiscal year 2000, (2) states' 
implementation of ASFA's fast track and 15 of 22 provisions, (3) 
states' use of adoption-related funds provided by ASFA, and (4) 
practices states are using to address barriers to achieving permanency 
for children in foster care. My comments are based on the findings from 
our June 2002 report, Foster Care: Recent Legislation Helps States 
Focus on Finding Permanent Homes for Children, but Long-Standing 
Barriers Remain (GAO-02-585, June 28, 2002). Those findings were based 
on our analyses of national foster care and adoption data from the U.S. 
Department of Health and Human Services (HHS) for fiscal years 1998 
through 2000; \1\ site visits to Illinois, Maryland, Massachusetts, 
North Carolina, Oregon, and Texas; and interviews with federal 
officials and child welfare experts. In addition, we conducted a survey 
of child welfare directors in the 50 states and the District of 
Columbia.\2\ We received responses from 46 states, although they did 
not all respond to every question.\3\
---------------------------------------------------------------------------
    \1\ Throughout this testimony, fiscal year refers to federal fiscal 
year, unless noted otherwise. In addition, we selectively updated 
information contained in this testimony.
    \2\ Throughout this testimony, references to state survey responses 
include the District of Columbia.
    \3\ In addition, we requested survey data by federal fiscal year 
for 1999 and 2000. However, of the 46 states responding to our survey, 
22 provided data for time periods other than federal fiscal years 1999 
and 2000, such as calendar year or state fiscal year.
---------------------------------------------------------------------------
    In summary, while the annual number of adoptions has increased by 
57 percent from the time ASFA was enacted through fiscal year 2000, the 
lack of comparable pre- and post-ASFA data makes it difficult to 
determine ASFA's role in this increase or changes in other foster care 
outcomes. However, HHS data on children who left foster care between 
1998 and 2000 provide some insight into the experiences of children in 
foster care. For example, children who left foster care during this 
time spent a median of nearly 1 year in care. Of these children, those 
who were adopted spent a median of approximately 3\1/2\ years in foster 
care. Recent improvements in the quality of HHS data, however, make it 
difficult to determine if changes observed after 1998 are the result of 
changes in data quality or actual changes in the outcomes and 
characteristics of foster children. Similarly, data on states' use of 
ASFA's two key permanency provisions--fast track and 15 of 22--are 
limited, although some states described circumstances that hindered the 
broader use of these provisions. For example, state officials described 
several court-related issues, such as reluctance on the part of some 
judges to allow a state to bypass reunification efforts, which made it 
difficult for these states to use the fast track provision for more 
cases.
    In general, states are most frequently using the new adoption-
related funds provided by ASFA to recruit adoptive parents and provide 
post adoption services. For example, Connecticut used its adoption 
incentive funds to buy advertisements on Spanish language television to 
recruit adoptive families for older Hispanic children and sibling 
groups to address a shortage of families for these children. Oregon 
used its PSSF funds to create a new, statewide resource center to 
provide information and referral services, support groups, and 
educational workshops to adoptive families. The states we visited have 
implemented a variety of practices to address longstanding barriers--
such as court delays and difficulties in recruiting adoptive families 
for children with special needs--to achieving permanency for foster 
children. To help address court delays, for example, Massachusetts has 
developed a mediation program to help birth families and potential 
adoptive parents agree on the permanent plan for a child, thereby 
avoiding the time associated with a court trial and an appeal of the 
court's decision. States are testing different approaches to address 
these barriers; however, limited data are available on the 
effectiveness of these practices.
Background
    The foster care system has grown dramatically in the past two 
decades, with the number of children in foster care nearly doubling 
since the mid-1980s. Concerns about children's long stays in foster 
care culminated in the passage of ASFA in 1997, which emphasized the 
child welfare system's goals of safety, permanency, and child and 
family well-being. HHS's Administration for Children and Families (ACF) 
is responsible for the administration and oversight of federal funding 
to states for child welfare services under Titles IV-B and IV-E of the 
Social Security Act.
    These two titles of the Social Security Act provide federal funding 
targeted specifically to foster care and related child welfare 
services.\4\ Title IV-E provides an open-ended individual entitlement 
for foster care maintenance payments to cover a portion of the food, 
housing, and incidental expenses for all foster children whose parents 
meet certain federal eligibility criteria.\5\ Title IV-E also provides 
payments to adoptive parents of eligible foster children with special 
needs.\6\ Special needs are characteristics that can make it more 
difficult for a child to be adopted and may include emotional, 
physical, or mental disabilities; age; or being a member of a sibling 
group or a member of a minority race. Title IV-B provides limited 
funding for child welfare services to foster children, as well as 
children remaining in their homes. In fiscal year 2002, total Title IV-
E spending was approximately $6.1 billion and total Title IV-B spending 
was approximately $674 million.
---------------------------------------------------------------------------
    \4\ In addition, Title XX provides funds under the social services 
block grant that may be used for many purposes, including child 
welfare.
    \5\ Certain judicial findings must be present for the child in 
order for the child to be eligible for Title IV-E foster care 
maintenance payments.
    \6\ Special needs are defined as a specific factor or condition 
that make it difficult to place a child with adoptive parents without 
providing adoption assistance. States have the discretion to define the 
specifics of the special needs category. The existence of special needs 
is used to determine a child's eligibility for adoption assistance 
under Title IV-E. To qualify for an adoption subsidy under Title IV-E, 
the state must determine that the child cannot or should not return 
home; the state must make a reasonable, but unsuccessful effort to 
place the child without the subsidy; and a specific factor or condition 
must exist that makes it difficult to place the child without a 
subsidy.
---------------------------------------------------------------------------
    HHS compiles data on children in foster care and children who have 
been adopted from state child welfare agencies in the Adoption and 
Foster Care Analysis and Reporting System (AFCARS). HHS is responsible 
for collecting and reporting data and verifying their quality. States 
began submitting AFCARS data to HHS in 1995. Twice a year, states are 
required to submit data on the characteristics of children in foster 
care, foster parents, adopted children, and adoptive parents. Prior to 
AFCARS, child welfare data were collected in the Voluntary Cooperative 
Information System (VCIS), operated by what was then called the 
American Public Welfare Association.\7\ Since reporting to VCIS was not 
mandatory, the data in the system were incomplete. In addition, the 
data submitted were inconsistent because states used different 
reporting periods and different definitions for various data elements.
---------------------------------------------------------------------------
    \7\ In 1998, the American Public Welfare Association became the 
American Public Human Services Association.
---------------------------------------------------------------------------
    ASFA included two key provisions intended to help states move into 
safe, permanent placements those foster children who are unable to 
safely return home in a reasonable amount of time. Under the fast track 
provision, states are not required to pursue efforts to prevent removal 
from home or to return a child home if a parent has (1) lost parental 
rights to that child's sibling; (2) committed specific types of 
felonies, including murder or voluntary manslaughter of the child's 
sibling; or (3) subjected the child to aggravated circumstances, such 
as abandonment, torture, chronic abuse, or sexual abuse. In these 
egregious situations, the courts may determine that services to 
preserve or reunite the family are not required. Once the court makes 
such a determination, the state must begin within 30 days to find the 
child an alternative permanent family or other permanent 
arrangement.\8\
---------------------------------------------------------------------------
    \8\ In addition, the Abandoned Infants Assistance Act of 1988, as 
amended in 1996, requires states to expedite the termination of 
parental rights for abandoned infants in order to receive priority to 
obtain certain federal funds.
---------------------------------------------------------------------------
    The second provision requires states to file a TPR with the courts 
if (1) an infant has been abandoned; (2) the parent committed any of 
the felonies listed in the fast track provision; or (3) the child has 
been in foster care for 15 of the most recent 22 months. ASFA allows 
for some exemptions from the 15 of 22 provision. Under ASFA, states are 
not required to file a TPR if the child is placed with a relative; the 
state has not provided services needed to make the home safe for the 
child's return; or the state documents a compelling reason that filing 
a TPR is not in the child's best interest.
    ASFA also created two new adoption-related funding sources. First, 
ASFA reauthorized the family preservation and family support program 
under subpart 2 of Title IV-B of the Social Security Act, renaming it 
Promoting Safe and Stable Families (PSSF) and adding two new funding 
categories: adoption promotion and support services and time-limited 
family reunification services. The original family preservation program 
included only family preservation and community-based family support 
services. In January 2002, the PSSF program was reauthorized, 
authorizing $305 million for each of fiscal years 2002 through 2006, 
along with an additional $200 million in discretionary grant funds for 
each of those years.
    Second, ASFA created the adoption incentive payment program, which 
awards states $4,000 for each foster child who is adopted over a 
previously established baseline and an extra $2,000 for each adopted 
child characterized by the state as having a special need. States have 
earned a total of approximately $145 million in incentive payments for 
adoptions finalized in fiscal years 1998 through 2001.
    ASFA also expanded the use of federal child welfare demonstration 
waivers that allow states to test innovative foster care and adoption 
practices. In 1994, the Congress gave HHS the authority to establish up 
to 10 child welfare demonstrations that waive certain restrictions in 
Titles IV-B and IV-E of the Social Security Act and allow broader use 
of federal foster care funds. ASFA authorized 10 additional waivers in 
each year between fiscal years 1998 and 2002 to ensure more states had 
the opportunity to test innovations. States with an approved waiver 
must conduct a formal evaluation of the project's effectiveness and 
must demonstrate the waiver's cost neutrality--that is, a state cannot 
spend more in Titles IV-B and IV-E funds than it would have without the 
waiver. Projects generally are to last no more than 5 years.
LLimited Data are Available to Measure Changes in the Outcomes and 
        Characteristics of Children Since ASFA
    The number of annual adoptions has increased since the 
implementation of ASFA; however, data limitations restrict comparative 
analysis of other outcomes and characteristics of children in foster 
care.\9\ Foster care adoptions grew from 31,004 in fiscal year 1997 to 
48,680 in fiscal year 2000, representing a 57 percent increase.\10\ 
However, current data constraints make it difficult to determine what 
role ASFA played in this increase. The lack of reliable and comparable 
pre- and post-ASFA data limits our ability to analyze how other foster 
care outcomes or children's characteristics have changed. Current data 
do, however, provide some information about the characteristics and 
experiences of foster children after ASFA. For example, children 
leaving foster care between 1998 and 2000 spent a median of 
approximately 1 year in care. Of these children, those who were adopted 
spent more time in care--a median of approximately 3\1/2\ years.
---------------------------------------------------------------------------
    \9\ HHS officials believe that the adoption data available as early 
as 1995 are more reliable than early data on other outcomes because of 
the incentive payments that states can earn for increasing adoptions. 
They noted that states made great efforts to improve the accuracy of 
their adoption data when the incentive payment baselines were 
established. For example, HHS initially estimated about 20,000 
adoptions for fiscal year 1997, but after states reviewed and submitted 
their adoption data, as required for participation in the Adoption 
Incentives program, they reported about 31,000 adoptions.
    \10\ All HHS data are presented in terms of federal fiscal year.
---------------------------------------------------------------------------
LAdoptions Have Increased Since ASFA, but Changes in Other Outcomes 
        Unclear
    Adoptions from state foster care programs have increased nationwide 
by 57 percent from the time ASFA was enacted through fiscal year 2000, 
but changes in other outcomes are less clearly discernable. According 
to data available from HHS, the increase in adoptions began prior to 
the enactment of federal child welfare reforms (see fig. 1). For 
example, adoptions generally increased between 8 percent and 12 percent 
each year between 1995 and 2000, except in 1999 when they increased by 
29 percent over 1998 adoptions. The increase in overall adoptions of 
children in foster care is accompanied by a parallel increase in the 
adoptions of children with special needs.
 Figure 1: Number of Children Adopted from Foster Care Between Fiscal 
                          Years 1995 and 2000
[GRAPHIC] [TIFF OMITTED] 90545A.001

    Note: The percentages in parentheses represent the increase in 
finalized adoptions over the previous year.

    The role ASFA played in the increase in adoptions after 1997, 
however, is unclear. Similarly, whether the number of foster children 
being adopted will continue to rise in the future is unknown. For 
example, since our report was issued last June, HHS reported that 
48,741 adoptions were finalized in 2001, which represents only a slight 
increase over adoptions finalized in 2000. While ASFA may have 
contributed to the adoptions of these children, other factors may have 
also played a role. For example, HHS officials told us that state child 
welfare reform efforts that occurred before ASFA might be linked to the 
observed increase in adoptions. Since it can take several years for 
foster children to be adopted, and ASFA has only been in existence for 
a few years, evidence of ASFA's effect may not be available for some 
time.
    ASFA's effect on other foster care outcomes, such as birth family 
reunifications, is also difficult to determine. Lack of comparable and 
reliable data on foster care children, before and after ASFA, make it 
difficult to know how ASFA has affected the child welfare system. While 
HHS officials report that some data are reliable to provide a picture 
of children in foster care after ASFA, they state that the child 
welfare data covering pre-ASFA periods are not reliable due to problems 
such as low response rates and data inconsistencies. Since 1998, 
however, HHS data specialists have observed improvements in the data 
submitted to HHS by states and attribute the changes to several 
factors, including the provisions of federal technical assistance to 
the states on data processing issues, the use of federal financial 
penalties and rewards, and the use of outcome measures to evaluate 
states' performance. According to HHS, these data improvements make it 
impossible to determine whether observed changes in outcomes from one 
year to the next are the result of changes in data quality or changes 
in state performance. HHS expects that the data will stabilize over 
time and can eventually be used as a reliable measure of state 
performance.
LCurrent Data Describe Characteristics and Experiences of Children Who 
        Exited Care Between 1998 and 2000
    Although pre-ASFA data are limited, current data do shed some light 
on the characteristics and experiences of the more than 741,000 
children who exited foster care between 1998 and 2000.\11\ According to 
HHS data for this time period and results from our survey, the 
following outcomes and characteristics describe the experiences 
children had while in foster care:
---------------------------------------------------------------------------
    \11\ According to HHS's AFCARS data, 223,255 children exited foster 
care in fiscal year 1998 from 44 states (including the District of 
Columbia and Puerto Rico); 250,950 exited foster care in fiscal year 
1999 from 51 states (including the District of Columbia and Puerto 
Rico); and 267,344 exited foster care in fiscal year 2000 from 51 
states (including the District of Columbia).

    <bullet> LChildren left foster care after a median length of stay 
of approximately 1 year, although the amount of time spent in care 
differed depending on where the children were permanently placed. For 
example, in 2000, the median length of stay for children exiting care 
was 12 months. In contrast, the median length of stay for adopted 
children was 39 months in 2000.
    <bullet> LMany children have only one placement during their foster 
care stay, but a few experience five or more placements. Adopted 
children tend to have more foster care placements than other children, 
in part, because of their longer foster care stays.
    <bullet> LUpon leaving foster care, most children returned home to 
the families they had been living with prior to entering foster care. 
However, approximately 33 percent of the children who went home to 
their birth families in 1998 subsequently returned to foster care by 
2000, for reasons such as additional abuse and neglect at home.
    <bullet> LOur survey results indicated that the median percentage 
of children abused or neglected while in foster care during 1999 and 
2000 was 0.60 percent and 0.49 percent, respectively.\12\ Maltreatment 
rates in foster care ranged from a high of 2.74 percent in the District 
of Columbia to a low of 0.02 percent in Nebraska.\13\
---------------------------------------------------------------------------
    \12\ Of the 46 states that responded to our survey, 16 provided 
data on the percentage of foster children who had a substantiated 
report of abuse or neglect in fiscal year 1999, 2 provided data for 
calendar year 1999, 1 provided data for state fiscal year 1999, 18 
provided data for fiscal year 2000, 1 provided data for calendar year 
2000, and 2 provided data for state fiscal year 2000.
    \13\ According to HHS's Child Welfare Outcomes 1999: Annual Report, 
the median percentage of foster children abused and neglected while in 
care was 0.5 percent for the 20 states reporting. Maltreatment rates in 
foster care range from a high of 2.3 percent in Rhode Island to a low 
of 0.1 percent in Arizona, Delaware, and Wyoming.
---------------------------------------------------------------------------
    <bullet> LChildren exit foster care in a number of ways, including 
reunifying with their families,\14\ being adopted, emancipation,\15\ or 
entering a guardianship arrangement.\16\ Although most children reunify 
with their families, the second most common way of exiting foster care 
is through adoption. The children adopted from foster care have a wide 
variety of characteristics, yet the data indicate some general themes.
---------------------------------------------------------------------------
    \14\ In AFCARS, reunification is defined as the child returning to 
the family with whom the child had been living prior to entering foster 
care.
    \15\ A child is emancipated from foster care when the child reaches 
majority age according to state law.
    \16\ Guardianship arrangements occur when permanent legal custody 
is awarded to an individual, such as a relative.
---------------------------------------------------------------------------
    <bullet> LOn average, 85 percent of the children adopted in 1998, 
1999, and 2000 were classified as having at least one special need that 
would qualify them for adoption subsidies under Title IV-E.\17\ 
According to results from our survey, 18 states reported that, on 
average, 32 percent of the children adopted from foster care in 2000 
had three or more special needs.\18\
---------------------------------------------------------------------------
    \17\ While current AFCARS data indicate that 85 percent of children 
adopted in fiscal years 1998 through 2000 have at least one special 
need, the adoption incentive data presented earlier in figure 1 
indicate a lower proportion of children with special needs adopted from 
foster care. An HHS official explained that this discrepancy is due to 
the timing of the measurement of the data. The data in figure 1 were 
measured at an earlier point in time and the numbers are not updated 
since adoption incentive payments are awarded to states based on the 
number of finalized adoptions reported at the end of each fiscal year. 
The data presented here reflect changes to AFCARS based on states 
resubmitting previous data after the initial reporting periods and are 
as recent as April 2002.
    \18\ One of the 18 states reporting on the number of children 
adopted with three or more special needs provided data based on 
calendar year 2000.
---------------------------------------------------------------------------
    <bullet> LChildren adopted from foster care are equally likely to 
be male or female, slightly more likely to be black, and much more 
likely to be under age 12. The gender and race/ethnicity distributions 
of children adopted from foster care are similar to those of the 
general population of children in foster care. However, children 
adopted from foster care tend to be younger than the general population 
of children in foster care.
    <bullet> LOur survey results indicate that in fiscal year 2000 
adopted children spent an average of 18 months living with the family 
that eventually adopted them prior to their adoption being 
finalized.\19\
---------------------------------------------------------------------------
    \19\ Of the 46 states responding to our survey, 22 provided fiscal 
year data on the length of time children lived with the family that 
eventually adopted them and 1 provided data for calendar year 2000.

    As noted for other outcomes, the lack of reliable and national pre-
ASFA data make it difficult to determine whether the rate at which 
adoptions encountered problems has changed since ASFA was enacted.\20\ 
However, limited data suggest that problems occur in a small percentage 
of foster care adoptions. According to our survey,\21\ about 5 percent 
of adoptions planned in fiscal years 1999 and 2000 disrupted prior to 
being finalized.\22\ States also reported that approximately 1 percent 
of adoptions finalized in these years legally dissolved at a later date 
and that about 1 percent of the children who were adopted in these 
years subsequently re-entered foster care.\23\ However, little time has 
elapsed since these adoptions were finalized, and some of these 
adoptions may fail at a later date.
---------------------------------------------------------------------------
    \20\ Studies on adoption problems prior to ASFA's enactment have 
several limitations, such as small samples sizes, coverage of a few 
locations, and a focus on narrowly defined groups of children.
    \21\ Of the 46 states that responded to our survey, 17 provided 
data on adoption disruptions for fiscal year 1999, 2 provided data for 
calendar year 1999, 18 provided data on adoption disruptions for fiscal 
year 2000, and 2 provided data for calendar year 2000.
    \22\ For example, Illinois reported a 12.4 percent disruption rate 
for fiscal year 1999 on our survey. In comparison, one study (Robert 
Goerge and others, Adoption, Disruption, and Displacement in the Child 
Welfare System, 1976-1995 (Chicago: Chapin Hall Center for Children at 
the University of Chicago, 1995)) reviewed all planned and finalized 
adoptions in Illinois between 1981 and 1987. During that time, an 
average of 9.9 percent of adoption plans for Illinois foster children 
disrupted.
    \23\ Of the 46 states that responded to our survey, 18 provided 
data on dissolutions for fiscal year 1999, 19 provided data on 
dissolutions for fiscal year 2000 and 1 provided data for calendar year 
2000. In addition, 21 states provided survey data on foster care re-
entries by children adopted in fiscal year 1999, 22 provided data for 
children adopted in fiscal year 2000, and 1 provided data for children 
adopted in calendar year 2000. Our survey results indicate that of all 
the children with finalized adoptions in fiscal year 1999, 0.55 percent 
returned to foster care in fiscal year 1999 or 2000. Of all the 
children with finalized adoptions in fiscal year 2000, 1.43 percent 
returned to foster care in fiscal year 2000.
---------------------------------------------------------------------------
LWhile Little Data are Available on Key ASFA Permanency Provisions, 
        Some States Describe Circumstances That Limit Their Broader Use
    While few states were able to provide data on the numbers of 
children affected by ASFA's fast track and 15 of 22 provisions, some 
reported on circumstances that make it difficult to use these 
provisions for more children. In addition, HHS collects very little 
data on the use of these provisions. Data from four states that 
provided fast track data in response to our survey indicate that they 
do not use this provision frequently. However, they described several 
court-related issues that make it difficult to fast track more 
children, including court delays and a reluctance on the part of some 
judges to relieve the state from reunification efforts. Survey 
responses from the few states that provided data on the 15 of 22 
provision indicate that these states do not file TPRs for many children 
who are in care for 15 months. Officials in the six states we visited 
reported that they determine that filing a TPR under this provision for 
many children is not in the children's best interests. The 
determination is based on a variety of factors, such as difficulties in 
finding adoptive parents.
LWhile Data on Fast Track Are Limited, Some States Report Court-Related 
        Issues That Hinder the Use of the Fast Track Provision for More 
        Children
    Few states were able to provide data on their use of the fast track 
provision in response to our survey and HHS does not collect these data 
from the states. As a result, we do not have sufficient information to 
discuss the extent to which states are using this provision. Survey 
data reported by four states suggest the infrequent use of fast track. 
In fiscal year 2000, for example, about 4,000 children entered the 
child welfare system in Maryland, but only 36 were fast-tracked. Child 
welfare officials in the six states we visited told us that they used 
ASFA's fast track provision for a relatively small number of cases. 
Three states indicated that they fast-tracked abandoned infants, while 
four states reported using fast track for cases involving serious 
abuse, such as when a parent has murdered a sibling; however, some 
state officials also noted that few child welfare cases involve these 
circumstances. In addition, five states reported that they would fast 
track certain children whose parents had involuntarily lost parental 
rights to previous children if no indication exists that the parents 
have addressed the problem that led to the removal of the children.
    Officials in five of the states we visited described several court-
related issues that they believe hindered the greater use of the fast 
track provision. However, because of the lack of data on states' use of 
fast track, we were unable to determine the extent of these problems. 
Officials in these states told us that some judges or other legal 
officials are at times reluctant to approve a state's fast track 
request. For example, child welfare staff for a county in North 
Carolina described a case in which a judge approved a fast track 
request involving a child who had suffered from shaken baby syndrome, 
but refused a similar request on a sibling who was born a few months 
after the shaking episode. County staff said that the judge's decision 
was based on the fact that the parents had not hurt the newborn and 
should be given an opportunity to demonstrate their ability to care for 
this child. State officials in North Carolina also told us that delays 
in scheduling TPR trials in the state undermine the intent of fast 
tracking. They noted that the agency may save time by not providing 
services to a family, but the child may not be adopted more quickly if 
it takes 12 months to schedule the TPR trial. Officials in 
Massachusetts expressed similar concerns about court delays experienced 
in the state when parents appeal a court decision to terminate their 
parental rights.
    Other difficulties in using fast track to move children out of 
foster care more quickly are related to the specific categories of 
cases that are eligible to be fast-tracked. Officials in five states 
told us that they look at several factors when considering the use of 
fast track for a parent who has lost parental rights for other 
children. If a different birth father is involved, child welfare 
officials told us that they are obligated to work with him to determine 
if he is willing and able to care for the child. According to Maryland 
officials, if the agency is providing services to the father to 
facilitate reunification, pursuing a fast track case for the mother 
will not help the child leave foster care more quickly. In addition, 
child welfare officials in Massachusetts and Illinois emphasized that a 
parent who has addressed the problems that led to a previous TPR should 
have an opportunity to demonstrate the ability to care for a subsequent 
child.
    Regarding the fast track category involving parents who have been 
convicted of certain felonies, child welfare officials in Massachusetts 
and Texas described this provision as impractical due to the time it 
takes to obtain a conviction. Massachusetts officials told us that, in 
most cases, the children are removed at the time the crime is 
committed, and judges will not approve the fast track in these cases 
until the parent is actually convicted, which is usually at least a 
year after the actual crime. Finally, in Massachusetts, Texas, and 
Maryland, officials reported that it can be difficult to prove that a 
parent subjected a child to aggravated circumstances, such as torture 
or sexual abuse. According to these officials, the time and effort to 
go through additional court hearings to demonstrate the aggravated 
circumstances is not worthwhile; instead, the child welfare agency 
chooses to provide services to the family.
LAlthough Little Data Exist on 15 of 22, Some States Report That They 
        Do Not File TPRs on Many Children
    Most states do not collect data on their use of ASFA's 15 of 22 
provision. In response to our survey, only nine states were able to 
provide information on the number of children for whom the state filed 
a TPR due to the 15 of 22 provision or the number of children who were 
in care for 15 of the most recent 22 months and for whom a TPR was not 
filed. In addition, HHS does not systematically track these data, 
although it does collect some limited information on the 15 of 22 
provision as part of its review of state child welfare agencies. The 
survey responses from 9 states indicated that they did not file a TPR 
on a number of children--between 31 and 2,919 in 2000--who met the 
requirements of the 15 of 22 provision. For most of these nine states, 
the number of children for whom a TPR was not filed greatly exceeded 
the number of children for whom a TPR was filed. For example, while 
Oklahoma filed over 1,000 TPRs primarily because the child had been in 
foster care for 15 of the most recent 22 months, it did not file a TPR 
for an additional 2,900 children.
    Officials in all six states we visited told us that establishing 
specific timeframes for making permanency decisions about children in 
foster care has helped their child welfare agencies focus their 
priorities on finding permanent homes for children more quickly. Two of 
the states we visited--Texas and Massachusetts--created procedures 
prior to ASFA to review children who had been in care for a certain 
length of time and decide whether continued efforts to reunify a family 
were warranted. Other states had not established such timeframes for 
making permanency decisions before the 15 of 22 provision was enacted. 
The director of one state child welfare agency told us that, prior to 
ASFA, the agency would work with families for years before it would 
pursue adoption for a child in foster care. Officials in Maryland, 
North Carolina, and Oregon said that the pressure of these new 
timeframes has helped child welfare staff work more effectively with 
parents, informing them up front about what actions they have to take 
in the next 12 to 15 months in order to reunify with their children. 
Private agency staff in three states, however, expressed concern that 
pressure from these timeframes could push the child welfare agency and 
the courts to make decisions too quickly for some children.
    Child welfare officials in the six states we visited described 
several circumstances under which they would not file a TPR on a child 
who was in care for 15 of the most recent 22 months. In five of the six 
states, these officials told us that the provision is difficult to 
apply to children with special needs for whom adoption may not be a 
realistic option, such as adolescents and children with serious 
emotional or behavioral problems. Officials from Maryland and North 
Carolina reported that, in many cases, the child welfare agency does 
not file a TPR for children who have been in care for 15 of the most 
recent 22 months because neither the agency nor the courts consider it 
to be in the children's best interest to be legal orphans--that is, to 
have their relationship to their parents legally terminated, but have 
no identified family ready to adopt them.\24\ State officials in Oregon 
told us that state law requires that parental rights be terminated 
solely for the purposes of adoption, so as to avoid creating legal 
orphans.
---------------------------------------------------------------------------
    \24\ In North Carolina, child welfare agency staff may recommend to 
the court that a TPR not be filed on a child who has been in care for 
15 of the most recent 22 months; however, according to state officials, 
North Carolina requires that a judge determine that one of the ASFA 
exceptions exists.
---------------------------------------------------------------------------
    Officials in four states noted that many adolescents remain in 
long-term foster care. In some cases, they have strong ties to their 
families, even if they cannot live with them, and will not consent to 
an adoption.\25\ In other cases, the teenager is functioning well in a 
stable situation with a relative or foster family that is committed to 
the child but unwilling to adopt.\26\ For example, officials in a child 
welfare agency for a county in North Carolina told us about a 
potentially violent 16-year-old foster child who had been in a 
therapeutic foster home for 10 years. The family was committed to 
fostering the child, but did not want to adopt him because they did not 
have the financial resources to provide for his medical needs and 
because they did not want to be responsible for the results of his 
actions.
---------------------------------------------------------------------------
    \25\ All the states we visited require that children over a certain 
age consent to their adoption. For example, Maryland requires that 
children 10 years or older consent to their adoption.
    \26\ ASFA specifically allows states to exempt children placed with 
relatives from the 15 of 22 provision.
---------------------------------------------------------------------------
    Child welfare staff from two states told us that some parents need 
a little more than 15 months to address the problems that led to the 
removal of their children. If the child welfare agency is reasonably 
confident that the parents will be able to reunify with their children 
in a few months, the agency will not file a TPR for a child who has 
been in foster care for 15 months. In addition, child welfare officials 
in four states observed that parents must have access to needed 
services, particularly substance abuse treatment, soon after a child 
enters care in order for the child welfare system to determine if 
reunification is a realistic goal by the time a child has been in care 
for 15 months. Officials in Maryland, Oregon, and Texas reported that 
the lack of appropriate substance abuse treatment programs that address 
the needs of parents makes it difficult to get parents in treatment and 
stable by the 15th month.
LNew ASFA Adoption-Related Funds Most Commonly Used to Recruit Adoptive 
        Families and Provide Post Adoption Services
    States reported in our survey that they most commonly used their 
adoption incentive payments and PSSF adoption promotion and support 
services funds to recruit adoptive families and to provide post 
adoption services (see table 1). Child welfare officials in all of the 
states we visited reported that they are struggling to recruit adoptive 
families for older children and those with severe behavioral or medical 
problems. To meet this challenge, states are investing in activities 
designed to match specific foster care children with adoptive families, 
as well as general campaigns to recruit adoptive families. Child-
specific recruitment efforts include: featuring children available for 
adoption on television, hosting matching parties for prospective 
adoptive parents to meet children available for adoption, and taking 
pictures and videos of foster children to show to prospective families. 
For example, Massachusetts used its incentive payments to fund 
recruitment videos to feature the 20 children who had been waiting the 
longest for adoptive families. General recruitment efforts being funded 
by states include promoting adoption through National Adoption Month 
events, hiring additional recruiters, and partnering with religious 
groups.


         Table 1: Main Uses of Adoption Incentive Payments and PSSF Adoption Promotion and Support Funds
----------------------------------------------------------------------------------------------------------------
 
 
 
 
----------------------------------------------------------------------------------------------------------------
Recruitment of adoptive families                                                19a                         16b
----------------------------------------------------------------------------------------------------------------
Post adoption servicesc                                                         17a                         21b
----------------------------------------------------------------------------------------------------------------
Preadoptive counseling                                                            d                          15
----------------------------------------------------------------------------------------------------------------
Hiring/Contracting additional social work staff                                 13e                           d
----------------------------------------------------------------------------------------------------------------
Training                                                                         11                           4
----------------------------------------------------------------------------------------------------------------
Source: GAO survey.
Note: Of the 46 states that responded to our survey, 34 provided data on the use of FY 1999 and FY 2000
  incentive payments and 26 provided information on the use of FY 2000 PSSF funds.
a One state provided data for calendar year 1999.
b One state provided data for calendar year 2000.
c Post adoption services include: counseling, respite care (short-term specialized child care to provide
  families with temporary relief from the challenges of caring for adoptive children), support groups, adoption
  subsidies, and adoption preservation services.
d This activity was not included as a response for this funding source.
e One state provided data for state fiscal years 1999 and 2000.


    States are also investing adoption incentive payments and PSSF 
funds in services to help adoptive parents meet the challenges of 
caring for children who have experienced abuse and neglect. During our 
site visits, officials in Massachusetts and Illinois pointed out that 
the population of adopted children had increased significantly in 
recent years and that the availability of post adoption services was 
essential to ensure that these placements remain stable. Approximately 
60 percent of the states responding to our survey used their adoption 
incentive payments or their PSSF funds or both for post adoption 
services, such as post adoption counseling, respite services, support 
groups, and recreational activities. For example, California has used 
some of its adoption incentive funds to pay for therapeutic camps and 
tutoring sessions for adopted children. In addition, Minnesota has used 
PSSF funds to teach adoptive parents how to care for children with 
fetal alcohol syndrome and children who find it difficult to become 
emotionally attached to caregivers.
    Although the 46 states responding to our survey reported that they 
are most frequently using the money for the activities described above, 
about two-thirds of them also reported that they are investing some of 
these funds in a variety of other services. Many states are using PSSF 
funds to provide pre-adoptive counseling to help children and parents 
prepare for the emotional challenges of forming a new family. 
Similarly, some states are using incentive payments and PSSF funds to 
train foster families, adoptive families, and service providers. For 
example, Arkansas used its incentive payments to help families attend 
an adoptive parent conference, while Kentucky used its incentive funds 
to train judges and attorneys on adoption matters. Finally, some states 
are using their adoption incentive payments to hire or contract 
additional child welfare and legal staff.
LStates Develop Practices in Response to Long-Standing Barriers That 
        Continue to Hamper Efforts to Promote Permanency for Foster 
        Children
    States have been developing a range of practices to address 
longstanding barriers to achieving permanency for children in a timely 
manner--many of which have been the subject of our previous reports. 
Both independently and through demonstration waivers approved by HHS, 
states are using a variety of practices to address barriers relating to 
the courts, recruiting adoptive families for children with special 
needs, placing children in permanent homes in other jurisdictions, and 
the availability of needed services. Because few of these practices 
have been rigorously evaluated, however, limited information is 
available on their effectiveness.
LSystemic Court Problems Continue to Delay Child Welfare Cases
    Our previous work, officials in all the states we visited, and over 
half of our survey respondents identified problems with the court 
system as a barrier to moving children from foster care into safe and 
permanent homes.\27\ In 1999, we reported on systemic problems that 
hinder the ability of courts to produce decisions on child welfare 
cases in a timely manner that meet the needs of children.\28\ The 
barriers included inadequate numbers of judges and attorneys to handle 
large caseloads, the lack of cooperation between the courts and child 
welfare agencies, and insufficient training of judges and attorneys 
involved in child welfare cases.
---------------------------------------------------------------------------
    \27\ Of the 29 states that reported an insufficient number of 
judges or court staff, 18 reported that the problem represented either 
a moderate, great, or very great hindrance to finding permanent homes 
for children. Of the 28 states that reported insufficient training for 
court staff, 20 reported that the problem represented a moderate or 
great hindrance. Of the 23 states that reported that judges were not 
supportive of ASFA's goals, 10 reported that the problem represented 
either a moderate, great, or very great hindrance. Of the 46 states 
that responded to our survey, 40 reported on the insufficient number of 
judges and court staff, 41 reported on the lack of training for judges 
and court staff, and 39 reported on judges not being supportive of 
ASFA's goals.
    \28\ U.S. General Accounting Office, Juvenile Courts: Reforms Aim 
to Better Serve Maltreated Children, GAO/HEHS-99-13 (Washington, D.C.: 
Jan. 11, 1999).
---------------------------------------------------------------------------
    During our visit to Massachusetts, state officials told us that the 
courts experienced significant delays in court hearings and appeals due 
to a lack of court resources. As an alternative to court proceedings, 
Massachusetts implemented a permanency mediation program--a formal 
dispute resolution process in which an independent third party 
facilitates permanency planning between family members and potential 
adoptive parents in a nonadversarial setting. By avoiding trials to 
terminate parental rights, Massachusetts officials reported that 
permanency mediation helps reduce court workloads, eliminate appeals, 
and more effectively uses limited court resources. A preliminary 
evaluation of the Massachusetts program suggested that cases involved 
in the mediation program needed less time and fewer court resources to 
reach an agreement than cases that go to trial. However, the evaluation 
did not directly compare outcomes, such as the length of time a child 
spent in foster care, for mediation and nonmediation cases.
    Texas officials identified court barriers in rural areas that 
negatively affect both the timeliness and quality of child welfare 
proceedings--specifically, the lack of court time for child welfare 
cases and the lack of judges with training and experience in child 
welfare issues. In response to these barriers, Texas developed the 
visiting judge cluster court system, an approach in which a judge 
trained in child welfare issues is assigned to a cluster of rural 
counties. The judge travels from county to county presiding over all 
child welfare cases. This approach may create more court time in rural 
areas and allows knowledgeable and experienced judges to make the best 
possible decisions for children in foster care. While Texas officials 
believe this approach has been helpful in moving children to 
permanency, no formal evaluation of the approach has been conducted.
LPermanency for Children With Special Needs Hindered by Lack of 
        Adoptive Families
    Officials in five states we visited, along with the majority of the 
respondents to our state survey, reported that difficulties in 
recruiting families to adopt children with special needs is a major 
barrier to achieving permanent placements for these children.\29\ Our 
survey revealed that states relied on three main activities to recruit 
adoptive families for children who are waiting to be adopted: listing a 
child's profile on state and local Web sites, exploring adoption by 
adults significantly involved in the child's life, and featuring the 
child on local television news shows.\30\
---------------------------------------------------------------------------
    \29\ Of the 46 states responding to our survey, 43 states reported 
on the sufficiency of adoptive homes for children with special needs. 
All 43 states reported that they did not have enough adoptive homes for 
children with special needs, with 39 reporting that the problem 
represented a moderate, great, or very great hindrance to finding 
permanent homes for children.
    \30\ Of the 46 states responding to our survey, 44 answered the 
question about recruitment activities used in their states.
---------------------------------------------------------------------------
    Several states we visited are using recruitment campaigns targeted 
to particular individuals who may be more likely to adopt children with 
special needs. For example, the child welfare agencies in Illinois, 
Maryland, North Carolina, and Texas are collaborating with local 
churches to recruit adoptive families specifically for minority 
children. However, an Illinois recruitment report noted that little 
information exists on what kinds of families are likely to adopt 
children with specific characteristics. While the states we visited 
used a variety of recruitment efforts to find families for special 
needs children, they generally did not collect data on the 
effectiveness of their recruiting efforts.
    In addition to the activities described above, some demonstration 
waivers are testing a different approach to finding permanent homes for 
children in foster care.\31\ Seven states are using demonstration 
waivers to pay subsidies to relatives and foster parents who become 
legal guardians to foster children in their care. These states hope to 
reduce the number of children in long-term foster care by formalizing 
existing relationships in which relatives or foster parents are 
committed to caring for a child but adoption is not a viable option. 
Evaluation results from Illinois's waiver suggest that offering 
subsidized guardianship can increase the percentage of children placed 
in a permanent and safe home. Results from most of the other 
guardianship waiver projects are not yet available.
---------------------------------------------------------------------------
    \31\ HHS is authorized to approve child welfare demonstration 
projects in up to 10 states for each of the 5 fiscal years 1998 through 
2002. Under these projects, HHS waives certain restrictions in Title 
IV-E and allows broader use of federal foster care funds.
---------------------------------------------------------------------------
LPlacing Children Across Jurisdictions Remains Problematic for States
    Many states encounter longstanding barriers in placing children 
with adoptive families in other states. As we reported previously, 
these interjurisdictional adoptions take longer and are more complex 
than adoptions within the same child welfare jurisdiction.\32\ 
Interjurisdictional adoptions involve recruiting adoptive families from 
other states or other counties within a state, conducting comprehensive 
home studies of adoptive families in one jurisdiction, sending the 
resulting home study reports to another jurisdiction, and ensuring that 
all required legal, financial, and administrative processes for 
interjurisdictional adoptions are completed. Five states we visited 
reported frequent delays in obtaining from other states the home study 
reports necessary to place a child with a potential adoptive family in 
another state. According to recent HHS data, children adopted by out-
of-state families typically spend about 1 year longer in foster care 
than children adopted by in-state families.
---------------------------------------------------------------------------
    \32\ U.S. General Accounting Office, Foster Care: HHS Could Better 
Facilitate the Interjurisdictional Adoption Process, GAO/HEHS-00-12 
(Washington, D.C.: Nov. 19, 1999).
---------------------------------------------------------------------------
    Child welfare agencies have implemented a range of practices to 
facilitate adoptions across state and county lines. In our survey, the 
most common practices for recruiting adoptive families in other 
jurisdictions included publicizing profiles of foster care children on 
Web sites, presenting profiles of children in out-of-state media, and 
contracting with private agencies to recruit adoptive parents in other 
states.\33\ States have also developed practices to expedite the 
completion of home studies and shorten the approval processes for 
interstate adoptions. The two primary practices cited by states on our 
survey were working with neighboring states to facilitate interstate 
placements and contracting with private agencies to conduct home 
studies in other states.\34\
---------------------------------------------------------------------------
    \33\ Of the 46 states that responded to our survey, 22 reported 
that they publicized profiles of foster children in media in other 
states, 41 reported that they publicized profiles of foster children on 
Web sites, and 15 reported that they contracted with private agencies 
to recruit adoptive parents in other states.
    \34\ Of the 46 states responding to our survey, 35 reported that 
they worked with neighboring states to facilitate interstate placements 
and 19 reported that they contracted with private agencies in other 
states to conduct home studies.
---------------------------------------------------------------------------
    States we visited have implemented several of these practices to 
overcome barriers to interjurisdictional adoptions. In Oregon, the 
state child welfare agency works with neighboring states in the 
Northwest Adoption Exchange to recruit adoptive parents for children 
with special needs. In Texas, the state contracts with private agencies 
to place foster care children with out-of-state adoptive families. In 
Illinois, the state works with a private agency in Mississippi to 
conduct home studies because families in Mississippi adopt many 
Illinois children.
LPoor Access to Services Can Impede Permanency Decisions
    Officials in four states told us that making decisions about a 
child's permanent home within a year is difficult if the parent has not 
had access to the services necessary to address their problems, 
particularly substance abuse treatment. We have previously reported on 
barriers to working with parents who have a substance abuse problem, 
including inadequate treatment resources and a lack of collaboration 
among substance abuse treatment providers and child welfare 
agencies.\35\ Similarly, 33 states reported in our survey that the lack 
of substance abuse treatment programs is a barrier to achieving 
permanency for children.\36\
---------------------------------------------------------------------------
    \35\ U.S. General Accounting Office, Foster Care: Agencies Face 
Challenges Securing Stable Homes for Children of Substance Abusers, 
GAO/HEHS-98-182 (Washington, D.C.: Sept. 30, 1998).
    \36\ Of the 46 states that responded to our survey, 39 reported on 
the lack of substance abuse treatment programs. Of the 33 states that 
reported that not enough drug treatment programs were available, 26 
reported that the problem represented either a moderate, great, or very 
great hindrance to finding permanent homes for children.
---------------------------------------------------------------------------
    To address this issue, four states have developed waiver projects 
to address the needs of parents with substance abuse problems. By 
testing ways to engage parents in treatment and to provide more 
supportive services, these states hope to increase the number of 
substance abusing parents who engage in treatment, increase the 
percentage of children who reunify with parents who are recovering from 
a substance abuse problem, and reduce the time these children spend in 
foster care. For example, Delaware's waiver funds substance abuse 
counselors to help social workers assess potential substance abuse 
problems and engage parents in treatment. Final evaluation results were 
published in March 2002 and concluded that the project successfully 
engaged many parents in substance abuse treatment and resulted in 
foster care cost savings, although it did not achieve many of its 
intended outcomes. For example, children participating in the waiver 
project spent 31 percent less time in foster care than similar children 
who were not part of the waiver project, although the project's goal 
was a 50 percent reduction. Evaluation results for the other states are 
not yet available.
LConcluding Observations
    Most of the states we visited reported that ASFA has played an 
important role in helping them focus on achieving permanency for 
children within the first year that they enter foster care. However, 
numerous problems with existing data make it difficult to assess at 
this time how outcomes for children in foster care have changed since 
ASFA was enacted. While an increasing number of children have been 
placed in permanent homes through adoption during the last several 
years, we know little about the role ASFA played in the adoption 
increases or other important outcomes, such as whether children who 
reunify with their families are more or less likely to return to foster 
care or whether these adoptions are more or less stable than adoptions 
from previous years.
    The availability of reliable data, both on foster care outcomes and 
the effectiveness of child welfare practices, is essential to efforts 
to improve the child welfare system. In the past few years, HHS and the 
states have taken important steps to improve the data available to 
assess child welfare operations. In addition, evaluation data from the 
demonstration waivers should be available in the next few years, 
providing key information on child welfare practices that are effective 
and replicable. However, important information about ASFA's impact on 
children in foster care is still unavailable. For example, the lack of 
comprehensive and consistent data regarding the fast track and 15 of 22 
provisions make it difficult to understand the role of these new 
provisions in reforming the child welfare system and moving children 
into permanent placements. To obtain a clearer understanding of how 
ASFA's two key permanency provisions are working, we recommended in our 
June 2002 report that the Secretary of HHS review the feasibility of 
collecting data on states' use of ASFA's fast track and 15 of 22 
provisions. In commenting on that report, ACF generally agreed with our 
findings and recommendation. ACF officials report that they are 
currently in the process of reviewing child welfare data issues, which 
includes an internal review of AFCARS and obtaining input from the 
states through focus groups. In addition, GAO is currently conducting 
an engagement for the Senate Finance Committee and the House Majority 
Leader on states' implementation of automated information systems and 
reporting of child welfare data to HHS. I expect this report to be 
released in July.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Subcommittee may have.
LGAO Contact and Acknowledgments
    For further contacts regarding this testimony, please call Cornelia 
M. Ashby at (202) 512-8403. Individuals making key contributions to 
this testimony include Diana Pietrowiak, Sara L. Schibanoff, and 
Michelle St. Pierre.
Related GAO Products
    Child Welfare: HHS Could Play a Greater Role in Helping Child 
Welfare Agencies Recruit and Retain Staff. GAO-03-357. Washington, 
D.C.: March 31, 2003.
    Foster Care: Recent Legislation Helps States Focus on Finding 
Permanent Homes for Children, but Long-Standing Barriers Remain. GAO-
02-585. Washington, D.C.: June 28, 2002.
    Child Welfare: New Financing and Service Strategies Hold Promise, 
but Effects Unknown. GAO/T-HEHS-00-158. Washington, D.C.: July 20, 
2000.
    Foster Care: HHS Should Ensure That Juvenile Justice Placements Are 
Reviewed. GAO/HEHS-00-42. Washington, D.C.: June 9, 2000.
    Foster Care: States' Early Experiences Implementing the Adoption 
and Safe Families Act. GAO/HEHS-00-1. Washington, D.C.: December 22, 
1999.
    Foster Care: HHS Could Better Facilitate the Interjurisdictional 
Adoption Process. GAO/HEHS-00-12. Washington, D.C.: November 19, 1999.
    Foster Care: Effectiveness of Independent Living Services Unknown. 
GAO/HEHS-00-13. Washington, D.C.: November 5, 1999.
    Foster Care: Kinship Care Quality and Permanency Issues. GAO/HEHS-
99-32. Washington, D.C.: May 6, 1999.
    Foster Care: Increases in Adoption Rates. GAO/HEHS-99-114R. 
Washington, D.C.: April 20, 1999.
    Juvenile Courts: Reforms Aim to Better Serve Maltreated Children. 
GAO/HEHS-99-13. Washington, D.C.: January 11, 2000.
    Foster Care: Agencies Face Challenges Securing Stable Homes for 
Children of Substance Abusers. GAO/HEHS-98-182. Washington, D.C.: 
September 30, 1998.
    Foster Care: State Efforts to Improve the Permanency Planning 
Process Show Some Promise. GAO/HEHS-97-73. Washington, D.C.: May 7, 
1997.
    Child Welfare: States' Progress in Implementing Family Preservation 
and Support Activities. GAO/HEHS-97-34. Washington, D.C.: February 18, 
1997.
    Permanency Hearings for Foster Children. GAO/HEHS-97-55R. 
Washington, D.C.: January 30, 1997.
    Child Welfare: Complex Needs Strain Capacity to Provide Services. 
GAO/HEHS-95-208. Washington, D.C.: September 26, 1995.
    Child Welfare: HHS Begins to Assume Leadership to Implement 
National and State Systems. GAO/AIMD-94-37. Washington, D.C.: June 8, 
1994.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Ashby. Next is 
the Honorable Dave Heaton, Representative from the Iowa House 
of Representatives.

       STATEMENT OF THE HONORABLE DAVE HEATON, CHAIRMAN, 
   APPROPRIATIONS SUBCOMMITTEE ON HEALTH AND HUMAN SERVICES, 
REPRESENTATIVE, IOWA HOUSE OF REPRESENTATIVES, AND VICE CHAIR, 
   COMMITTEE ON HUMAN SERVICES, NATIONAL CONFERENCE OF STATE 
                          LEGISLATURES

    Mr. HEATON. Thank you, Chairman Herger, Ranking Member 
Cardin, and the Members of the Subcommittee on Human Resources. 
I am Representative Dave Heaton of Iowa. I Chair the Health and 
Human Services Appropriations Subcommittee in the Iowa House of 
Representatives. I appear here today on behalf of NCSL, where I 
serve as Vice Chair of the NCSL Human Services Committee. I am 
honored to be here.
    Mr. Chairman, ASFA, which NCSL supported, strengthened the 
State and Federal partnership to protect our Nation's children. 
I am proud to testify today about how Iowa has made significant 
progress to ensure that children have safe and loving homes and 
don't languish in the foster care system.
    The ASFA was based in part on early State efforts to speed 
the permanency process and shorten children's stays in foster 
care. After passage of the Federal legislation, all States 
enacted implementing legislation. In Iowa, we did more than 
change our statute. Judges tell parents up front that this is 
the time frame in which you must get your act together or a TPR 
petition will be filed. Judges ask them what services they will 
need to be reunified with their child.
    We are moving in the right direction, but our challenge now 
is how to shore up our gains and move forward in very difficult 
State fiscal times. We have increased adoptions dramatically 
across the Nation. In Iowa, finalized adoptions have climbed 
from 280 in 1995 to 792 in 2002, including a record number of 
special needs children.
    We must also look at the needs of the children caught in 
the revolving door of foster care. I have personally met 
children with double digit foster care placements. States need 
flexibility to focus on addressing the root causes of a child's 
problems, not on following arbitrary rules and process 
requirements.
    The ASFA was a great start, but there is more to do. In a 
time of severe budget shortfalls, State lawmakers will likely 
be asked for the funding and resources to make the necessary 
program improvements. We have a $400 million shortfall in 
Iowa's 2004 budget. The minimum cumulative budget gap around 
the country is $68 billion. In Iowa, we passed a supplemental 
appropriation for child and family services of $5.7 million. 
Most of it went to pay for adoption subsidies. There wasn't 
enough for the Department of Human Services to use to cover the 
waiting list of children needing group foster care. Over 100 
kids are on the list.
    Mr. Chairman, adoption incentive funds give us a way to 
build on success. Incentive funds have gone to the Foster and 
Adoptive Parent Association for peer support to avoid 
incomplete and disrupted adoptions. We have also sent the funds 
down to Iowa counties to extend the important incentive to the 
local level. We used incentive funds to purchase a 30-hour 
training curriculum for new foster and adoptive parents to help 
them understand their role in helping ensure children are safe 
and have permanency.
    The NCSL strongly supports reauthorization of the Adoption 
Incentives Fund. Any change in how incentives are apportioned 
should be closely examined for unintended consequences. A key 
change sought by State legislators in 1997 was a movement to an 
assessment system based on outcomes. How did Iowa do in meeting 
the new CFSR standards? The answer is, some are met and some 
are not, and some are pending further review.
    We did learn from the review several items that Iowans can 
be proud of: our statewide system of keeping track of at-risk 
children, our case review system, and our statewide plan to 
recruit and support adoptive and foster parents.
    By definition, all States must be in substantial compliance 
with all standards in order to meet the new threshold. No State 
has done so, nor will Iowa. For example, one area identified 
for improvement was that we needed to do more to help families 
handle the pressures of reunification so that children don't 
return to foster care. We know that these improvements will 
cost money. Unfortunately, Federal funds were not provided to 
implement the changes recommended by the reviews. To meet the 
challenges facing the children and families in our communities, 
it will take more creativity and flexibility at the State and 
local level, not greater restriction at the Federal level.
    One area of need actually results from our huge success in 
increasing the number of adoptions from foster care, the need 
to provide support for these families that open their hearts to 
these children. Many of these troubled youngsters have social 
and emotional wounds caused by abuse, neglect, and frequent 
moves among foster homes. To meet the new priorities of ASFA, 
States need flexibility to use Title IV-E money for prevention, 
including child welfare and family services. We applaud the 
fact that the Administration and Congress recognized the 
importance of financing the issues of child welfare. Thank you.
    [The prepared statement of Mr. Heaton follows:]
   Statement of The Honorable Dave Heaton, Chairman, Appropriations 
 Subcommittee on Health and Human Services, Representative, Iowa House 
   of Representatives, and Vice Chair, Committee on Human Services, 
               National Conference of State Legislatures
    Chairman Herger, Ranking Member Cardin, and the Members of the 
Human Resources Subcommittee of the U.S. House Committee on Ways and 
Means, I am Representative Dave Heaton of Iowa. I chair the Health and 
Human Services Appropriations Subcommittee in the Iowa House of 
Representatives. I appear today on behalf of the National Conference of 
State Legislatures (NCSL) where I serve as vice chair of the NCSL Human 
Services and Welfare Committee. NCSL is the bipartisan organization 
that serves the legislators and staff of the states, commonwealths and 
territories. I am honored to be here.
    Mr. Chairman, the Adoption and Safe Families Act strengthened the 
state/federal partnership to protect our nation's children. I am proud 
to testify today about how Iowa has made significant progress to ensure 
that children have safe and loving homes and don't languish in the 
foster care system. And we are not alone in doing so.
    Even before ASFA was enacted in 1997, state legislatures had passed 
laws to speed the permanency process and shorten children's stays in 
foster care. In fact, ASFA was based in part on these early state 
efforts. After passage of the federal legislation, all states enacted 
implementing legislation and have refined these laws in subsequent 
legislative sessions.
    NCSL supported ASFA, which reinforced the importance of keeping 
children's safety paramount. It set very high goals for states and a 
process of child and family service reviews to help assess state 
outcomes to assure the safety of children and their timely and 
appropriate placement in permanent homes and to show us where 
improvements are needed. It created the adoption incentive fund, which 
we have used in Iowa to improve our efforts to increase permanency for 
children. Implementing ASFA has not been easy and the child and family 
services reviews have given us a road map to improvement. We are moving 
in the right direction, but still have more to do for these vulnerable 
children, especially older children.
    Mr. Chairman, our challenge now is how to shore up our gains and 
move forward in very difficult state fiscal times. Adoptions have been 
our greatest success. We have increased adoptions dramatically across 
the nation--in Iowa, finalized adoptions have climbed from 280 in 1995 
to 792 in 2002. A record number of special needs children (781) were 
adopted in FY 02 in Iowa.
    Implementing ASFA involved more than just changing our statute. 
ASFA's change to shorter timeframes for terminating parental rights 
caused us to rethink our strategy with parents. We have made sure that 
everyone involved is fully aware of the timeframe set out in the law. 
Judges tell parents up front this is the timeframe in which you must 
get your act together or a petition terminating parental rights will be 
filed. The judge asks the family if there are services they need so 
that they can be reunified with their child, even if they are not in 
the case plan. In other words, Iowa is proactive in communicating the 
law, and in dealing with a family's issues. Iowa looks for relatives, 
including noncustodial parents, to see if that relative presents a 
permanency option.
    As I said, Iowa has been very successful in increasing adoptions. 
The new federal measures in ASFA give us a way to measure our 
performance. The federal Child and Family Services Review standard is 
that at least 32 percent of children who cannot be reunited with their 
parents must be adopted within two years. Iowa exceeds this standard at 
48.8 percent.
    But adoption is one part of a larger system, and we need to also 
focus on the needs of the children in foster care. Our child and family 
services review also pointed out this issue--sadly, we still have too 
many children caught in a revolving door of multiple foster care 
placements. I have personally met foster children from all over Iowa 
whose placements number in the double digits. States are bound by tight 
federal controls. States need flexibility so that their systems can 
focus on addressing the root causes of a child's problems, not on 
following arbitrary rules and process requirements.
    ASFA was a great start, but there is more to do and in a time of 
severe budget shortfalls, state lawmakers will likely be asked for the 
funding and resources to make the necessary program improvements. We 
have a $400 million shortfall in Iowa's 2004 budget. In February, NCSL 
estimated that the minimum cumulative budget deficit for all states for 
FY04 was $68 billion, with 39 states reporting. This year in Iowa, we 
had to pass a supplemental appropriation for child and family services 
of $5.7 million. The vast majority of it went to pay for adoption 
subsidies. However, this amount was insufficient for the Department of 
Human Services to use to cover the waiting list of children needing 
group foster care--over 100 kids on the list. In Iowa, our reviews 
suggested more social worker training, and maintaining our rich array 
of services. All of these are especially challenged by our fiscal 
condition. Flexible federal funding is essential to address the 
changing needs of families and leverage state program funding.
    Mr. Chairman, I would like to comment on some of the key provisions 
of ASFA and give the perspective of state legislators. These provisions 
include Adoption Incentives Funds, Child and Family Services Review, 
policy and funding flexibility, the Social Services Block Grant and 
relative care.

Adoption Incentives Funds

    Mr. Chairman, adoption incentive funds have given us a way to build 
on and increase our success. Funds are used for a range of activities 
including the recruitment and support of adoptive parents. Supporting 
adoptive parents is critical to avoid incomplete and disrupted 
adoptions. One year, we sent the funds down to the Iowa counties that 
had increased adoption to expand the effect of this important incentive 
to the local level. Incentive funds have also gone to the Foster and 
Adoptive Parent Association for peer support. In Iowa, we have 
wonderful peer support groups for adoptive parents.
    Incentive funds also purchased a 30-hour training curriculum for 
foster and adoptive parents. What's special about this curriculum, 
called PS-MAPP or Partnering for Safety and Permanence-Model Approach 
to Partnerships in Parenting, is that this curriculum has been updated 
to incorporate the philosophy and requirements of ASFA. The curriculum 
helps new foster and adoptive parents understand ASFA and their role in 
helping to ensure children are safe and have permanency.
    NCSL strongly supports reauthorization of the Adoption Incentive 
Fund. However, we must acknowledge that in many states, their success 
at moving children into permanency will impact their ability to compete 
for incentive funds as the number of children needing an adoptive 
placement decline. We urge you to work closely with NCSL in developing 
your proposal for reauthorization. We have supported increased 
incentives for special needs children. Any changes in how incentives 
are apportioned should be closely examined for unintended consequences.

Federal Child and Family Service Reviews

    Mr. Chairman, a key change sought by state legislators in 1997 was 
movement from a process assessment of our progress in child welfare to 
one based on outcomes. States' performance in achieving the outcomes of 
child safety, permanency and well-being is now being measured by the 
federal Child and Family Service Reviews. State legislators want their 
states to meet the tough new federal standards established by these 
reviews, and we now have a preliminary report for Iowa.
    How did we do in Iowa? Are we meeting the standards? The answer is, 
some are met, some are not, and some are pending further review. These 
new federal measures give us a way to measure our performance. And, we 
now have a better understanding of where our states fit in.
    We did learn from the reviews several items that Iowans can be 
proud of. Our statewide system of keeping track of at-risk children and 
their histories meets or exceeds federal requirements and our case 
review system is strong and getting stronger, with a written case plan 
for every child in foster care. We meet the Federal requirement for 
periodic review of every child in foster care. There is a strong 
partnership between the judiciary, the DHS and the Foster Care Review 
Board. Iowa has a statewide and focused plan to recruit and support 
adoptive and foster parents.
    By definition, all states must be ``in substantial compliance'' 
with all standards in order to meet the new threshold. No state has 
done so, nor will Iowa. The reviews told us we need to do more. For 
example, one area identified for improvement was that we needed to do 
more to help families handle the pressures of reunification so that 
children don't return to foster care. Thus, our Department of Human 
Services will work with partners in Iowa and with federal officials to 
prepare and implement a program improvement plan in the summer of 2003.
    However, we already know that these improvements will cost money. 
Unfortunately, federal funds were not provided to implement the changes 
recommended by the assessment in the reviews. This is compounded by the 
lack of flexibility in the use of Title IV-E dollars and the look-back 
provision, which ties foster care funds to eligibility for the old Aid 
to Families with Dependent Children program.

The Need for More Flexible Funding for System Improvements

    We are still trying to shorten the timeframe for permanency 
solutions. We have been learning from the Illinois experience and are 
moving to a results-based system and trying to free social workers to 
be able to do more investigations and prevention.
    When states have attempted to reform service systems serving 
children and families, they are often unable to meet local service 
needs because of the inflexibility of the major federal funding streams 
and the wasteful administrative structure they require. To meet the 
challenges facing the children and families in our communities it will 
take more creativity and flexibility at the state and local levels, not 
greater restriction at the federal level. The use of funds is sometimes 
so restricted that states cannot use these funds to meet locally 
determined needs. States attempting major service reforms often face 
regulatory barriers that impede their efforts, require creative 
financing and contradict service priorities.
    Children are being adopted from foster care at unprecedented rates; 
unfortunately, there has been less of a focus on support for families 
after adoption. Within the next two years, experts say, the cumulative 
number of children under 18 adopted from out-of-home placement will 
exceed the number of children in foster care. We need support for the 
families that open their hearts to these children, many of whom may 
have health and mental health problems as they mature. This is 
especially true of families who have been willing to adopt older 
children. Many of these troubled youngsters have social and emotional 
wounds caused by abuse, neglect and frequent moves among foster homes. 
Types of services needed for post adoption support include: mental 
health services, including short-term residential treatment; respite 
care; peer support; and information and referral. Respite services, for 
example, are tremendously beneficial for adoptive parents dealing with 
children with special needs.
    In order to better meet the new priorities of the Adoption and Safe 
Families Act, states need flexibility to use Title IV-E for prevention, 
including child welfare and family services. NCSL is very pleased that 
the Administration and Congress are discussing child welfare financing, 
and we look forward to working with you on this critical issue. We 
applaud the fact that you recognize the importance of the financing 
issues in child welfare and the importance of state flexibility. State 
lawmakers have the responsibility of child welfare funding decisions 
and thus must participate in framing a financing proposal. NCSL is on 
record as opposing a mandatory block grant of child welfare funds.

Program Coordination

    Approximately 8.3 million children live with one parent who is 
dependent on alcohol and/or in need of treatment for illicit drugs. An 
estimated 40-80% of children in the child welfare system have families 
with alcohol and drug problems. In particular, widespread addiction by 
women has been a hidden problem. The Adoption and Safe Families Act has 
strict timelines for state decisionmaking. Significant federal support 
is needed to meet the treatment needs of families who come to the 
attention of the system. This is critical to keeping children safe and 
in permanent families.
    NCSL supports reforms to help states address the growing problems 
that substance abuse has placed on the child welfare system, including 
extensive outreach, education and early intervention to pregnant women 
and specialized early childhood problems. State legislators have long 
been the innovators of these programs, using predominantly state, local 
and private funds. NCSL supports the creation of federal incentives for 
partnerships between substance abuse and child welfare agencies that 
could enhance these efforts. Such efforts include cross system training 
of staff, improved screening and assessment procedures, comprehensive 
treatment and prevention programs and improved data collection.
    NCSL supports federal incentives for coordination between child 
welfare systems, domestic violence agencies, and juvenile courts. 
Families and children in the child welfare system often face complex 
problems such as homelessness, substance abuse, and HIV infection that 
require interdisciplinary and interagency solutions. To combat service 
fragmentation, the federal government should provide support for the 
coordination of service delivery among the public and private child 
welfare, child mental health, and juvenile justice systems as well as 
TANF, education and health agencies. Interagency collaboration 
including public/private partnerships should be encouraged to further 
integrate and coordinate services. State flexibility must be maintained 
in these programs to provide interagency training, budgeting, planning 
and conflict resolution as well as integrated data systems.
    Coordination with Medicaid is critical for these children. I want 
to note that NCSL is concerned about the recent denial of plans where 
states have used Medicaid for targeted case management.
    NCSL also supports expanded federal waiver authority so that states 
can test the results of increased state funding flexibility on the 
development of service alternatives in particular as well as the 
overall delivery of child welfare and family services. NCSL especially 
supports lifting the cap on the number of states that can receive child 
welfare waivers as a way to increase innovation in child welfare 
programs. We appreciate this provision in H.R. 4.

Social Services Block Grant (SSBG)

    The Social Services Block Grant is an increasingly important source 
of child welfare services, including protective services. The 
flexibility of SSBG funds, distributed at state discretion, is critical 
to the success of these programs. In Iowa, we use SSBG to assist our 
foster care system and to improve case management. SSBG is a vital part 
of the delivery of community and home-based services to the most 
vulnerable segments of society including the disabled, elderly, and 
children in need of protective services. Unfortunately, Title XX has 
fared poorly in the federal budget environment, and Congress has 
abandoned its commitment to the current authorized level of $2.8 
billion as agreed to in the 1996 welfare law. NCSL urges Congress to 
increase funding for this critical program.
    It is also critical that the amount states can transfer from their 
TANF grants to the SSBG remains at least 10% and is not reduced. 
Further reductions in funding for this grant would mean programmatic 
losses and service reductions.

Relative Care and Permanency

    NCSL supports the concept that grandparents, or other immediate 
family members, who are caring for children who cannot safely remain 
with their parents, should be given priority for such custody and 
placement over placement in a foster home, unless the court determines 
that placement with any of these relatives is not in the best interest 
of the child or children.
    In Iowa, as I stated earlier, we seek out these relatives. 
Additionally, kinship foster care placement and/or subsidies should not 
be contingent on physical removal of a child from his or her relatives. 
Subsidized guardianship with relatives may be an appropriate permanency 
option for children who cannot safely return home. Federal funds should 
be available for this option and for support services for caretaker 
relatives. This may be especially important for older children for whom 
adoption may not be well received and when termination has implications 
not only for relationships with parents but with siblings.

The ``Look Back'' Provision

    An issue that remains to be addressed is reconciling the ``look 
back'' date to a state's old Aid to Families with Dependent Children 
(AFDC) plan when determining IV-E eligibility. As members of the 
subcommittee are well aware, the AFDC program ceased to exist with the 
creation of the TANF program. NCSL urges federal policymakers to 
reconsider this provision. We urge Congress to consider delinking 
foster care eligibility from AFDC eligibility as of July 16, 1996 and 
move toward reimbursement for all children in care, as the states 
determine. States already serve all children at risk for abuse and 
neglect despite their parent's income. States currently fund foster 
care for all non-AFDC eligible children because all children must be 
protected under law. It should be a state-federal partnership to serve 
all vulnerable children.

Prevention

    In Iowa, we created a community empowerment program to focus on 
primary prevention--ages birth to preschool--using combined efforts of 
education, public health, and human services. Most of the money is 
going to home visiting programs and quality child care. There is a 
general long-term plan to begin incorporating other age groups as the 
program matures. As I said earlier, more flexibility is needed to 
enhance prevention in this system.

Technical Assistance

    NCSL urges Congress to provide states with additional federal 
financial support and technical assistance in their efforts to 
implement a comprehensive service system that helps institute more 
effective child welfare and adoption policies and practices. NCSL 
assisted the Children's Bureau with AFSA implantation by providing 
state lawmakers with help as they enacted state statutory and funding 
changes.
    Mr. Chairman, that concludes my testimony. I would be very happy to 
respond to any questions that you and the members of the subcommittee 
have at this time.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Representative 
Heaton. Now to testify next is Ms. Arnold-Williams, on behalf 
of the APHSA. Ms. Arnold-Williams.

 STATEMENT OF ROBIN ARNOLD-WILLIAMS, EXECUTIVE DIRECTOR, UTAH 
   DEPARTMENT OF HUMAN SERVICES, AND CHAIR, POLICY COUNCIL, 
           AMERICAN PUBLIC HUMAN SERVICES ASSOCIATION

    Ms. ARNOLD-WILLIAMS. Chairman Herger, Congressman Cardin, 
and Members of the Subcommittee, in addition to serving as 
Executive Director of the Utah Department of Human Services, I 
serve as Chair of the APHSA's Policy Council. I thank you for 
the opportunity to testify today about implementation of ASFA.
    Over the past 5 years, States have fundamentally changed 
their child welfare programs, focusing their ASFA reforms, 
including permanency timelines, termination of parental rights, 
and adoption efforts on the goal of achieving safety and 
permanency for children.
    Some States adopted stricter provisions than ASFA. For 
example, in Utah we limit reunification efforts to 12 months, 
as compared to the Federal goal of 15 months. A record increase 
in the number of adoptions has been a key outcome. In 1999, 
States increased adoptions by 28 percent, and in subsequent 
years, they continue to increase, with States earning more than 
$100 million in adoption incentive bonuses.
    States have been so successful that the pool of children 
who are being placed has diminished, and harder to place 
children, including older children, those in large sibling 
groups, or with mental health or behavioral problems remain in 
care.
    In a system where States are too often penalized, this 
incentive program provides States with flexible resources to 
provide safety and permanency for children. That is why APHSA 
supports reauthorization of this program. However, the formula 
and base year must be changed so that States, particularly 
high-performing ones, continue to have an incentive to promote 
adoption. Flexibility in the scope of services for which bonus 
money can be used must also continue.
    While APHSA has not yet finalized its position on the 
President's proposal, we do register some concern regarding 
targeting children by age. For some of these older children, 
permanency may be achieved through legal guardianship, an 
outcome not supported by the current incentive system.
    The ASFA has also increased State accountability by 
measuring outcomes related to safety, permanence, and well-
being. The CFSR is involved in intense, on-site case reviews 
and interviews with children, families, and stakeholders. 
States must create program improvement plans establishing 
specific goals and strategies. Thirty-two States have now been 
reviewed, and while some have wrongly characterized these 
reviews as measures of whether States have passed or failed, 
States view the results as establishing a baseline by which 
they can assess their continuous improvement.
    The CFSRs are important to measuring outcomes and ensuring 
State accountability. However, the process raises some 
concerns. Given State budget shortfalls, there are limited 
resources to implement State performance improvement plans. The 
Title IV-E funding stream is so inflexible that it may not be 
utilized to meet many of the outcomes States seek to achieve. 
We believe the Federal Government has an obligation to show its 
leadership and commitment by providing States with the 
flexibility and resources needed to meet the outcomes of ASFA.
    The ASFA has strengthened linkages between programs, such 
as health, substance abuse, domestic violence and the courts. 
The health and mental health of foster children is a key 
outcome in the CFSR. The APHSA is very concerned about recent 
restrictions on the use of Medicaid funds for targeted case 
management services for foster children. We have funded these 
services with Medicaid for decades, and we want to work with 
Congress and the Administration to ensure that we can continue 
to fund these critical health services for children.
    In my State of Utah, we have made tremendous progress. I am 
pleased to report that during the last year, all regions 
exceeded our high child and family status performance 
standards, including safety, stability, health, emotional well-
being, learning progress, appropriateness of placement, and 
caregiver functioning. Over the last 10 years, my child welfare 
budget has increased 184 percent, with State funds increasing 
345 percent. Even in these difficult times, my legislature 
recently adopted the Governor's budget, adding 51 additional 
caseworkers and trainers, so we can maintain our low caseloads 
and deliver quality services.
    We now serve many more children and families through up 
front, in-home service and kinship care than we do in foster 
care, and our foster care caseload has steadily declined over 
the last 5 years.
    Mr. Chairman, the child welfare system is faced with many 
challenges that require a sustained Federal and State 
partnership. With this in mind, we offer the following 
recommendations for your consideration:
    The Federal financing structure for child welfare no longer 
supports the outcomes we seek to achieve. Title IV-E funding is 
biased toward out-of-home care. In addition, to foster care 
maintenance payments, we believe Federal funding should support 
front-end services, reunification, and post permanency 
services.
    The Aid to Families with Dependent Children (AFDC) ``look 
back'' standard should be repealed. The Federal Government 
should support all abused and neglected children, not just 
those who come from poor families. The CFSRs measure outcomes 
for all children, while Federal funding streams support a 
declining percentage of those children.
    We urge the House to support an increase in the Social 
Services Block Grant (SSBG), which is a key support for child 
welfare services. The ASFA has made important improvements to 
the child welfare system. However, we must not forget those 
children who remain in foster care, and their families.
    We believe that a continued and renewed Federal/State 
partnership will help us achieve the goals of ASFA, and I would 
be happy to answer any questions you have. Thank you.
    [The prepared statement of Ms. Arnold-Williams follows:]
Statement of Robin Arnold-Williams, Executive Director, Utah Department 
  of Human Services, and Chair, Policy Council, American Public Human 
                          Services Association
INTRODUCTION
    Chairman Herger, Congressman Cardin, Members of the Subcommittee, I 
am Robin Arnold-Williams, executive director of the Utah Department of 
Human Services. In this position, I am responsible for a variety of 
programs, including aging and adult services, disabilities, child 
support collections, substance abuse, mental health, youth corrections 
and child welfare (including child abuse, neglect, foster care and 
adoption). I have served in this position since 1997. I am also here 
today in my role as chair of the National Council of State Human 
Service Administrators, the policymaking body of the American Public 
Human Services Association (APHSA). APHSA is a nonprofit, bipartisan 
organization that has represented state and local human service 
professionals for more than 70 years. As the national organization 
representing state and local agencies responsible for the operating and 
administering public human service programs, including child 
protection, foster care and adoption, APHSA, and its affiliate, NAPCWA, 
the National Association of Public Child Welfare Administrators, have a 
longstanding interest in developing and promoting policies and 
practices that enable states to help our nation's most vulnerable 
children and families. Thank you for the opportunity to testify today 
about implementation of the Adoption and Safe Families Act (ASFA).
    On behalf of APHSA and the state of Utah, I want to take a moment 
to commend this Subcommittee for recognizing the importance of ASFA and 
for holding this hearing. I would also like to mention how pleased we 
are that President Bush has included full funding for the Promoting 
Safe and Stable Families program in his budget, and that 
reauthorization of the Child Abuse Prevention and Treatment Act (CAPTA) 
has passed the House and the Senate. We thank you for your efforts to 
reauthorize and reform the Title IV-E child welfare waiver authority in 
the welfare reform bill. Finally, I want to thank Representative Camp 
for introducing legislation that would amend Title IV-E to give tribal 
governments direct access to the foster care and adoption assistance 
program, providing Indian children with the same services that are 
currently available to other IV-E-eligible children, and encourage 
Members to support this legislation. We look forward to working with 
you on these issues and on child welfare funding during the 108th 
Congress and in the future.
BACKGROUND
    The child welfare system serves some of America's most fragile and 
troubled citizens--families in crisis and children who have been abused 
and neglected. In 2001, state child protective service agencies 
received an estimated 2.6 million referrals alleging child 
maltreatment, with an estimated 903,000 found to be victims. As of 
September 2000, 556,000 children were in foster care, with 291,000 
entering in that year, and 131,000 children were awaiting adoption. 
Public child welfare agencies provide a broad array of services to 
these children and families, including prevention and family support 
services; early intervention and family preservation services; child 
protective services; foster care; and permanency and post-permanency 
services. Public child welfare agencies also work closely with other 
public agencies that often deal with the same population, including 
TANF and Medicaid agencies; domestic violence programs; substance abuse 
treatment agencies; and mental health programs.
THE ADOPTION AND SAFE FAMILIES ACT (ASFA)
    The Adoption and Safe Families Act (P.L. 105-89) became law on 
November 17, 1997. The law made the most sweeping changes to the child 
welfare system since passage of P.L. 96-272, the Adoption Assistance 
and Child Welfare Act of 1980. It made safety, permanency, and well-
being the outcome goals of the child welfare system. The law makes it 
clear that the safety and well-being of children must be the paramount 
concerns of state child welfare systems. The act created bonuses to 
states for increasing adoptions; required states to make timely 
determinations about permanency for children in state care (under ASFA, 
states must file a petition to terminate parental rights and find a 
qualified adoptive family on behalf of any child who has been in foster 
care for 15 out of the most recent 22 months); focused attention on 
outcomes and accountability; established a federal review system for 
the child welfare system (the Children and Family Services Reviews); 
and expanded the child welfare waiver demonstration program. ASFA holds 
states accountable for achieving outcomes for children with respect to 
safety, permanence, and well-being, and requires an annual report to 
Congress on state-by-state performance.
    Since ASFA's passage, states have passed laws and implemented 
program changes in many areas in order to comply with ASFA's many new 
requirements. These areas include laws dealing with timelines for 
permanency hearings, adoption across state lines, assurances of child 
safety, classification of reasonable efforts, termination of parental 
rights, criminal records checks, and health insurance for special-needs 
children. It is important to note that many states had statutes, 
policies, and procedures in these areas in place even prior to ASFA. In 
fact, some states had, and continue to have, even stricter provisions 
than ASFA requires. In Utah, for example, there is a limit on 
reunification of families after only 12 months in foster care, rather 
than those in care for the last 15 out of 22 months. ASFA did, however, 
help standardize some of these procedures across regions and states.
IMPACT OF ASFA
Adoption
    There are several areas of child welfare policy and practice in 
which AFSA has had a strong impact. Perhaps it is easiest to see the 
impact AFSA has had on the adoption program. As part of its focus on 
permanency, ASFA included a provision establishing the Title IV-E 
Adoption Incentives Payment Program. The goal of this program was to 
promote adoption through incentive payments to states for increasing 
the number of children adopted from the public foster care system. 
States had been implementing innovative adoption programs for some 
time, and have been very successful in increasing the number of 
adoptions from foster care. In FY 1999, states increased the number of 
adoptions from foster care 28 percent from the year before and earned a 
combined total of $51.48 million dollars in Adoption Incentive funds. 
States have been so successful in finding adoptive families for 
children in foster care that the pool of children who are being placed 
has diminished, thereby reducing the opportunity for states to earn 
significant incentive funds. In FY 2000, adoptions continued to 
increase, but given that states had completed such a large number of 
adoptions the previous year, they earned a total of only $33.2 million 
in incentive funds. Adoptive homes have been found for less hard to 
place children, but many harder to place children, including older 
children, those in large sibling groups, or with mental health or 
behavioral problems, remain in care. As a result, in FY 2001, funds 
received through the program fell even further to $17.6 million.
    The Adoption Incentives Program expires on September 30, 2003, and 
the President's FY 2004 budget request includes reauthorization of the 
program. The President's request proposes changes to the incentive 
system to target older children who constitute an increasing proportion 
of the children waiting for adoptive families by amending the program 
to target incentives specifically to older children, with ACF awarding 
incentives to states using two independent baselines: one for the total 
number of children adopted from the public foster care system; and the 
other for children age 9 and older adopted from the public foster care 
system.
    States have used funds received through the Adoption Incentives 
Program to make investments in many areas, including post-adoption 
services, recruitment of adoptive families and adoption awareness, 
staff training, and increased adoption subsidies and should be allowed 
to continue to benefit from this incentive program even though some are 
no longer able to increase the number of adoptions at previous levels. 
In a system where states are too often penalized and sanctioned, this 
incentive program is a positive step toward providing states with the 
flexible resources they need to provide safety and permanency to 
children in the child welfare system. That is why APHSA supports the 
reauthorization of this program. However, the formula and base year for 
determining the bonuses must be changed so that states, particularly 
high-performing ones, continue to have an incentive to promote 
adoption. States also should continue to have flexibility in the scope 
of services for which they can use bonus money. While APHSA has not yet 
finalized its position on the President's proposal, we do want to 
register some concerns regarding targeting children by age. For some of 
these older children, permanency may be achieved through legalized 
guardianship, an outcome not supported by the current incentive system.
    Finally, it must be noted that rewarding states for increasing 
adoptions must be viewed in the larger context of child welfare 
financing reform. The Administration proposes setting a new goal, which 
would increase the total number of public agency adoptions to 300,000 
adoptions between FY 2004 and FY 2008. The budget states that 300,000 
adoptions over five years is a substantial, but achievable, state goal. 
However, under the current financing structure, states will not be able 
to maintain the same level of momentum without access to more permanent 
and flexible sources of funding. Additional resources will also help 
continue the national momentum toward building services to support 
families once a permanent plan has been achieved.
Accountability Through Measuring Outcomes
    ASFA has also made an impact by increasing state accountability 
through outcome measurement. ASFA holds states accountable for 
achieving outcomes for children with respect to safety, permanence, and 
well-being, and required HHS to develop outcome measures in order to 
rate state performance. HHS is required, through ASFA, to publish an 
annual report on these child welfare outcomes. In order to inform the 
HHS process of creating outcome measures, APHSA established a working 
group of state human service administrators and child welfare directors 
to develop recommendations on outcome measures. APHSA then helped 
create the seven measures used in the report, which were developed by a 
consultation group of representatives from HHS, states, local agencies, 
tribes, courts, child advocates, and other experts in the field, 
including representatives from APHSA and its members. The final seven 
outcome measures are (1) reduce recurrence of child abuse and/or 
neglect; (2) reduce the incidence of child abuse and/or neglect in 
foster care; (3) increase permanency for children in foster care; (4) 
reduce time in foster care to reunification without increasing reentry; 
(5) reduce time in foster care to adoption; (6) increase placement 
stability; and (7) reduce placements of young children in group homes 
or institutions. To date, HHS has published two of the required 
reports, Child Welfare Outcomes 1998: Annual Report and Child Welfare 
Outcomes 1999: Annual Report. APHSA hopes that the data in the reports 
will act as baseline data to assess state improvements in performance 
in coming years, and not as a way to compare states to each other. As a 
result of our involvement in the process, states are committed to an 
increased focus on accountability and believe that an outcomes-focused 
system will ultimately improve the lives of vulnerable children and 
create safe and permanent families. We look forward to the next report.
Child and Family Services Reviews (CFSR)
    Annual report data are not the only manner in which the federal 
government is assessing outcomes for children. Federal regulations 
issued in January 2000 for ASFA established a new federal review 
process to measure states regarding the quality of services provided 
to, and outcome results for, at-risk children. These reviews are known 
as the Child and Family Services Reviews (CFSRs). A major initiative to 
come out of ASFA, with CFSRs states are currently involved in all 
aspects of the review process--from preparing for a review to 
implementing Program Improvement Plans (PIPs). The reviews include an 
assessment of state data and intensive on-site case reviews and 
interviews with children, families, and stakeholders (such as judges, 
foster parents, and service providers). Statewide data indicators and 
qualitative information obtained from on-site reviews in three state 
sites determine if a state substantially conforms under Titles IV-B and 
IV-E of the Social Security Act. As part of the review process, HHS has 
developed national standards to determine how well states are 
performing. The indicators help determine whether or not states are 
operating in substantial conformity. A state that is not operating in 
substantial conformity, as a result of their review, will have an 
opportunity for program improvement and technical assistance prior to 
any federal fund withholding. All states must create a Program 
Improvement Plan, establishing areas and goals for improvement in their 
system. As of January 2003, 32 states have participated in the review 
process. It is important to note that some have wrongly characterized 
these reviews as measures of whether states have passed or failed. 
However, APHSA and states view the results of the CFSR's as 
establishing a baseline, by which they can assess their continuous 
improvement over time.
    In the past two years APHSA has held meetings on the Children and 
Family Services Reviews, most recently in January 2003. State child 
welfare administrators together with representatives from the 
Administration discussed the CFSR process. States agreed that they are 
committed to the review process and feel that there are many positive 
aspects to the reviews. Some of these positive aspects are (1) the 
focus of the reviews is on outcomes and not on process; (2) the move to 
a data-focused system has improved program administration; (3) the 
outcomes used are both relevant and positive; and, (4) the process is 
practice-focused and applies to the full spectrum of child welfare.
    However, there are areas of the review process that are problematic 
for states. Perhaps the issue of greatest concern for states is that, 
given severe budget shortfalls, they do not have the resources to 
implement program improvements outlined in their PIPs. Furthermore, the 
Title IV-E funding stream cannot be utilized to meet many of the 
outcomes states seek to achieve. It is not enough to know what goals 
need to be achieved to help children and families in the child welfare 
system, the resources must also be available. We believe the federal 
government has an obligation to show leadership and commitment in this 
area by providing states with the flexibility and resources they need 
to meet the outcomes of ASFA as outlined in Program Improvement Plans.
    States are also concerned about some of the data issues surrounding 
CFSRs. They would like to see current data systems updated to include a 
variety of data, such as longitudinal, point in time, exit, and entry 
cohort data. Another concern is that the national standards and methods 
of measurement do not consistently reflect best practices. In striving 
to meet the national standards, states must be able to also support 
good practice. The compatibility of data across states is a serious 
concern and states feel strongly that the baseline for each state 
should drive measurement of improvement rather than national standards. 
The results of a very rural state being compared with a largely urban 
state can prove misleading and the very nature of the child welfare 
population is another source of variation that contributes to the lack 
of comparability across states.
    For states, the annual report and CFSRs are consistent with their 
commitment to improving outcomes and increasing accountability in the 
public child welfare system. APHSA and states have had a long-standing 
interest in moving the public child welfare system from a process-
driven system to an outcomes-focused system, so that its success is 
measured by positive outcomes for children. States are committed to 
quality services for children and families and accountability for 
achieving outcomes and support the outcomes-focused approach to federal 
child and family service reviews, and the use of both qualitative and 
quantitative information to judge performance. However, reviews must 
serve as an accurate and fair measure of state performance. National 
standards on which performance is determined must be based on accurate 
data so that the fairness of these reviews is not compromised.
Links to Other Systems
    Another area where ASFA has led to changes in how the child welfare 
system functions relates to the important links between child welfare 
and other service systems. Child welfare practice has become more and 
more complex, with tremendous demands on the system, with increasingly 
challenging populations; high caseloads and scarce resources; 
interstate issues; overrepresentation of children of color; and 
increased expectations and requirements. In recent years, children and 
families who come to the attention of child welfare increasingly 
exhibit multiple problems that require a coordinated response from 
multiple public agencies and service systems outside child welfare. It 
is not unusual for families to have serious substance abuse problems, 
mental illness, or domestic violence concerns; in fact, it is not 
unusual for a family entering the system to enter it with all of these 
problems. It is important to recognize that the system encompasses more 
than the state public child welfare agency. The courts, as well as 
private agencies, are partners in providing for the safety, permanence, 
and well-being of children. In addition, substance abuse, mental 
health, medical, and domestic violence services are all integral to 
serving children and families who come to the attention of the child 
welfare system, and public agencies must collaborate with these other 
service systems in order to provide for the safety and well-being of 
children and to meet the shortened timeframes for permanency enacted in 
ASFA. Congress and the federal government could best help families by 
allocating new resources for communities to build collaborative 
services and partnerships among CPS agencies, domestic violence 
advocacy and intervention services, child and family health and mental 
health providers and multiple court systems.
Health
    The health and mental health of children in the foster care system 
is a key outcome measure in the CFSR. APHSA and our members are very 
concerned about recent actions to deny states ability to use Medicaid 
funds for targeted case management (TCM) services for children in the 
foster care system. States have helped many children and families in 
the system by providing wraparound services, such as comprehensive 
needs assessments, individual service plans, service plan development 
and review, referrals for services, service coordination and 
monitoring, case management, rehabilitation service coordination, 
rehabilitation links and aftercare, and service management through TCM. 
States have funded these services with Medicaid money for decades. We 
want to work with Congress and the Administration to ensure that states 
can fund these critical health services for children in the child 
welfare system through Medicaid.
Substance Abuse
    Linkages are particularly important in the area of substance abuse 
and child abuse. Substance abuse is estimated to be a factor in over 
one-half of child abuse and neglect cases. To fulfill ASFA 
requirements, child welfare and alcohol and drug prevention and 
treatment agencies must work together at federal, state and local 
levels and with other service providers, the courts, communities and 
families. APHSA has collaborated with both the Substance Abuse and 
Mental Health Services Administration (SAMHSA) and the HHS 
Administration for Children and Families on solutions to serving 
families who are affected by substance abuse problems in order to help 
meet ASFA's goals, particularly in terms of meeting ASFA's permanency 
timelines.
Domestic Violence
    The link between domestic violence and child maltreatment has 
become clearer in recent years. For example, in Utah in FY 2002, 25 
percent of substantiated cases were related to domestic violence. APHSA 
has taken a lead role in the area of the link between child 
maltreatment and domestic violence. An example of this leadership role 
is publication of Guidelines for Public Child Welfare Agencies Serving 
Children and Families Experiencing Domestic Violence, which provides 
broad guidance to public human service agency commissioners, public 
child welfare agency directors, and their staffs. The guidelines 
describe model policies, practices, programs, and protocols that 
address the multiple needs of families and children affected by 
domestic violence and child maltreatment, and provide a conceptual 
framework that enables child welfare agencies to integrate best 
practices and policies within their existing mandates, including ASFA.
Courts
    ASFA requires shorter timeframes for permanency hearings and 
termination of parental rights proceedings. States have passed laws and 
changed their policies to meet these new requirements, but the juvenile 
and family courts currently do not have the capacity to address the 
backlog of children in care nor to move the new children entering the 
system more expeditiously to permanence. Although federal law places 
numerous mandates on the courts, federal funding is not provided. 
Clearly, the courts are integral to state child welfare systems meeting 
the goals of ASFA, yet their services are not reimbursable under the 
current Title IV-E funding scheme. ASFA's success requires increased 
court activities to enhance permanence and meet new timeframes. 
Further, state agencies are penalized if the court does not follow the 
mandates. In order to facilitate better partnership between state child 
welfare system and the courts, APHSA is working closely with the 
National Council of Juvenile and Family Court Judges (NCJFCJ), through 
a subcommittee established specifically to look at interstate 
placements. APHSA is working with NCJFCJ through this subcommittee to 
identify issues in interstate placements and work on resolving those 
issues, the most pressing of which is the time it takes to complete 
placements. For state child welfare agencies to meet the goals of ASFA 
it is critical that they and other agencies and providers have the 
resources they need in order to collaborate and serve these families. 
To ensure safety and permanence for children in the child welfare 
system new cross-agency partnerships are needed.
Child Welfare Workforce
    Last week the General Accounting Office (GAO) released a report, 
Child Welfare: HHS Could Play a Greater Role in Helping Child Welfare 
Agencies Recruit and Retain Staff that identifies the challenges child 
welfare agencies face in recruiting and retaining child welfare workers 
and supervisors; how recruitment and retention challenges have affected 
the safety and permanency outcomes of children in foster care; and 
workforce practices that public and private child welfare agencies have 
implemented to successfully confront recruitment and retention 
challenges. The report states that child welfare agencies face a number 
of challenges in recruiting and retaining workers and supervisors and 
that low salaries, in particular, hinder agencies' ability to attract 
potential child welfare workers and to retain those already in the 
profession. The report recommends that the HHS secretary take actions 
that may help child welfare agencies address the recruitment and 
retention challenges they face. Such efforts may include HHS using its 
annual discretionary grant program to promote targeted research on the 
effectiveness of perceived promising practices or provide technical 
assistance to states.
Utah
    In my state of Utah, we have made tremendous progress in addressing 
the safety, permanency, and well-being outcomes for our children 
through efforts to fundamentally change the culture of my child welfare 
agency and to reform the day to day practices of line staff, 
supervisors, and administrators. Our reform efforts began in 1994 
through a cooperative effort of our agency, the legislature, and our 
judiciary. Over the past 10 years, the total budget for my child 
welfare division has increased 184 percent with the amount of state 
general funds increasing by 345 percent. Even in these difficult 
budgetary times of across the board budget reductions, the governor 
recommended and the legislature endorsed the addition of 51 child 
welfare caseworkers and trainers so that we can maintain our low 
caseloads and deliver quality services. Through our efforts and the 
capacity that our state resources have provided, we now serve many more 
children and families through up-front, in-home services than we do in 
foster care. In fact, our foster care caseload has steadily declined 
over the past five years from a high monthly average of 2,324 children 
in 1998 to a monthly average of 1,988 children in 2002.
    We were a state that adopted standards for child safety, 
permanency, and well-being even prior to ASFA's passage. To continually 
monitor our performance on these standards, we developed a 
comprehensive case process and qualitative review process that has now 
been operating for over four years. The system we use is very similar 
to that employed in the federal Child and Family Services Reviews. I am 
pleased to report that during last fiscal year, all regions of my state 
exceeded the high performance standards we have for child and family 
status, including safety, stability, health and physical well-being, 
emotional and behavioral well-being, learning progress, appropriateness 
of placement, and caregiver functioning.
    Another issue regarding the courts is that Utah, like many states, 
is subject to federal court oversight of our child welfare system 
operations. The majority of these court cases and corresponding 
settlement agreements and monitoring arrangements predated ASFA and 
development of national outcomes and performance standards signifying 
substantial conformity with federal requirements. In some cases, the 
standards to which we are being held for purposes of federal court 
oversight are higher and may conflict with the newly established 
federal standards. Utah's child and family services review is scheduled 
for later this month and a concern that we foresee is that as we 
develop our Performance Improvement Plan, it will not align with our 
plan to meet and exit from federal court oversight. My child welfare 
agency may be faced with meeting two different plans. Federal courts 
and the federal agency should hold states to the same standards.
California
    Mr. Chairman, your home state of California has embraced the 
principles of ASFA, and passed laws enabling the state to comply with 
the law. The California Adoption Initiative is one example of how the 
state is successfully meeting ASFA's goals. In 2001, California 
received an HHS Adoption Excellence Award for creating a cross-cutting 
Adoption Initiative Bureau involving public and private providers, 
advocate and adoptive families. The result has been a significant 
increase in the number of children who are adopted from foster care.
Maryland
    And Mr. Cardin, Maryland has made many changes to its child welfare 
system as a result of ASFA. One is the timely passage of a state law 
regarding children in out-of-home placements that incorporated both the 
requirements and the goals mandated by ASFA. Another was the 
development of the Child Welfare and Adult Performance System (CAPS). 
This case record review system is one of the methods that Maryland has 
implemented to ensure compliance with federal regulations. Maryland has 
also been successful in developing a safety instrument to measure 
safety for every child in out-of-home placement and for children 
receiving in-home services. Additionally, ASFA funding allowed Maryland 
to fully implement its court improvement project and provide judges 
with ASFA training.
REMAINING CHALLENGES AND RECOMMENDATIONS
    APHSA and public child welfare administrators believe that children 
are safer and living in more permanent settings as a result of both 
state action and the landmark ASFA law. ASFA has become an inextricable 
part of child welfare policy and practice. In many areas, ASFA has 
changed the way child welfare is practiced in this country. However, 
while a great deal has been achieved, much more still needs to be 
accomplished to help families in the child welfare system.
Adoption Incentives Program
    As I have stated, the Adoption Incentives Program should be 
reauthorized in a way that allows states to continue to have an 
incentive to promote adoptions and earn incentive funds. States have 
been so successful in finding adoptive families for children in foster 
care that the pool of children who are being placed has diminished, 
thereby reducing the opportunity for states to earn significant 
bonuses. The formula and base year for determining incentive payments 
must be changed so that they remain fair and equitable to states.
Flexibility and Funding
    The federal financing structure for child welfare that was 
established in 1980 no longer works. The current structure of federal 
child welfare funding does not adequately support the outcomes for the 
children and families that public child welfare agencies, Congress, the 
federal government, child advocates, and the public seek to achieve. 
The biggest share of this federal funding is disproportionately 
directed toward funding out-of-home care--the very part of the system 
that agencies are seeking to minimize to achieve greater permanence for 
children. Title IV-E funds should fund services in addition to foster 
care maintenance payments, such as front-end services, reunification, 
and post-permanency services for children in the child welfare system.
    The needs of state child welfare systems far outstrip the resources 
that are now provided with federal funding. With states historically 
outspending the federal government, we believe it is time for a more 
equitable state-federal financial partnership. Exacerbating the 
resource problem is that, under the welfare reform law, states are 
required to ``look back'' to old AFDC rules in effect on July 16, 1996, 
to determine Title IV-E eligibility. Not only is this administratively 
burdensome, but the law does not allow the income standards in effect 
on July 16, 1996, to grow with inflation. As a result, eligibility for 
federal reimbursement has decreased over time, leading to a continued 
loss of federal funding to states. We support delinking IV-E 
eligibility from AFDC so that the federal government can support all 
children in the child welfare system regardless of income. In the years 
since ASFA's enactment, states have demonstrated significant progress, 
not only because of the new law but also because of state initiatives 
that were in place prior to the law. The federal government, however, 
has not provided sufficient resources to support state's efforts to 
meet these new mandates.
    In terms of ASFA, we are very concerned that given severe state 
budget shortfalls, we do not have the resources to allow states to 
improve outcomes for children and families outlined in their Children 
and Family Services Reviews and Program Improvement Plans. Given the 
limited resources available in states at this time, we feel that the 
federal government has an obligation to show leadership and commitment 
in this area by providing states with the flexibility and resources 
they need to meet the outcomes of ASFA.
SSBG
    I cannot discuss child welfare funding without mentioning the 
Social Services Block Grant (SSBG). SSBG is a critical source of 
federal funding for child welfare services, and $1.3 billion in 
increased funding is currently pending in the Senate as part of the 
CARE Act. There are a host of SSBG services that support children and 
their families involved in the child welfare system; it is significant 
that states used almost $623 million for foster care, child protection, 
case management, and adoption alone. APHSA strongly encourages the 
subcommittee to make SSBG funding increases an integral part of any 
companion bill to CARE that moves through the House.
Title IV-E Waivers
    Another priority area for APHSA, and an additional way to make 
federal child welfare funding more flexible, is to expand the Title IV-
E Child Welfare Demonstration Waivers authorized under ASFA and to 
increase their flexibility. The current waiver process limits 
innovation, prohibits approval for multiple states to test similar 
innovations, such as subsidized guardianship; restricts research, 
control groups, and random assignment requirements; cost-neutrality 
methodology; and limits statewide approaches. While the waiver program 
has enabled some states to reinvest federal foster care funding in 
services and other activities to improve their systems and promote 
permanence, in its current mode of HHS implementation, it is a promise 
unfulfilled and will not meet state's needs for the flexibility 
necessary to achieve broad systems change. APHSA strongly supports 
making substantial modifications to the current Title IV-E waiver 
process to allow more flexibility and to foster system change, 
including eliminating the limited number of waivers HHS can approve; 
eliminating approval criteria that require random assignment and 
control groups that limit statewide approaches; eliminating the limited 
number of states that may conduct waivers on the same topic; 
eliminating the limited number of waivers that may be conducted by a 
single state; and enabling states to continue their waivers beyond five 
years. We appreciate the leadership of this Subcommittee to reauthorize 
IV-E waivers in H.R. 4, the welfare reform act.
CONCLUSION
    Everyone can agree that ASFA has been successful in making 
important improvements to the child welfare system. However, we must be 
careful not to forget the children who remain in foster care and their 
families. While ASFA has helped states continue making improvements to 
the child welfare system and helping our nation's vulnerable children 
and families, the current structure of child welfare remains 
disproportionately directed toward funding out-of-home care, and does 
not promote services that encourage child safety or promote family 
reunification.
    APHSA's vision for child welfare is a society where children are 
free from abuse and neglect, and live in safe, stable, permanent 
families--where children and families have needed supports and can help 
themselves. When children are at risk and come to the attention of the 
public agency, the agency can provide services and supports to them and 
their families to mitigate their problems and prevent them from being 
removed from their families and communities. When children must come 
into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where that is not 
possible, find an alternative permanent placement expeditiously, while 
assuring their well-being in the interim. This is a vision where the 
safety and protection of children is the shared responsibility of all 
parts of the human service agency and the larger community. It is a 
vision where the child welfare system has the capacity to improve 
outcomes for children and families and the federal government and 
states are equal partners in serving all children in all parts of the 
system.
    Thank you for the opportunity to testify. I would be pleased to 
respond to any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you very much. Now we will hear from 
Ms. Judith Schagrin, Assistant Director, Baltimore County 
Department of Social Services.

    STATEMENT OF JUDITH M. SCHAGRIN, ASSISTANT DIRECTOR FOR 
  CHILDREN'S SERVICES, BALTIMORE COUNTY DEPARTMENT OF SOCIAL 
                 SERVICES, BALTIMORE, MARYLAND

    Ms. SCHAGRIN. Good afternoon. I welcome the opportunity to 
speak with you today about the implementation of ASFA from the 
perspective of one who lives it. After 20 years in the public 
sector, I continue to have a passion for my work. I love the 
challenges of providing child welfare services--and there are 
plenty of them.
    Through my 20 years, I have watched far too many children 
grow up unnecessarily in foster care, while their parents were 
given opportunity after opportunity after opportunity to remedy 
what brought their child into care.
    What has been most valuable about ASFA was the change in 
focus in foster care services, from endless efforts at 
reunification to reasonable efforts, with an emphasis on 
permanent families for children. For many children, this has 
been a blessing. We have broadened our understanding of 
adoptive potential and are far more proactive about looking for 
permanent homes and encouraging foster parents, including 
relatives, to consider the permanence of adoption. We are 
finalizing adoptions not just of young children, but also 
teenagers up to the age of 18, as well as children with 
significant medical and mental health needs.
    All of that being said, when ASFA was passed there were 
those who believed that all children are adoptable and that 
ASFA would eliminate the need for long-term foster care. In 
reality, there are not enough homes capable of meeting the 
needs of our most damaged children, and many of our adolescents 
simply don't want to be adopted. They have strong connections 
with families, though troubled, may be loving.
    In Baltimore County, one-fourth of the children who are 
under our care are over the age of 13, and 50 percent of our 
overall population is over the age of 15. It's important to 
remember that there will always be children who the State, you, 
and I, will be responsible for. We have an obligation to these 
children to be the very best parents we can be.
    In our rush to terminate parental rights, some children 
will be left legal orphans, while others whose adoption has 
been finalized are beginning to trickle back into foster care. 
Some of these families are committed to their children and 
working toward reunifications, while others have abandoned 
their children once again to the foster care system.
    It is important to keep in mind as well that no new Federal 
funds were made available to carry the mandates of the ASFA 
legislation. For example, case workers are now spending three 
times as much time in court, paperwork requirements continue to 
burgeon out of control, and efforts to recruit, train, and 
support adoptive families for very damaged children must be 
expanded.
    I was glad to hear you mention the GAO report on the 
Professionalization of Child Welfare. No matter what 
legislation is passed, no matter what incentives are made 
available, no matter what regulations are implemented, I firmly 
believe that without well-trained, adequately compensated, and 
professional staff, good results for vulnerable families and 
maltreated children will continue to be elusive.
    You have heard today with respect to the financing of child 
welfare services that there are widespread sentiments that 
Federal Title IV-E funding is inflexible and eligibility 
requirements are outdated. Commenting first on eligibility, I 
have never quite understood why the government's commitment 
isn't to all children in government custody, not just those 
from impoverished homes, and surely it's time to reevaluate 
basing Title IV-E reimbursability on whether or not the home 
would have been eligible for an AFDC grant, according to 
standards that are now 7 years old.
    Looking to the future, I understand there is some talk of 
block granting Title IV-E funds under the guise of offering 
greater flexibility. I believe that to be simply wrong. When we 
look back at our Nation's experience with Title XX block 
grants, we know that while there was a substantial allocation 
for family services when States had control of the funding, 
many of them stopped using them for the purpose for which they 
were intended.
    Once the impact of block granting Title XX funds was felt, 
the number of children entering foster care grew dramatically, 
virtually wiping out the progress made by the first permanency 
planning legislation.
    In summary, overall ASFA has had positive outcomes for many 
children. Continued progress toward a quality child welfare 
system is critical. To the last half of the 19th century, we 
believed that orphan trains were a progressive way to care for 
orphans and maltreated children. I am hopeful that in another 
hundred years a revolution of social conscience will allow us 
to look back at the child welfare practices today with shock 
and amazement, that helpless children were given such short 
shrift in the land of plenty.
    While ASFA has yielded many successes, the child welfare 
system is far from what our most precious resource, our 
children, need and deserve. These children depend on society's 
largess for their very existence. Please don't let them down.
    [The prepared statement of Ms. Schagrin follows:]
  Statement of Judith M. Schagrin, Assistant Director for Children's 
 Services, Baltimore County Department of Social Services, Baltimore, 
                                Maryland
    Thank you for the opportunity to share the perspective on 
implementation of the Adoptions and Safe Families Act from those of us 
doing the work. I began my career in child welfare shortly after the 
implementation of the Adoptions Assistance and Child Welfare Act passed 
in 1980 (P.L. 96-272). As an administrator, I have been responsible for 
integrating the changes brought about by the ASFA legislation into our 
agency's practice.
    The shift brought about by the Adoptions and Safe Families Act away 
from protracted reunification efforts to an emphasis on achieving 
timely and permanent family placements for children has been of 
significant value. Over my 20 years in child welfare, I have watched 
children grow up unnecessarily in foster care while their parents were 
given opportunity after opportunity to remedy the issues that resulted 
in placement. When reunification cannot occur, ASFA has enabled us to 
move more quickly toward adoption or legal guardianship. Our 
understanding about adoptive potential has broadened significantly. We 
are finding adoptive homes for older children and those with multiple 
physical and emotional complications while for other children, 
relatives are stepping forward willing to offer the permanence of 
adoption. Especially for children under the age of six, one of the 
positive results in my own county has been that the length of stay has 
steadily dropped since ASFA implementation, from 21 months pre-ASFA to 
15 months since July 1999.
    Significantly, however, while ASFA created a number of new mandates 
for states, no additional federal funds were provided to meet these 
requirements. For example, caseworkers now spend three times as much 
time in the court, and recruitment efforts for families willing to 
adopt very special needs children need to be more intensive and far-
reaching. Equally disturbing, little emphasis has been placed 
nationally on the professionalization of child welfare staff or 
lowering of caseloads to make this very important work possible. 
Increasingly studies are demonstrating the value of a social work 
degree to achieve better outcomes for children and their families. No 
matter what legislation is passed or what regulations are implemented, 
without well-trained, adequately compensated, and professional staff 
good results for vulnerable families and maltreated children will 
continue to be elusive.
    This being said, some ASFA provisions have been problematic:

    <bullet> LA waiver of reunification efforts can be requested based 
on extreme circumstances. However, from our experience in Maryland it 
is uncertain whether the court can and will terminate parental rights 
at a contested TPR hearing when no efforts were made to provide 
reunification services.
    <bullet> LWhen ASFA was passed, there were those who believed that 
we would soon see the end of foster care, that all children are 
adoptable. An adoptive home will be found for a child at high risk for 
mental illness; a psychotic nine year old exhibiting destructive, 
assaultive, and sexualized behavior will need far more intensive 
supervision and treatment. It is critical to understand that there will 
always be children that the state will raise; we have a moral 
obligation to be the very best parent we can for those children.
    <bullet> LThe emphasis on termination of parental rights at 15 out 
of 22 months without some reasonable certainty of an adoptive home will 
create an increasing pool of legal orphans.
    <bullet> LChildren are beginning to re-enter foster care after the 
dissolution of their finalized adoptions; sadly enough this is likely 
to be a trend given the enormous challenges for families caring for 
very disturbed and damaged children.
    <bullet> LOutcome and other child welfare accountability measures 
don't necessarily measure the quality of care. Child welfare suffers 
from a dearth of meaningful research designed to establish protocols 
for successful interventions and meaningful performance measures.
    <bullet> LWhile lengths of stay may be decreasing, we have 
experienced an increase in the number of children entering foster care. 
Baltimore County's overall number of children in care has increased 
over the past ten years from 469 in July '93 to 682 children today, 51% 
of whom are over the age of 13. This is a population with significant 
mental health needs who may be coming from families in which substance 
abuse, mental illness, parental abandonment or incarceration, and 
domestic violence have been the norm. Adoption may not be reasonable or 
possible.

    As Congress considers future financing policy in child welfare, the 
outdated eligibility for, and inflexibility of, Title IV-E federal 
funding are major issues. Commenting first on eligibility, surely it is 
only reasonable to anticipate that the federal government's commitment 
to children in government custody be inclusive of all foster children, 
not just those from impoverished homes. Basing eligibility for federal 
funding on whether a family would have met eligibility standards for 
the outdated Aid to Families with Dependent Children (AFDC) program 
using the ``look back'' date of June 1, 1996, carries a heavy price to 
administer and has resulted in fewer eligible children. Certainly a 
review of this requirement is long overdue.
    While the inflexibility of IV-E funds is indeed a problem, block 
granting these funds in exchange for flexibility would be disasterous. 
Dismantling federal oversight and accountability is simply an 
abdication of responsibility for our nation's most helpless children, 
those who are in fact the state's children. To understand the downside 
of block granting child welfare funds, it is important to examine our 
nation's experience with the Title XX funds block granted by in the 
early 1980's. While there was originally a substantial allocation for 
family services--preventive, reunification, aftercare, etc.--when 
states had control of the funding, many ceased using the funds for 
their original intent. It is no coincidence that once the impact of 
block granting Title XX funds was felt, the number of children entering 
foster care grew dramatically, virtually wiping out the progress made 
by the implementation of the first permanency planning legislation, 
P.L. 96-272, in 1980. Please do not repeat this mistake; surely a 
better means of incorporating enhanced flexibility would be to revise 
current government regulations relating to federal child welfare funds.
    In summary, overall the Adoptions and Safe Families Act has had 
positive outcomes for many children but continued progress is critical. 
Through the last half of the 19th century, we believed that Orphan 
Trains were a progressive way of meeting the needs of orphans and 
maltreated children. Perhaps in another 100 years a revolution of 
social conscience will cause us to look back at the child welfare 
practices of today with shock and amazement that helpless children were 
given such short shrift in such a land of plenty. While ASFA has 
yielded some successes, our child welfare system is far from what our 
most precious resource, our children, need and deserve. These children 
depend on society's largesse for their very existence; please don't let 
them down by abdicating federal responsibility for these children and 
their families.

                                 <F-dash>

    Chairman HERGER. Thank you very much for your testimony, 
Ms. Schagrin. Now we will turn to S. Truett Cathy, founder and 
Chairman of Chick-fil-A, Inc., Atlanta, Georgia. Mr. Cathy.

      STATEMENT OF S. TRUETT CATHY, MEMBER, HORATIO ALGER 
   ASSOCIATION, AND FOUNDER, WINSHAPE CENTER, INC., ATLANTA, 
                            GEORGIA

    Mr. CATHY. Mr. Chairman and Members of the Committee, may I 
share with you a story about Woody Faulk. Woody was brought to 
my Sunday school class by a neighbor. Woody was a victim of 
circumstance. His mother and father divorced when he was 4. He 
lived with his mom in Lake City, Florida, where he joined the 
Boy Scouts. He was off on a scouting trip when he was located 
by a patrolman who told him his mom had been killed instantly 
in a car accident. Soon after that he was notified that his 
father, who lived in California and whom he had not seen for 
years, died. He had one sister, a college student, and an aunt 
and uncle. He was brought to Jonesboro, Georgia to live in my 
community with his aunt and uncle.
    Realizing his needs, I gave him a lot of my time and 
attention and invited him to live with us. Woody, at the age of 
13, came to me and told me, he said, when I grow up, I want to 
work for you. He said he didn't want to operate one of those 
Chick-fil-A units, but he wanted a desk and a secretary like I 
had.
    Today he has accomplished that goal. He graduated from the 
University of Georgia with high honors. I served as best man at 
his wedding. He achieved a Master of Business Administration at 
Harvard and is happily married and has three precious little 
girls. Woody has accompanied me here today.
    From this experience came the motivation for me to start 
foster homes. I created WinShape Homes. I saw there were many 
children in America who never stole anything, never used drugs 
or alcohol, but were seeking some guidance and encouragement 
from others.
    The children we try to identify are those who do not have 
serious behavior problems, but oftentimes have heavy baggage. 
We have been successful in keeping sibling groups together. We 
currently have 89 siblings in our program that would otherwise 
not be together.
    The homes we have established have 12 children in each 
home. These homes are described as all-American, fashionable 
homes, with a large amount of acreage for the children to run 
and play. We employ full-time parents who view their 
responsibilities as a calling, not a job.
    All of these children are treated as my own grandchildren. 
I play the part of an adopted grandpa. I tell the children they 
do not have to call me grandpa, but those who do call me 
grandpa get more.
    [Laughter.]
    I introduce them to others as their grandpa by choice. They 
chose me, and I chose them. We tell the children this is your 
home for as long as you like. This is your place where you 
bring your children and tell them, ``This is where I grew up.'' 
You do not have to worry about a caseworker coming and taking 
you away to another foster home. They feel secure and stable.
    I endorse adoption. Adoption is wonderful if it takes place 
at an early age, the earlier the better. It is very difficult 
for an older child to make the adjustment to comply with the 
rules and regulations of the home.
    About 2 years ago we had three sisters who had been with us 
for 6\1/2\ years, who were happy, well adjusted, and well 
bonded to their house-parents and other family members. Their 
caseworker was mandated by the Federal government to find an 
adoptive placement for these girls, even though the girls did 
not want to be adopted. The adoption process was started and 
was very upsetting to the girls, as well as the whole family. 
After two potential placements disrupted, WinShape went before 
the Commissioner of the State of Tennessee to ask for his 
consideration in leaving the girls with WinShape as a long-term 
placement. The case was reviewed and WinShape was granted 
custody and the girls are still with us.
    Approximately 5 years ago WinShape Homes had three bi-
racial children who have been living with us for almost 3 
years. The children were thriving for the first time in their 
lives and doing well in school. The State of Georgia decided to 
look for an adoptive home for these children and eventually 
found one, even though it has seven other children. Before the 
year was out, the adoption disrupted, the kids were back to 
their old emotional state of mind, and they were split up and 
sent to different facilities. We had already filled their beds 
and had no room for them at the time. It is very emotional and 
upsetting when we lose a child, not only to the house-parents, 
but very upsetting to their grandpa.
    In some cases, I have gone through the court system and 
personally become legal guardian of nine children in order to 
keep them. WinShape Homes currently has 36 private placements.
    WinShape has 14 homes, 9 in Georgia, 3 in Tennessee, 1 in 
Alabama, and 1 in Brazil, that serve 134 children. The house-
parents are role models for the children, often blending their 
own natural children together, all treated equally. We have had 
only two changes in house-parents during the 15 years we've 
been in business.
    I was in Washington this past week where I serve as a 
member of the Horatio Alger Association, where we recognized 
104 children who came from poverty and abused situations, who 
have overcome their upbringing to set high goals for 
themselves. They were awarded----
    Chairman HERGER. Mr. Cathy, if you can sum up, your time 
has expired. We certainly will put all your testimony in the 
record.
    Mr. CATHY. All right. Let me close by saying I highly 
endorse adoption. I am responsible for two boys being adopted, 
but neither worked out. While I know that adoption is great, 
there is a place for foster care, particularly those of an 
older age. We generally select children from school age. We are 
what is classified as an ``All-American home'' by the parents 
there, to nurture the children off to school, to greet them 
when they come home, get them to the doctors and dentists and 
other places, and get them to participate in the school 
activities. We feel we are rendering a service, and we would 
like to be able to use that and to continue on since we have 
had so much success in this area.
    [The prepared statement of Mr. Cathy follows:]
 Statement of S. Truett Cathy, Member, Horatio Alger Association, and 
            Founder, WinShape Center, Inc., Atlanta, Georgia
    My thanks to U.S. Representative Mac Collins, and others 
responsible for extending this invitation to speak to you today on a 
subject very dear to my heart--foster care.
    Mr. Chairman and Members of the Committee, may I tell you a story 
about Woody Faulk. Woody was brought to my Sunday school class by a 
neighbor. (I have taught Sunday school for 47 years.) Woody was a 
victim of circumstance--mother and dad divorced at the age of 4. He 
lived with his mom in Lake City, Florida, where his mom worked two 
jobs. Woody joined the Boy Scouts (and later made Eagle Scout) early in 
his life. He was off on a scouting trip when he was located by a 
policeman who told him his mom had been killed instantly in a car 
accident. Soon after, he was notified that his father, who lived in 
California and whom he had not seen for years, had died. He had one 
sister, a college student, and an aunt and uncle. He was sent to 
Jonesboro, Georgia to live in my community with his aunt and uncle. 
There they made room for Woody to share a bedroom with his cousin who 
was the same age as Woody.
    Realizing his needs, I gave him a lot of my time and attention with 
the consent of my wife, Jeannette and our three children, who were all 
in college at that time. Woody, at the age of 13, came to me in church 
to tell me when he grew up he wanted to work for me. He said he didn't 
want to operate one of our Chick-fil-A units, but wanted a desk and 
secretary like I had. Today, he has accomplished his goal. I attended 
his graduation at the University of Georgia. He received high honors in 
marketing. I served as best man in his wedding. He achieved an MBA at 
Harvard and is happily married and has three precious little girls. 
Would you please recognize Woody Faulk who accompanied me today.
    From this experience came the motivation to start foster homes, and 
I created WinShape Homes as part of my foundation, WinShape Centre. I 
saw that there were many children in America who never stole anything, 
never used drugs or alcohol, but were seeking some guidance and 
encouragement from others.
    The children we try to identify are those who do not have serious 
behavior problems, but often time have heavy baggage. We have been 
successful in keeping sibling groups together. We currently have 89 
siblings in our program that would, otherwise, not be together.
    The homes we have established have 12 children in each home. These 
homes are described as All-American, attractive and comfortable with a 
large amount of acreage for the children to run and play. We employ 
full-time parents who view their responsibilities as a calling, not a 
job. All of these children are treated as my own grandchildren. I play 
the part of an adopted grandpa. (I tell them they do not have to call 
me grandpa, but they get more if they do!) I introduce them to others 
as their grandpa by choice--they choose me and I choose them. We tell 
our children, you'll be here forever. This is the place you bring your 
children and tell them ``this is where I grew up.'' You do not have to 
worry about a caseworker taking you to another foster home.
    I endorse adoption. Adoption is wonderful, if it takes place at an 
early age--the earlier the better. It is very difficult for an older 
child to make the adjustment and comply with the rules.
    About two years ago, we had three sisters who had been with us for 
6\1/2\ years who were happy, well adjusted and had bonded with their 
houseparents and other family members. Their caseworker was mandated by 
the federal government to find an adoptive placement for these girls, 
even though the girls did not want to be adopted. The adoption process 
was started and was very upsetting to the girls as well as the whole 
family. After two potential placements disrupted, WinShape went before 
the Commissioner of the State (Tennessee) to ask for his consideration 
in leaving the girls with WinShape as a long-term placement. The case 
was reviewed and WinShape was granted custody. The girls are still with 
us.
    Approximately five years ago, WinShape Homes had three bi-racial 
children who had lived with us for almost three years. The children 
were thriving for the first time in their lives and doing well in 
school. The State (Georgia) decided to look for an adoptive home for 
the kids and eventually found one--even though it was with seven other 
children. Before the year was out, the adoption disrupted, the kids 
were back to their old emotional state of mind and they were split up 
and sent to different facilities. We had already filled their beds and 
had no room to take them back. It is very emotional and upsetting when 
we loose a child, not only to the houseparents, but to their grandpa.
    I was responsible for securing the adoption of two boys to two 
different families that I knew well, but neither worked out. The 
adopted parents had a six month trial period after which they did not 
have to keep the child. You can imagine the trauma to that child's 
life--to be rejected after a short period of time.
    In some cases, I've gone through the court system and personally 
become legal guardian of nine children in order to keep them. WinShape 
Homes currently has custody of 36 private placements.
    WinShape now has 14 homes--9 in Georgia, 3 in Tennessee, 1 in 
Alabama and 1 in Brazil, that serve 134 children in these homes. The 
parents are role models for the children, often blending their own 
natural children together, all treated equally. We have had only two 
changes in houseparents since we began in 1987.
    I was in Washington this past week where I serve as a member of the 
Horatio Alger Association. We recognized 104 children, who came from 
poverty and abused situations who have overcome their upbringing to set 
high goals for themselves. They were awarded a $10,000 scholarship to 
the college of their choice. These Horatio Alger Scholars were selected 
from 7,000 applications.
    There is a problem in America today--how to handle deprived 
children. A child today only has a 50-50 chance of having both mom and 
dad living under the same roof.
    Mr. Chairman, I applaud the work of Congress focusing on the long-
term security of children who have been displaced from their biological 
family for one reason or another. I hope the 1997 Adoption and Safe 
Families Act has had many positive outcomes. However, one unintended 
consequence has been the impact on our program, and possibly others 
like ours.
    While we do not believe our program is sole answer to the problems 
facing displaced children, I strongly feel we are part of the solution, 
a larger solution of providing alternatives to courts and child welfare 
agencies.
    Right now, with the sole emphasis on adoption, reunification, or 
placement with a relative, programs like ours are not having the chance 
to help children which may benefit most from a permanent and stable 
placement. In other words, for some children, adoption is not in the 
best interest of the child. For instance, many children have been in 
our care for several years and have bonded with their houseparents. 
Some of our children are part of sibling groups who do not want to be 
split up. Others still have relationships with their parents, 
grandparents or other family, and severing of parental rights (as 
required for adoption) may not be the best option for that child.
    What I am asking this committee and Congress to do is give courts 
and child placing agencies the flexibility to consider plans like ours 
on an equal footing with adoption and other permanency alternatives 
when developing permanency plans for children, which would include the 
incentive payments to State agencies that you are considering today. 
While we have many private placements, and could accept only private 
placements in our homes should we so choose, we feel children in State 
custody are just as deserving of our services and that the State and 
WinShape can both benefit by working together.
    In closing, Mr. Chairman, my goal is to impact the lives of 
children in a positive way, and give them what they may never have 
otherwise--a loving, permanent, home. My foundation is endowed to 
continue to add homes and grow long after I am gone, and I hope, with 
your help, it will have the opportunity to keep serving the most 
vulnerable of our society, our children.
    There is a need for programs such as ours. I could tell you many 
wonderful stories of our successes and a few failures. But the success 
stories far outweigh the failures. That's what motivates me to be 
better and encourages me to do more. We're not perfect, but we are 
making efforts to help those who desperately need help.

                                 <F-dash>

    Chairman HERGER. Mr. Cathy, I want to thank you for the 
incredible example of your involvement of going the extra mile, 
and then some, to help those who are so in need. Thank you very 
much, and thank you for being here and for your testimony 
today. Next we will turn to Mark Hardin, Director, National 
Child Welfare Resource Center on Legal and Judicial Issues. Mr. 
Hardin.

  STATEMENT OF MARK HARDIN, DIRECTOR, NATIONAL CHILD WELFARE 
 RESOURCE CENTER ON LEGAL AND JUDICIAL ISSUES, AND DIRECTOR OF 
  CHILD WELFARE, CENTER ON CHILDREN AND THE LAW, AMERICAN BAR 
                          ASSOCIATION

    Mr. HARDIN. Mr. Chairman and Members of the Subcommittee, I 
very much appreciate the opportunity to testify today. I'm 
going to cover four points.
    First, the role of courts in achieving goals of ASFA; 
second, how the Federal Court Improvement Program (CIP) helps 
States implement ASFA; third, continuing barriers courts are 
facing in playing their role in the implementation; and 
finally, some promising new developments in the CIP.
    I am sure you're very well aware of the critical role that 
court decisions play in the foster care system. After all, 
courts decide when children can be placed in foster care, 
whether and when they can be returned home, and whether 
children are going to be placed in new permanent homes. When 
judges make mistakes or delay decisions, a child can suffer 
injury, even death. A family can needlessly be broken up and a 
child can languish for years in foster care. So, obviously, the 
performance of courts has a lot to do with the ultimate success 
of ASFA.
    The ASFA, incidentally, includes a number of specific 
directives to courts with regard to findings courts are 
supposed to make, deadlines for hearings, and also what is 
supposed to happen at different hearings.
    My second point is about the Federal CIP and how it's 
making a difference in ASFA implementation. The CIP provides 
grants to State courts. It goes to the highest State court and 
the money is exclusively to be used in improving the way the 
courts perform in child abuse and neglect foster care adoption 
cases. Every State has accepted these funds as well as the 
District of Columbia and Puerto Rico.
    Nearly every State CIP project played a major role in 
developing the State laws to implement ASFA. Many have revised 
court rules, court forms, and court procedures. The CIP 
projects have also done a great deal to educate their 
practitioners. They have developed judicial bench books, and 
lawyer manuals. Every program has done repeated training on 
ASFA.
    They have also been involved in many, many other ways in 
implementing ASFA, including reorganizing courts. I will just 
say that attached to my written testimony is an article about 
that.
    My third point is about the persistent barriers facing 
courts in implementing ASFA. In ABA's opinion, the CIP is a 
remarkably effective Federal program, especially given the 
funding level. On the other hand, we feel that most courts have 
not yet received the level of excellence that we think is 
possible that, in fact, we know is possible by the examples of 
some courts.
    One serious barrier is still excessive judicial workloads 
in many courts. Many judges still don't have the time to devote 
to each case to really take a careful individualized look at 
the situation of the child and the family.
    Another problem is unevenness of legal representation. This 
is important. After all, attorneys and guardian ad litems and 
counsel volunteers are very largely responsible for providing 
the information to the judge, that the judge takes into account 
in making decisions. Again, CIP projects have been very 
helpful, but we have a long way to go.
    Finally, I want to mention some promising signs of 
progress, even regarding these very difficult challenges. To 
improve judicial workloads, we are improving our ability to 
determine how many judges are needed and court staff are needed 
to handle these challenges. The ABA, the National Council of 
Juvenile Family Court Judges, and the National Center for State 
Courts are together working hard on this. We feel the State CIP 
projects are very receptive.
    There is also some hope for improvement of legal 
representation. Many States are adopting strict performance 
standards for attorneys in our field. The ABA has also endorsed 
standards.
    There is a recent book describing how to reorganize and 
improve law offices to be more effective. There is a lot to be 
said about that. Again, there's a lot to be done, frankly, in 
terms of legal representation.
    Another important development is the courts are developing 
a better capacity to evaluate their own work. We think this is 
critical. There are now a few States that are able, through 
their use of computer technology, to gather routine data 
measuring how they're doing.
    One example, of course, is their timeliness, where are they 
finding delays, where are they doing well, and moving their 
cases through the courts. There are some modest Federal funds 
just released under the Strength and Abuse Neglect Courts Act 
(SANCA), and we're excited about that because we think that can 
expand some of these initiatives. We hope that SANCA funding 
will continue and, indeed, grow.
    Another development is courts are increasing long-range 
planning. A new Federal program instruction is working on that.
    To sum up, CIP has done much to improve court performance. 
It's not going to solve all the problems, but we think it will 
help countless children achieve safety and permanency. Thank 
you.
    [The prepared statement of Mr. Hardin follows:]
  Statement of Mark Hardin, Director, National Child Welfare Resource 
  Center on Legal and Judicial Issues, and Director of Child Welfare, 
        Center on Children and the Law, American Bar Association
    Mr. Chairman, Members of the Subcommittee. Thank you for the 
opportunity to testify this afternoon.
    On behalf of Alfred P. Carlton, Jr., President of the American Bar 
Association (ABA), I am pleased to appear today before the Subcommittee 
and to submit this statement regarding the contribution of the Court 
Improvement Program to the success of the Adoption and Safe Families 
Act of 1997. The ABA continues its strong support of the Adoption and 
Safe Families Act (ASFA), which is helping to achieve higher levels of 
safety, permanency, and well being for foster children. The ABA also 
continues to support the Court Improvement Program (CIP), which is 
helping to achieve systemic improvement of our Nation's juvenile 
dependency court systems, so that all children who have been the 
victims of abuse and neglect can achieve safety and permanency and 
enjoy the stability and love of family.
    The ABA has for many years devoted considerable attention to 
improving court processes affecting children in foster care. In 1980, 
the ABA House of Delegates adopted a resolution in support of passage 
of the Federal Adoption Assistance and Child Welfare Act of 1980, P.L. 
96-272, 42 U.S.C. Sec. Sec. 620-629, 670-679. In 1988, the ABA House of 
Delegates further called for substantial amendments to that Act to 
strengthen the role of the legal system and ensure more consistent 
services for children. These amendments included creation of federal 
fiscal incentives to courts to reduce or limit delays in foster care 
litigation and improve court rules governing foster care cases. In 
February 1997, the ABA House approved a recommendation supporting 
federal legislation to remove barriers to adoption, which formed the 
basis for our support of ASFA.
    The ABA Center on Children and the Law has been actively involved 
with improving the handling of child abuse and neglect proceedings for 
many years, developing model statutes and court rules, providing 
technical assistance to states, and developing legal manuals for 
attorneys and judges. The Center has also provided extensive training 
throughout the United States to help courts and child welfare agencies 
comply with the mandates of the Adoption and Safe Families Act of 1997 
(ASFA).
    I am the Director of Child Welfare at the American Bar Association 
Center on Children and the Law and also Director of our federally 
supported National Child Welfare Resource Center on Legal and Judicial 
Issues. For over 25 years, I have specialized in legal issues 
concerning child abuse and neglect, foster care, and adoption. I have 
also testified before this Subcommittee a number of times during my 23 
years at the ABA.
    I testify today about how the CIP is helping state courts implement 
ASFA. As you know, the CIP provides grants to each of the highest state 
courts, specifically to improve their performance in child abuse, 
foster care, and adoption cases. During my testimony, I will discuss 
four points:

    <bullet> LFirst, the critical role of courts in achieving the goals 
of the federal Adoption and Safe Families Act of 1997 (ASFA).
    <bullet> LSecond, how the Court Improvement Program helps state 
courts implement ASFA.
    <bullet> LThird, continuing concerns facing the courts.
    <bullet> LFourth, promising new ways that the Court Improvement 
Program can help make ASFA more effective.

    1. Courts play a critical role in achieving the goals of ASFA.
    You are already aware, I'm sure, that courts play a central role in 
planning and decisionmaking for children in foster care. Courts make a 
whole series of pivotal decisions concerning each foster child. Among 
other things, courts decide whether a child will be placed in foster 
care, be returned home, and--when return home is not possible--whether 
a child will be placed in a permanent new home.
    Because they are charged with making these decisions, judges play a 
vital role in achieving the ASFA goals of child safety and permanency. 
Safety for an abused child may require a judge to authorize the child's 
placement in foster care. Permanency for a neglected child who can't 
safely return home may require a judge to free the child for adoption.
    When judges make errors or delay decisions, the results can be 
severe. A child can suffer injury or even death, a family can 
needlessly be broken up, and a child can languish for years in foster 
care instead of growing up in a new safe, permanent home.
    So, court performance is a key to achieving the goals of ASFA. And 
besides being essential to achieving ASFA's goals, courts must also 
implement the letter of ASFA. That is, important ASFA requirements 
specifically apply to courts. For example, ASFA requires courts to:

    <bullet> LDetermine whether agencies have made reasonable efforts 
to preserve families or to achieve new permanent homes for foster 
children;
    <bullet> LConduct timely and decisive permanency hearings, to 
assure timely permanent homes for children in foster care;
    <bullet> LHear termination of parental rights petitions; and
    <bullet> LDecide whether and when children are to be adopted, 
placed in legal guardianship, or in other permanent placement 
arrangements.

    2. The Court Improvement Program has had a major role in helping 
courts to implement ASFA. The Court Improvement Program has played a 
major role in ensuring that the courts implement ASFA. Nearly every CIP 
project has helped develop state legislation to implement ASFA 
requirements. Many have revised court rules and procedures to conform 
to ASFA. Still others have redesigned court forms to set forth 
decisions and findings that ASFA requires.
    Of course, it is not enough to change laws, procedures, and court 
forms. Practitioners have to understand and apply the intent of the 
law. Most CIP projects have made substantial efforts to accomplish 
this. For example, CIP projects have:

    <bullet> LProvided training for judges, attorneys, and other 
advocates, which focuses on the goals and requirements of ASFA;
    <bullet> LDeveloped benchbooks for judges to help judges implement 
ASFA; and
    <bullet> LDeveloped ASFA manuals and instructional materials for 
attorneys.

    Further, state CIP projects have helped courts make organizational 
changes to facilitate their implementation of ASFA. Many projects have 
helped courts tighten scheduling to ensure timely permanency hearings 
and timely termination of parental rights proceedings. CIP projects 
also have funded evaluations to measure how well courts are actually 
following legal deadlines, including ASFA deadlines, and how well they 
are achieving timely permanency for foster children.
    CIP projects have engaged in a wide range of other activities to 
help implement ASFA and achieve its goals. An article describing these 
activities, entitled Court Improvement for Child Abuse and Neglect 
Litigation: What Next? is attached to the ABA's written statement.

    3. Courts continue to face barriers in their implementation of 
ASFA.
    In spite of the efforts of CIP projects, many courts do continue to 
face barriers to full implementation of ASFA. While CIP is a remarkably 
successful federal program, particularly given its modest level of 
funding, most courts hearing child protection cases have not yet 
achieved the level of excellence that is possible.
    One of the most persistent and serious barriers to judicial 
excellence is excessive judicial workloads. Many judges still have too 
many child protection cases and not enough time to handle each of these 
complex and highly sensitive cases.
    Another serious problem is the persistence of judicial rotation and 
master calendars. Although CIP has helped decrease these practices in 
many states, there still are many courts where the same judge does not 
usually hear all stages of a child protection case. The results of this 
are additional court delays, less efficiency, judges' loss of important 
information about the children and families, and judges who have less 
authority and responsibility for their cases.
    Equally important is the continuing uneven quality of legal 
representation. This is vital, because attorneys, GALs and CASA 
volunteers largely control what information comes before judges in 
child protection cases. While CIP projects have helped improve 
advocacy, major improvements are needed in such areas as the hiring and 
appointment of counsel, attorney compensation and working conditions, 
and attorney oversight and evaluation.
    Still another barrier is how difficult it is for courts to know how 
well they are performing in child protection cases. It is difficult for 
judges and court administrators to get an accurate overall picture of 
how they are affecting the lives of children and families.
    Finally, few judges in sparsely populated rural areas are able to 
gain the needed knowledge concerning child protection litigation. Most 
such judges still hear a wide range of cases, making it difficult or 
impossible to become expert in the area of child protection.

    4. In spite of these difficulties, there are new ways that the 
Court Improvement Program is helping courts tackle these difficult 
barriers to achieving the goals of ASFA.
    While we must recognize the persistence of these formidable 
problems, there are promising developments related to each of them. 
Regarding judicial workloads, there have been advances in calculating 
the numbers of judges needed to handle child protection cases. The 
American Bar Association, the National Council of Juvenile and Family 
Court Judges, and the National Center for State Courts are working 
together to advance and disseminate these methods of assessing judicial 
workloads.
    With respect to master calendars and judicial rotation, there are 
nationally accepted standards opposing these practices in child 
protection cases. These practices have gradually declined, in large 
part due to the federal Court Improvement Program. But we need to 
remain focused on these issues.
    There is hope for major improvement in legal representation in 
child protection cases. Many states have adopted standards for attorney 
performance in these cases and many others are likely to do so soon. 
State courts have begun to improve their practices of appointing 
attorneys, in some cases developing contracts that set high 
expectations. A recent ABA book explains how child protection agencies 
can reorganize and improve their law offices. Important research has 
begun concerning attorney workloads.
    Promising new developments suggest that courts will become 
increasingly well informed concerning their own performance. A new 
federal Program Instruction directs CIP projects to reassess their 
performance, as they did after CIP was first enacted. In addition, 
states are beginning to gain the capacity, through the use of computer 
technology, to collect routine information regarding their performance, 
such as information concerning the timeliness of their hearings and 
decisions, the consistency of important procedural protections such as 
notice and appointment of counsel, and the safety of children after 
court proceedings begin.
    The American Bar Association, the National Council of Juvenile and 
Family Court Judges, and the National Center for State Courts have 
developed standard measures of court performance and are working 
together to help state CIP projects to put them into place. This work 
includes helping state and local courts use computer technology to 
measure their performance. Modest federal funding under the 
Strengthening Abuse and Neglect Courts Act will add momentum to this 
development.
    Reinforcing the courts' emerging ability to objectively assess 
their performance are new efforts at long-range judicial planning. The 
new federal Program Instruction calls upon CIP projects to engage in 
careful strategic planning for improvement, including long- and short-
range goals, tasks, and deadlines.
    The Program Instruction also calls upon courts to coordinate their 
self-improvement planning with state agencies, pursuant to federal 
Child and Family Services Reviews (CFSRs). CFSRs are comprehensive 
federal-state reviews of each state's overall child welfare system. 
Following each CFSR, there is a Final Report of the findings of the 
review, and each state drafts and negotiates a Program Improvement Plan 
(PIP) with the Federal government. Specifically, the Program 
Instruction calls upon CIPs to take into account in their strategic 
plans the court-related findings of the state's CFSR Final Report as 
well as the court-related portions of the state's PIP.
    Overall, CIP has done a great deal to increase judicial 
understanding of child protection litigation, to improve attorney 
performance, to make organizational improvements, and to secure 
additional state resources. With your support, it will continue to do 
so. While the Court Improvement Program will not solve all the problems 
in court performance for abused and neglected children and their 
families, it will continue to make a major difference in the lives of 
countless abused and neglected children and their families.
    We appreciate the opportunity to testify.
    Thank you very much.

                                 ______
                                 
                 COURT IMPROVEMENT FOR CHILD ABUSE AND
             NEGLECT LITIGATION: WHAT NEXT? <SUP>[i]</SUP>
                            By Mark Hardin *
Director, National Child Welfare Resource Center on Legal and Judicial 
                                 Issues
               --A Service of the U.S. Children's Bureau
    The following is a draft version of an article that will appear in 
forthcoming issues of ABA Child Law Practice, http://www.abanet.org/
child/15-12toc.html, and ABA Child CourtWorks, http://www.abanet.org/
child/courtworks.html, both published by the ABA Center on Children and 
the Law.
---------------------------------------------------------------------------
    * Mark Hardin is the Director of the National Child Welfare 
Resource Center on Legal and Judicial Issues at the ABA Center on 
Children and the Law. The Resource Center is funded by the U.S. 
Children's Bureau. Views expressed in this article have not been 
endorsed by the ABA Board of Governors or House of Delegates and 
therefore do not necessarily reflect official policies of the American 
Bar Association. In addition, they do not represent the views of the 
U.S. Department of Health and Human Services, Children's Bureau.
    \[i]\ Information for this article is based on a variety of 
sources. First, during the early years of the CIP, when state courts 
were conducting their self-assessments, the National Child Welfare 
Resource Center for Legal and Judicial Issues prepared a compendium and 
analysis of self-assessment findings. (The Resource Center is an 
activity of the ABA Center on Children and the Law and is funded by the 
U.S. Children's Bureau.) Second, for the last five years, the Resource 
Center has interviewed all state CIP directors and has prepared a 
report on the progress of every state CIP program. Third, we 
systematically collect and disseminate materials developed by CIP 
projects. Fourth, staff of the Resource Center, including the author, 
provides training and consultation to state courts throughout the 
United States. In the course of our training and consultation, we are 
able to observe a wide range of CIP efforts.
---------------------------------------------------------------------------
INTRODUCTION
    The Court Improvement Program (CIP) is a federal grant program 
designed to improve the quality of court proceedings in child abuse and 
neglect cases. Over eight years have passed since CIP was enacted in 
1993.<SUP>[ii]</SUP>
---------------------------------------------------------------------------
    \[ii]\ Public Law 103-66, Omnibus Budget Reconciliation Act 
Sec. Sec. 13711-13712.
---------------------------------------------------------------------------
    State CIP projects have worked to improve child abuse and neglect 
litigation since the mid 1990s and some have made stunning progress. 
This article discusses CIP accomplishments, describes continuing 
barriers to court improvement, and recommends future directions for the 
program.
    CIP projects can help practitioners achieve excellence in various 
ways. For example, they can reduce delays; improve practitioners' 
skills and knowledge; and improve workloads, thus allowing 
practitioners to better prepare for hearings making possible more 
thorough hearings. Ultimately, court improvement projects strengthen 
court decisions in child protection cases, thereby improving the lives 
of abused and neglected children.
    This article will provide a national overview of child protection 
court improvement projects, describe what such projects are doing 
throughout the country and suggest future directions. In describing CIP 
accomplishments and new directions, this article provides examples of 
CIP activities throughout the United States. Because of space 
limitations, however, only a few examples are presented. For a more 
comprehensive description of CIP activities, see D. Rauber, Court 
Improvement Progress Report 2002 (ABA).


----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Sidebar #1
                                                   CIP Basics
                                                                                                     Funding
 
                                           <bullet> State CIP projects are funded by Federal grants to state
                                     courts, supplemented by state funds. Federal authorization for CIP funds
                                       appears in Title IV-B of the Social Security Act. 42 U.S.C. Sec. Sec.
                                                                                                  629f-629h.
                                           <bullet> Federal funding goes to the highest court of each state,
                                                    which administers the CIP funds and directs the project.
                                        <bullet> All 50 States plus the District of Columbia and Puerto Rico
                                                                                 receive federal CIP grants.
                                        <bullet> The amount of the grants is based on a $85,000 minimum plus
                                     additional funds based on the total number of children in the state. In
                                            FY 2002, grants ranged from approximately $99,000 for Wyoming to
                                                                                  $1,071,000 for California.
                                         <bullet> In 2002, Congress reauthorized CIP for another five years.
 
                                                                                                Use of Funds
 
                                        <bullet> Each state has wide discretion in how to use CIP funds. The
                                     state must use the funds to improve litigation for abused and neglected
                                                                                                   children.
                                             <bullet> Each state must have a strategic plan for improvement,
                                     including a comprehensive new self-assessment of courts' performance in
                                                                              child abuse and neglect cases.
----------------------------------------------------------------------------------------------------------------


    Key dimensions of CIP efforts include improving timeliness of 
judicial decisions in abuse and neglect cases, enhancing judicial 
expertise, improving legal representation quality, refining the 
judicial process, and upgrading judicial administration. For each 
topic, this article examines what CIP has achieved in the eight years 
since its enactment and suggests new directions for court improvement.
    ``Achievements'' mean positive changes that have taken root in many 
courts and appear to have momentum. ``New directions'' mean changes 
that show great promise but are challenging or have not yet gained 
widespread momentum.
TIMING OF DECISION MAKING
    Reducing judicial delay was a key goal of the original CIP 
legislation.<SUP>[iii]</SUP> Reducing judicial delay supports an 
overall goal of federal foster care legislation and accomplishes two 
important purposes in child abuse and neglect cases: (1) abused and 
neglected children are more quickly placed in permanent homes rather 
than spending large parts of their childhood in unplanned foster care; 
(2) children are spared painful, frightening uncertainties about their 
future. That is, while a court hearing and decision is pending, an 
abused and neglected child may fear the judge's decision. The delay--
although reasonable or necessary to the attorneys and judge--can be 
highly stressful and seemingly endless to the child.
---------------------------------------------------------------------------
    \[iii]\ House Conf. Rep. No. 103-213, U.S. Code Cong. and Ad. News 
1993, 103rd Cong., 1st Sess., Vol. 3, 1530-1533.
---------------------------------------------------------------------------
                Current CIP Achievements and Activities
    Timelines. Nearly every state CIP project has tightened state 
deadlines for child abuse and neglect litigation. Many of these efforts 
have focused on implementing the Adoption and Safe Families Act of 1997 
(ASFA), which created tighter deadlines for permanency hearings and set 
a deadline for filing termination of parental rights petitions. Many 
CIP projects have led efforts to set deadlines that are stricter than 
those required by ASFA.
    Further, some CIP projects have focused on imposing or shortening 
deadlines not explicitly required by ASFA. For example, North Dakota 
has adopted stricter deadlines for adjudication hearings. Others, such 
as Oregon and Texas, have enacted laws limiting the duration of efforts 
to reunify children once removed from home.
    Continuances. A number of states have tightened criteria and 
procedures for continuances. For example, a West Virginia court rule 
bars judges from granting continuances except for compelling reasons, 
and Oregon law requires special findings when judges grant 
continuances. Other states have discouraged the use of continuances 
through training (e.g., Washington) and other states have done so 
through educational materials such as benchbooks.
    Caseflow management. States are also increasingly applying caseflow 
management principles to child protection cases. For example, a number 
of projects (e.g., Connecticut, Maine, Georgia, Indiana, Massachusetts, 
North Carolina, Rhode Island, and Washington) conduct case management 
conferences before the court hearing to decide whether to grant a 
temporary custody order. Many local courts have implemented pretrial 
hearings to speed adjudication and termination of parental rights 
proceedings.
    Judicial compliance. States are increasingly recognizing the need 
to measure judicial compliance with deadlines. Utah and Michigan 
enacted laws requiring courts to measure their adherence to deadlines 
in child abuse and neglect cases. Several jurisdictions, such as 
Arizona, Colorado, Oregon, and Utah, have made impressive documented 
improvements in the timeliness of the judicial process.
    Appellate process. A number of state appellate courts are working 
to reduce delays in appeals. These include Alaska, Arkansas, Idaho, 
Louisiana, Minnesota, Missouri, Ohio, Oklahoma, Rhode Island, South 
Dakota, Utah, and Wisconsin.
    California and Iowa have sharply reduced the time of appeals, with 
appeals now typically taking about 3\1/2\ months from the trial court 
order to the appellate decision. To accomplish this, both states 
thoroughly redesigned their appellate process for child protection 
cases.
                  New Directions to Improve Timeliness
    Automation. A few states are using automated systems to measure 
judicial timeliness. Arizona is setting up a computerized system to 
measure timeliness and expects to issue the first reports during 2003. 
Colorado, Maryland, and Oregon, among others, also have automated 
systems that generate data on timeliness. Nationwide, however, progress 
in implementing such measurement is difficult and slow.
    Using computers to project future hearing deadlines and inform 
parties of deadlines is another way courts are avoiding delays. For 
example, during early hearings, parties are informed when the 
permanency hearing is due and when, if the family reunification plan 
does not succeed, the agency will be expected to file a petition for 
termination of parental rights. Washington state CIP pilot projects 
have used computers for such purposes.
    Cooperative Delay Reduction Projects. Another promising development 
is cooperative delay reduction projects in which state child protection 
agencies work with courts, attorneys, and other agencies to identify 
and correct delays. Such projects have been successful in New York and 
New Jersey, for example, and some states may initiate them through 
state Child and Family Service Review (CFSR) Program Improvement Plans 
(PIPs). Oregon, for example, has included such projects in its PIP.
    Comprehensive Deadlines. A logical development in establishing 
deadlines is to make them complete and systematic for dependency cases. 
This means (a) establishing deadlines that govern every step of the 
judicial process, ensuring that there will always be a deadline for the 
next hearing and (b) setting deadlines for completing as well as 
initiating hearings. Michigan has gone far in establishing such 
comprehensive deadlines, setting statutory deadlines for initiating and 
completing all major stages of the court process in child protection 
cases.
JUDICIAL EXPERTISE
    Child protection cases are complex and share several unique 
characteristics:

    (1) Unique legal hearings--typically including shelter care, 
adjudication, disposition, review, permanency, termination of parental 
rights, post-termination review, post-termination permanency, and 
adoption. Each hearing has a distinct purpose and differs procedurally. 
It takes time, effort, and experience for judges to understand how each 
hearing should work to achieve positive results for abused and 
neglected children.
    (2) Serious, complex family problems--A rough analogy might be that 
child protection cases are to family law as homicide is to criminal 
law. Abusive and neglectful parents typically have severe dysfunctions 
and abused and neglected children typically have acute special needs. 
It is challenging for agencies, mental health experts, and courts to 
know whether to try to preserve a family with such dysfunctions and 
special needs. It takes time and effort for judges to learn how to hear 
and resolve these issues and to know how such issues should affect 
decisionmaking at each stage of the process.
    (3) Large bureaucracies--Not only is the state of local public 
child protection agency intensively involved, but also other government 
agencies such as law enforcement, substance abuse treatment, and mental 
health. Judges have to learn how these bureaucracies function in these 
cases, to be able to perform their child protection oversight role 
assigned by Congress and the state legislature.
    A key purpose of CIP is to better prepare judges to cope with these 
complexities. CIP programs in every state have focused on improving 
judges' understanding of these difficult cases.
                  Current Achievements and Activities
    Growing awareness and appreciation. A striking achievement of CIP 
is a growing judicial understanding of the challenges of child 
protection litigation. In courts throughout the United States, child 
protection cases are no longer the invisible area of litigation that 
they were when CIP was first enacted.
    Educational opportunities. Because of CIP, a wide range of 
educational materials on child protection cases is available. There are 
now benchbooks on child protection law in at least 16 states (e.g., 
Arkansas, Hawaii, Idaho, Iowa, West Virginia, and Wyoming) and several 
states produce specialized newsletters (e.g., California, the District 
of Columbia, Georgia, Maryland, Nebraska, New Mexico, Tennessee, and 
Wyoming) and reports on child protection laws.
    Because of CIP, judges also receive more frequent and consistent 
training on child protection issues. Nearly every state CIP program is 
providing more judicial training, and state courts are including more 
child protection presentations in their judicial education programs 
than before CIP.
    Overall, although increases in judicial expertise are incremental 
in child protection cases and vary by state and locality, such 
increases are impressive given the relatively few years since CIP's 
enactment.
                             New Directions
    Systematic training. To help judges gain expertise, courts need to 
develop more systematic training. Judicial training programs should 
ensure all new and experienced judges receive essential information 
about child protection litigation. State judicial educators can play a 
role by identifying basic information judges need in child protection 
cases and by developing a system to give them this information. At the 
same time, judicial educators can provide more in-depth information for 
judges who sit exclusively in family or juvenile court.
    Specialized judges. Given the complexity of child protection cases, 
it is desirable to have specialized and highly trained judges to hear 
them. Several states are developing statewide family courts. In Texas 
rural areas, most child protection cases are now heard in ``cluster 
courts,'' by judges who specialize in child protection cases. There is 
not yet a clear national trend toward specialized judges hearing child 
protection cases, however.
    Specialized dockets. A number of courts (e.g., in Montana, Nevada, 
and San Diego) are experimenting with sub-specialized ``problem solving 
court'' dockets such as ``family [child protection] drug courts'' and 
``mental health courts.'' In drug court experiments, a judge sets aside 
a period of time to hear child abuse or neglect cases involving parents 
whose substance abuse led them to abuse or neglect their children. 
Careful evaluation of these and other specialized courts are needed to 
determine their effectiveness.
LEGAL REPRESENTATION
    Advocates largely control the flow of information to the court. 
Advocates present testimony, frame issues, and present arguments to the 
court. Without diligent, skilled attorneys, the court misses vital 
facts and does not consider important legal and factual arguments. In 
short, it is very difficult for judges to make sound, timely decisions 
without competent attorneys.
    Attorneys need knowledge, motivation, and time to present the cases 
properly. Because family problems are generally tangled and complex, 
the attorney, like the judge, needs to understand the basic language 
and concepts used by social workers and mental health professionals. 
The attorney must spend time investigating cases and arrange expert 
testimony when needed.
    Unfortunately, many judicial self-assessments conducted in the late 
1990s demonstrated significant deficiencies in the quality of legal 
representation in child protection cases. Some assessments reported 
that attorneys were frequently unprepared, took too little time to 
present their cases, and were replaced by other attorneys while cases 
were pending.<SUP>[iv]</SUP>
---------------------------------------------------------------------------
    \[iv]\ M. Hardin, D. Boyd Rauber, and R. Lancour, Volume 1, 
Representing Clients, State Court Assessments 1995-1998 Dependency 
Proceedings 33-39 (ABA 1999).
---------------------------------------------------------------------------
                  Current Achievements and Activities
    Training and mentoring. State courts are expanding their training 
and mentoring for attorneys handling child protection cases. Nearly 
every state CIP provides training for attorneys. The number of 
attorneys interested and committed to child protection cases is also 
rising. CIP activities, by increasing the visibility of dependency 
practice, are contributing to this trend.
    Many courts mandate training for court appointed attorneys. For 
example, many attorneys must participate in training to remain eligible 
for paid court appointments to represent parents and children. In some 
courts, such as in Massachusetts, San Francisco, and West Virginia, 
attorneys must assist a more experienced attorney in child protection 
cases before becoming eligible for such appointments.
    Children's attorney standards. A number of states' CIP projects 
have developed standards for children's attorneys in child protection 
cases and this trend continues. Among these states are Arizona, 
Arkansas, California, Delaware, Florida, Georgia, Iowa, Kentucky, 
Louisiana, Maine, Maryland, Ohio, Oregon, Tennessee, Virginia, 
Washington, West Virginia, Wisconsin, and the District of Columbia. The 
standards for children's attorneys specifically describe good practice 
in child protection cases.
    Representation of all parties. Other projects have worked to make 
sure parties are represented at all stages of the court process. Some 
states, such as Florida, have taken steps to ensure that agency 
caseworkers do not have to represent themselves in important court 
hearings and others, such as Connecticut, ensure that indigent parents 
and children are represented at the critical initial emergency removal 
(``shelter care'') hearing.
                             New Directions
    Parent and agency attorney standards. A few states are developing 
standards for parents' and government attorneys in child protection 
cases. For example, Oregon has standards for parents' attorneys, 
Georgia has developed guidelines for government attorneys, and the 
District of Columbia recently adopted standards for attorneys 
representing parents, children, and agencies. California law requires 
counties to develop standards.
    Contracts. Another important development in improving the quality 
of legal representation is to more purposefully use contracts for such 
representation. Most states and counties that contract for attorneys to 
represent parents, children, or child protection agencies specify only 
that they are to provide legal representation.
    Contracts for legal representation can go farther. They can specify 
minimum requirements for attorneys in representing their clients, as in 
Arkansas and Maryland as well as in Santa Clara and San Diego Counties, 
California. They can provide for judicial or peer oversight of attorney 
performance, as in San Francisco. They can also require attorneys for 
children and parents to meet with their clients before the day a case 
comes to court, and can specify minimum requirements for case 
preparation.<SUP>[v]</SUP>
---------------------------------------------------------------------------
    \[v]\ See Sanders, Using Contracts to Improve Representation of 
Parents and Children, 5 Child CourtWorks, Issue 6 (ABA, November 2002).
---------------------------------------------------------------------------
    Law office management. Law offices for attorneys handling child 
protection cases can do much to improve legal representation. Better 
recruiting and hiring practices, stronger supervision and support, more 
methodical performance evaluation for attorneys, career tracks in child 
protection, and better pay and working conditions can make a great 
difference.<SUP>[vi]</SUP>
---------------------------------------------------------------------------
    \[vi]\ See generally, M. Laver, Foundations for Success: 
Strengthening Your Agency Attorney Office (ABA 1999).
---------------------------------------------------------------------------
    Attorney ethics. Ethical guidance to attorneys can help clarify the 
outer limits of professional behavior in child protection cases. This 
includes ethics training and materials and bar association enforcement 
activities in extreme cases. If an attorney fails to take minimal steps 
to competently represent a child, parent, or agency, there should be 
practical consequences for such failure.
    Compensation. It is difficult to expect full and competent 
representation by attorneys when compensation is grossly inadequate. 
There is great unevenness in attorney compensation in the United 
States, with some jurisdictions paying enough to attract and retain 
competent attorneys.
IMPROVED JUDICIAL PROCEDURES IN CHILD PROTECTION CASES
    Over the last 25 years, the role of courts in child protection 
cases has changed dramatically. Court procedures have not always kept 
up with this new role, however. While Congress and state legislatures 
have directed courts to ensure timely permanent homes for abused and 
neglected children, most states have not developed procedures for 
judicial ``permanency'' hearings to help ensure a thorough and decisive 
process.<SUP>[vii]</SUP> Likewise, while courts are directed to review 
case progress, many states have failed to organize review hearings to 
effectively provide such oversight. While courts have increasingly 
become involved in decisions affecting the rights of parents and 
children, procedural protections have remained underdeveloped.
---------------------------------------------------------------------------
    \[vii]\ See, e.g., M. Hardin, Improving Permanency Hearings: Sample 
Court Reports and Orders (ABA 1999, 2002).
---------------------------------------------------------------------------
    In addition, in many courts, dependency cases still lack essential 
procedural protections for the parties. For example, parties--most 
notably noncustodial and putative fathers--do not consistently receive 
notice of the proceedings or have an opportunity to participate.
                  Current Achievements and Activities
    National Standards. A major achievement of CIP is that there are 
now widely accepted, comprehensive national standards for child 
protection litigation, i.e., the Resource Guidelines: Improving Court 
Practice in Child Abuse and Neglect Cases (NCJFCJ 1995). CIP has played 
a major role in advancing national acceptance of the Resource 
Guidelines.
    The Resource Guidelines describe how to conduct hearings; outline 
characteristics of the judicial process that transcend specific hearing 
types; and address a wide range of important procedural issues, such as 
notice, who should be present, advice of rights, key judicial findings, 
and issues to address at different hearings.
    State CIP projects have supported a variety of activities to 
implement the Resource Guidelines, such as incorporating key parts of 
the Guidelines into benchbooks and procedural guides, and adapting 
judicial checklists from the Guidelines. Notably, New Hampshire has 
combined into a comprehensive manual of protocols, the Resource 
Guidelines, ABA Sample Court Rules for Abuse and Neglect Cases, and 
ASFA requirements. Missouri's pilot courts were specifically designed 
to implement the Resource Guidelines. Minnesota and Missouri have 
developed checklists for judges, patterned in part after the Resource 
Guidelines.
    Laws and court rules. Most state court systems have improved laws 
or developed new court rules to improve the quality and sophistication 
of judicial procedure. Examples include:

    <bullet> LEarlier and more complete hearings following children's 
removal from home as recommended by the Resource Guidelines (Arizona 
and Philadelphia).
    <bullet> LNotice to noncustodial parents and putative fathers when 
children are placed in foster care (Massachusetts, Idaho, and 
Michigan).
    <bullet> LTimely steps to resolve paternity when a child enters 
state foster care (New Jersey).
    <bullet> LMore complete and accurate judicial findings following 
hearings. This creates a clearer record upon which to make decisions 
later in the judicial process.
    <bullet> LJudicial forms designed to reinforce good practice in 
child protection cases. Such forms remind agencies, attorneys, and 
judges to address key issues in different types of hearings, and 
encourage judges to make a record of their key findings and decisions.

    Finally, many state CIP projects are experimenting with mediation 
and increased involvement of extended families in case decisions 
(family group conferences). In some courts, as in Hawaii and Santa 
Clara, California, these experiments are being carefully evaluated, 
using such social science principles as the random case assignment and 
statistical evaluation of case results.
                      New Directions in Improving
                          Judicial Procedures
    Courts are beginning to develop and use electronic court forms, 
which both reinforce good practice and allow flexibility for individual 
case differences. Such forms also make it easier to prepare court 
orders rapidly and to distribute them while the parties remain in the 
courthouse after a hearing. For example, West Virginia has developed 
and piloted software for this purpose and the court in San Antonio, 
Texas has used electronic court forms for this purpose.
    In the future, electronic court forms should include templates 
allowing electronic filing of documents in child protection cases and 
avoiding the need to retype information already known to the court.
    On-line bench books eventually should complement electronic forms. 
Such bench books will include automated reminders of deadlines and of 
the issues to address at each hearing.
IMPROVED JUDICIAL ADMINISTRATION
    The role of courts in child protection cases in recent years is 
expanding. Courts must review and monitor the progress of child 
protection cases and make timely decisions in child protection cases. 
In addition, because courts interact constantly with child welfare 
agencies and with other key governmental and private agencies, court 
staff must meet with them to work out efficient processes for such 
things as scheduling hearings, subpoenaing witnesses, and receiving and 
reviewing court reports.
    Changes in judicial administration are needed to enable courts to 
fulfill these new responsibilities. Accomplishing these tasks requires 
new administrative duties and job descriptions for court staff, as well 
as new administrative responsibilities for judges.
                  Current Achievements and Activities
    Coordination with agencies. Many courts are expanding their 
coordination with child protection agencies and other entities in 
addressing mutual logistical and administrative issues. California's 
judicial standards explicitly call for this type of cooperation.
    Some courts have encouraged agencies to locate critical services at 
or near the court. For example, in Louisville, Kentucky, drug testing 
and child support referrals are available before parents leave the 
courthouse.
    Assessments. Another critical development is that more courts are 
evaluating their performance in child protection cases, starting with 
the judicial self-assessments in the late 1990s. These self-assessments 
may cover a range of performance areas, including timeliness, legal 
representation, judicial expertise, procedural fairness, and 
considerate treatment of persons appearing before the court.
    Recent self-evaluation has occurred, for example, in Utah 
(statewide), Kansas (statewide), Missouri (pilot courts), Virginia 
(statewide), and Colorado (pilot family courts). A number of other 
state courts have worked with the state agencies in examining specific 
cases to prepare for the state's Child and Family Services Review 
(CFRS). See sidebar.
    A recent Federal Program Instruction requires all state CIP 
projects to comprehensively reassess their progress in improving court 
performance in child protection cases since the earlier self-
assessments in the late 1990s.<SUP>[viii]</SUP>
---------------------------------------------------------------------------
    \[viii]\ U.S. Department of Health and Human Services, 
Administration on Children, Youth and Families, Program Instruction 
ACYF-CB-PI-03-04 (March 28, 2003).
---------------------------------------------------------------------------
    Improved information for parties. Many courts have taken concrete 
steps to make sure parties better understand the court process. For 
example, Illinois and Iowa have produced brief materials explaining the 
court process to parents in English and Spanish. California, Maine, New 
Mexico, and Tennessee, among others, have produced materials for 
children. Vermont, Georgia, Tennessee, Minnesota, Mississippi, and 
Montana have produced videotapes explaining the court process.
               New Directions in Judicial Administration
    Quality assurance. Quality assurance--regular and periodic 
evaluation of court proceedings--is essential for courts that want to 
consolidate and continue their improvement process.
    In Arizona, the state CIP project is going beyond occasional self-
assessment to establish quality assurance. A team of individuals from 
the Administrative Office of the Courts regularly travels to various 
courts to review compliance with rules, timelines, and statutes. Other 
states, such as Virginia, use a combination of statistics on court 
performance and teams to help local courts interpret the numbers, 
evaluate their practices, and identify needed improvements.
    Improved workload analysis. Courts have increasingly recognized the 
need for improved workload analysis--to determine how many judges, how 
many attorneys, and the numbers and types of court staff needed to 
fulfill national standards and to improve performance. Procedures, 
calculations, and standards are needed to objectively determine 
workload needs, taking into consideration both in-court and out-of-
court time. Without objective and defensible standards for determining 
workload needs, it will be hard for courts to achieve excellence as 
described in the Resource Guidelines.
    Long-range vision for the courts. Courts need a clear picture 
(``vision'') concerning the long-term objectives and directions of 
court improvement. Because raising the court process to the level 
described in the Resource Guidelines is hard, there is a risk that such 
vision will fade. Courts can compromise their vision of the future by 
concluding desirable changes are not really ``needed,'' impractical, or 
politically too difficult to achieve.
    Minnesota courts are developing and implementing their vision of 
court improvement through their Children's Justice Initiative. The 
Chief Justice has joined with the Commissioner of the Department of 
Human Services to set new goals in child welfare. To help accomplish 
this, the Chief Justice has designated a lead judge in 28 counties, and 
in turn, each lead judge has developed a multidisciplinary team to 
identify needs and improvements. The Children's Justice Initiative will 
be phased into all counties by 2005.
    One key to establishing a vision for the courts is making explicit 
long-term plans for change and closely linking CIP efforts to these 
plans. In Minnesota, each county ``Action Plan,'' must follow a state 
template, which includes expectations regarding many practices set 
forth in the Resource Guidelines. Part of this planning also includes 
the uniform collection of data for each county, to be used in planning 
and evaluation.
    Such long-range planning stands in sharp contrast to the practice 
of simply using CIP funds to pay for discrete small projects that are 
not designed to grapple with fundamental flaws in the court process. 
For example, instead of establishing small local ``add on'' projects 
that do not challenge current weaknesses in the court process, a state 
CIP should focus on its highest priorities.
    The recent Federal Program Instruction requires all CIP projects to 
engage in comprehensive strategic planning.


----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Sidebar #2
                                   Involvement of State CIP Projects in Child
                                       and Family Services Reviews (CFSRS)
 
                                        <bullet> Child and Family Services Reviews (CFSRs) are comprehensive
                                                      federal reviews of state performance in child welfare.
                                                             <bullet> CFSRs are important to courts because:
 
                                           CFSRs measure the performance of the State as a whole, including
                                                                   the courts and executive branch agencies.
                                           CFSRs play a central role in federal and state efforts to reform
                                       state child abuse and neglect interventions and therefore will have a
                                                   substantial impact on child abuse and neglect litigation.
                                               In the 2002 reauthorization of CIP, Congress called upon the
                                         courts to participate in Program Improvement Plans (PIPs) developed
                                                   through the state CFSR, as the courts ``deem necessary.''
                                            A recent Federal Program Instruction outlines how courts should
                                                       consider CFSR findings in developing strategic plans.
----------------------------------------------------------------------------------------------------------------
For more information about the role of courts in CFSRs see Hardin, Child and Family Services Reviews (CFSRs):
  How Judges, Court Administrators, and Attorneys Should Be Involved (ABA 2002), online at http://www.abanet.org/
  child/rclji/cfsr1.pdf; reprinted in 5 Child CourtWorks, Issues 2, 3, and 4 (ABA, March, April, May 2002).
  Contact Yvonne Brunot, American Bar Association, 740 15th Street, NW, Washington, DC 20005; telephone 202/662-
  1746; fax 202/662-1755; e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c6d6d1cacbd0dde4d7d0c5c2c28ac5c6c5cac1d08acbd6c38a">[email&#160;protected]</a>


    Another key part of long-range CIP planning is participation in 
Federal-State Child and Family Services Reviews (CFSRs), which are 
comprehensive reviews of overall state performance in child welfare. 
CFSRs, which began in the last several years, are important to CIP for 
several reasons: (a) CFSRs measure the performance of the state as a 
whole, including the courts as well as executive branch agencies; (b) 
CFSRs will play a central role in reforming state child abuse and 
neglect interventions therefore will have an important influence on 
child abuse and neglect litigation; and (c) CIP legislation requires 
the courts to participate in Program Improvement Plans (PIPs) developed 
through the state CFSR. A number of CIP projects, such as Arkansas and 
Oregon, have played a significant role in their state's CFSR.
    The recent Federal Program Instruction requires CIP projects to 
take CFSR findings into account in developing their own strategic 
plans. The Program Instruction also directs CIP projects to work toward 
CFSR outcomes related to children's safety, permanency, and well being. 
Finally, the Program Instruction directs CIP projects to include in 
their own planning, court-related portions of the state's PIP.
    When the economy inevitably improves, it will become possible in 
many states to secure resources for improving child protection 
litigation without taking away resources for other court proceedings. 
Achieving this will require both a strong vision for change and strong 
support from both inside and outside the judicial system. This, in 
turn, requires maintaining and strengthening partnerships with the 
child protection agency and the community.
    Improved technology. Courts can use new technology to redesign 
internal processes. This may include routinely developing data for 
performance measurement as discussed above and using computers to 
schedule and prepare court calendars, track cases, electronically file 
and transmit orders, and exchange data with other entities. To use 
automation more effectively, state CIP projects need to hire experts in 
the court process to determine the courts' technology needs in child 
protection cases. Such experts need not be experts in technology, but 
must be given time to identify the court's technology needs, learn 
basics about technology, and work closely with the court's information 
technology experts.
    Cost effectiveness. Since CIP was enacted in 1993, very little has 
been done to focus on the cost effectiveness of various court reforms. 
Documenting cost effectiveness is a useful way to improve efficiency 
and argue for needed court funding. Areas that should be studied 
include:

    <bullet> LEfficient use of court staff.
    <bullet> LHow the organization of dockets affects the time and 
costs of attorneys and child protection agency staff.
    <bullet> LCost savings of alternative dispute resolution in child 
protection cases.
    <bullet> LCosts savings for agencies resulting from court reforms 
that speed termination of parental rights and adoption.


----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Sidebar #3
                               More Information About Court Improvement Activities
                                     While this article describes many impressive examples of state and local
                                         CIP activities, there are far more examples then there was space to
                                      mention. The following sources provide further information about state
                                     and local CIP activities, as well as materials produced by CIP projects:
 
                                       <bullet> Child CourtWorks. The National Child Welfare Resource Center
                                                                                                         on Legal and Judicial Issues (Resource Center) produces this free
                                             newsletter, which describes important new developments in court
                                                                         improvement. To subscribe, contact Lisa Waxler, 202/662-1743; fax 202/
                                                                 662-1755; e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f180e17030a1d032f1c1b0e0909410e0d0e010a1b41001d0841">[email&#160;protected]</a>
                                        <bullet> Annual Court Improvement Progress Reports--an annual report
                                       summarizing state and national CIP activities over the previous year.
                                          Past reports are available in hard copy and future reports will be
                                                                   available both online and in hard copies.
                                        <bullet> Court Improvement Catalog. The Resource Center collects and
                                       summarizes materials produced by CIP projects that are of interest to
                                     other states. Summaries of these materials are available online, both by
                                        state and subject matter, at http://www.abanet.org/child/cipcatalog/
                                       home.html. For many of the summarized materials, the catalog provides
                                           direct links, enabling the user to download them. For others, the
                                                            catalog provides directions for ordering copies.
                                         <bullet> Court Improvement Website. The Resource Center maintains a
                                         Web page at http://www.abanet.org/child/rclji/home.html with online
                                     articles, federal laws and regulations, publications lists and ordering
                                     information, links, descriptions of services available from the Resource
                                         Center, and other information. There is a special Web page on court
                                      improvement, which has many online court improvement articles. Its Web
                                                       address is http://www.abanet.org/child/courtimp.html.
                                                                                       <bullet> Child-court Listserve Group. The Resource Center operates a
                                          large national listserv group named child-court, which exclusively
                                         discusses court improvement for child abuse and neglect litigation.
                                     While membership in this group is open, all messages are prescreened, so
                                             that only messages with substantive information regarding court
                                       improvement are sent to the group. To join child-court on line, go to
                                      http://www.abanet.org/child/discussion.html or e-mail Yvonne Brunot at
                                                                   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="066474736869727f4675726760602867646768637228697461">[email&#160;protected]</a> and ask to join.
                                                                                        <bullet> Child-case Listserve Group. The Resource Center also operates
                                      a national listserv group named child-case, which, unlike child-court,
                                     discusses individual case situations and technical legal issues related
                                     to child abuse and neglect litigation. Membership in this group is open
                                     only to attorneys and judges. To join child-court on line, go to http://
                                             www.abanet.org/child/discussion.html or e-mail Yvonne Brunot at
                                                                   <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6f7f78636279744d7e796c6b6b236c6f6c63687923627f6a">[email&#160;protected]</a> and ask to join.
                                       <bullet> United States Children's Bureau. The United States Children's
                                            Bureau, which is part of the U.S. Department of Health and Human
                                        Services, administers CIP. Among other things, the Web site includes
                                     information about CIP and CFSRs and the text of Federal regulations and
                                         written policies. The Children's Bureau Web site address is http://
                                                            www.acf.dhhs.gov/programs/cb/programs/index.htm.
----------------------------------------------------------------------------------------------------------------

CONCLUSION
                          What is Excellence?
    Excellence in child protection cases is no mystery. Here are some 
obvious features:

    1. Timeliness--courts promptly schedule hearings, complete them 
without delay, and make timely ultimate decisions in each case.
    2. Skilled and knowledgeable practitioners--imagine a patent 
tribunal where judges and attorneys knew little or nothing about patent 
law and basic engineering principles.
    3. Thoroughness--parties have the full opportunity to present their 
views, the court touches on all key issues, and the judge effectively 
communicates his or her decisions to the parties.
    4. Procedural fairness--all parties receive timely notice, all have 
competent representation, and courts apply fair rules of evidence.
    5. Fair treatment of parties--all receive courteous treatment, 
hearings occur when scheduled, parties receive understandable 
information about the court process, communication in court is clear, 
and there are decent facilities for courtrooms and waiting rooms.

    Many courts have progressed in these areas through CIP efforts, yet 
there is still much to do. In fact, courts such as those in Cincinnati 
and Grand Rapids, Michigan have demonstrated excellence in many ways. 
Achieving state and national excellence will require close attention to 
infrastructure issues, sufficient resources, and strong support from 
within and outside the court system.
An Overview Of Judicial Advances to Achieve Excellence
    The following is a short list of key judicial advances to achieve 
excellence in child protection litigation:

    <bullet> LQuality assurance through periodic automated and 
qualitative performance measurement.
    <bullet> LDemonstration programs that receive enough funds to show 
results and be scientifically evaluated.
    <bullet> LWorkable workload calculations and standards for judges 
and attorneys.
    <bullet> LJob and task descriptions for court staff accompanied by 
workload standards and calculations.
    <bullet> LLong-range planning to achieve excellence.
    <bullet> LSystematic approaches to achieve excellence in legal 
representation.
    <bullet> LImproved cost-effectiveness analysis of court 
improvement.
    <bullet> LIncreased specialization and stability of judges, who are 
selected in large part based on their skills and knowledge related to 
child protection litigation.

    Every one of these reforms is practical. Abused and neglected 
children deserve all of them and more.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Hardin. Our final 
witness is Jennifer Miller, Senior Associate, Cornerstone 
Consulting Group, Houston, Texas. Ms. Miller.

  STATEMENT OF JENNIFER MILLER, CORNERSTONE CONSULTING GROUP, 
                         HOUSTON, TEXAS

    Ms. MILLER. Thank you, Mr. Chairman, and Members of the 
Subcommittee. We welcome this opportunity to testify on the 
Adoption Incentive Program and to share findings from ``A 
Carrot Among the Sticks,'' a survey that we conducted in 2001. 
This afternoon I will summarize the results of our survey and 
conclude with some recommendations about future incentive 
programs.
    In 2000, Cornerstone Consulting Group received funding from 
the David and Lucille Packard Foundation to study States' 
experiences with the adoption incentive bonus. We conducted 
phone interviews with 50 States and the District of Columbia.
    The two questions we asked that are likely to be of most 
interest to this Committee are, first, did States do anything 
differently to respond to the incentive, and second, how did 
States reinvest the bonus dollars they received?
    To address the first question, States reported they did not 
change adoption practices to respond to the adoptions incentive 
program. The program was authorized during a period when States 
were already changing their adoption systems to reduce the 
number of children in foster care. The bonus provided an extra 
incentive to keep moving in the right direction, but in no case 
were improvements in the adoption process motivated solely by 
the existence of the bonus.
    States, however, did report two very important side effects 
of the availability of the bonus on their systems. First, it 
stimulated improved data systems to ensure accuracy about the 
number of children adopted, and second, it fostered better 
collaboration with the courts to ensure timely and accurate 
transfer of information about finalized adoptions.
    We also asked States how they reinvested their bonus 
dollars. When the incentive program was first authorized, some 
feared that States would not reinvest bonus dollars into 
adoption services and that funds would be used for staff and 
other general child welfare activities, with little 
accountability. Our survey found, on the contrary, bonus 
dollars were invested directly back into the adoption system.
    Post-adoption services and recruitment of adoptive families 
were a high priority for many States. Several States invested 
their funds into activities to move existing cases through the 
system more quickly. Examples of such activities include 
training, contracting with providers to conduct home studies, 
providing additional legal services, and conducting adoption 
awareness campaigns.
    What was the general outlook among those we interviewed 
toward the adoption incentive program? In general, child 
welfare officials we interviewed were very positive about the 
adoption incentive program. They believe it brought needed 
attention, energy and excitement to the adoption arena.
    As the title of our survey suggests, the child welfare 
system is one with a long history of threatened sanctions from 
the Federal government, as well as extensive reporting in the 
media about failures of the system. Rewards for success have 
helped create a more positive environment for workers, 
supervisors, and administrators.
    On the other hand, the following concerns were raised in 
our interviews, as well as in subsequent discussions about the 
current proposal for reauthorization. These should be 
considered as part of any future decisions about this program.
    First, the bonus should reward other forms of permanency. 
Our respondents said that the bonus places value on adoption 
above all other forms of permanency, even when adoption may not 
be the most appropriate option for some families. Agencies 
should be rewarded for all permanency options they thought, not 
just permanency for adoption.
    Second, fundamental restructuring of child welfare 
financing is needed. The bonus does not change the fundamental 
structure of child welfare financing, and in the future States 
will not be able to maintain the same level of momentum toward 
permanency without access to more flexible resources and new 
investments for a wide range of child welfare services. We are 
pleased that the President's budget proposes to address this 
concern and look forward to more specifics about this proposal.
    Third, many State adoption increases are leveling off. Many 
have expressed concern that States will find it increasingly 
difficult to surpass a previous year's baseline number as the 
increase in adoptions begins to level off. For instance, in 
fiscal year 1998, the first year for which the bonus was 
available, States earned $42.5 million. By contrast, in 2001, 
they only earned $17.5 million in bonus funds. With the new 
proposal for incentives to adopt older youth, however, States 
may have a new opportunity to surpass their baselines, 
particularly if adoption of older youth has not been a major 
priority in the past.
    Fourth, incentives should support practice to remove 
barriers to permanency. Some have suggested that States should 
be rewarded for improving the process by which children achieve 
permanency. Suggestions included rewarding States for improved 
court procedures and reducing the length of time to termination 
of parental rights.
    Finally, bonus funds should be reinvested into the child 
welfare system. Our survey found that in the States there was 
little public input into decisions about how to reinvest bonus 
funds. In the future, the adoption incentive program should 
provide measures to continue to hold States accountable for 
reinvestment of bonus funds into a wide array of services to 
promote all forms of permanency for abused and neglected 
children.
    Thank you again for the opportunity to testify.
    [The prepared statement of Ms. Miller follows:]
 Statement of Jennifer Miller, Cornerstone Consulting Group, Houston, 
                                 Texas
    Cornerstone Consulting Group welcomes the opportunity to testify on 
the Adoption Incentive Program and to share findings from ``A Carrot 
Among the Sticks,'' a survey we conducted in 2001. Cornerstone is a 
consulting firm focusing on health and human services solutions, 
organizational development and community revitalization. In the area of 
child welfare, Cornerstone has conducted several studies exploring 
aspects of child welfare policy and practice and has also provided 
technical assistance to state and county agencies on a variety of child 
welfare issues.
    Our survey on the Adoption Incentive Program summarizes states' 
experiences with implementation and reports on how states reinvested 
their incentive funds. Through our interviews with each state child 
welfare agency, we learned that the adoption incentive provides states 
with a stimulus to continue promoting permanency through adoption for 
children in foster care. The incentive is reinforcing the priority of 
finding a permanent home for children in a timely way and is providing 
needed funds to shore up the infrastructure of state adoption programs.
    We are pleased that the President's budget proposes to continue the 
Adoption Incentive Program and that it creates a new incentive to 
promote adoption of older youth. Recent analyses of data from the 
Adoption and Foster Care Analysis and Reporting System (AFCARS) have 
demonstrated that the population of children waiting for adoption 
became older between fiscal year 1998 and fiscal year 2000.\1\ 
Researchers estimate that at 8 or 9 years of age, the probability that 
a child will stay in foster care becomes higher than the probability 
that they will be adopted.\2\ Many states have been working hard to 
recruit adoptive homes for older youth, and the newly proposed 
incentive program provides them with an opportunity to reinforce this 
priority.
---------------------------------------------------------------------------
    \1\ Maza, Penelope. ``Who is Adopting Older Children?.'' The 
Roundtable of the National Resource Center on Special Needs Adoption, 
Volume 16, Number 2, 2002.
    \2\ Maza, Penelope. ``The Age Factor in Adoption.'' The Roundtable 
of the National Resource Center on Special Needs Adoption, Volume 16, 
Number 1, 2001.
---------------------------------------------------------------------------
    The Adoption Incentive Program has worked well to reinforce the 
priorities of the Adoption and Safe Families Act. As we state in a 
summary of findings from our report, however, it is only one piece of a 
much larger effort to promote permanency for children. Incentives might 
also be available to promote other forms of permanency for children, 
including reunification and guardianship. In addition, in order to make 
sustained change in the child welfare system, we must fundamentally 
change the ways services to children and families are funded by 
providing more flexibility to state and local agencies and making new 
investments in a wide array of child welfare services, including 
prevention, early intervention, foster care, and post permanency 
activities.
Background and Methodology for the Survey
    The Adoption and Safe Families Act (ASFA), adopted by Congress in 
1997, placed renewed emphasis on the safety of children in child 
welfare systems by requiring states to make more timely determinations 
about permanent arrangements for children in state custody. The 
overriding message of ASFA was that foster care is not the best place 
for children to grow up and states must make more determined efforts to 
find permanent homes for children who cannot be returned to their 
biological families.
    One of the most novel provisions in AFSA was the Adoption Incentive 
Program, which encourages states to find adoptive homes for children 
who are legally eligible for adoption by granting a financial incentive 
for each foster child the state places in adoption above a baseline 
number. Congress authorized a bonus payment of $4,000 for each foster 
child adoption and $6,000 for each special needs adoption above the 
baseline. The Department of Health and Human Services calculated the 
baseline by averaging each state's number of finalized adoptions of 
children in foster care for 1995, 1996, and 1997.
    Between 1997 and 2001, adoptions increased substantially; to date, 
every state in the country received a bonus for at least one of the 
years in which the incentive was offered. Total bonus amounts were 
$42.5 million for 35 states in FY 98, $51 million for 43 states in FY 
99, $11 million for 35 states in 2000, and $17.5 million for 23 states 
in 2001.
    In 2000, the Cornerstone Consulting Group received funding from the 
David and Lucile Packard Foundation to study states' experiences with 
the Adoption Incentive Bonus. We conducted telephone interviews with 50 
states and the District of Columbia. In some states we spoke with 
directors of child welfare, while in others we spoke with adoption 
specialists. It is important to note that this survey covered bonuses 
for fiscal years 1998 and 1999. Since then, two additional years of 
bonuses have been distributed to the states.
    Among the questions we investigated were the following: Did states 
do anything differently to respond to the incentive? How did states 
reinvest the bonus dollars they received and how did they make 
reinvestment decisions? Is the Adoption Incentive Program a powerful 
enough incentive to move policy and practice in a different direction? 
Is it a wise use of federal resources? Are there other incentives 
Congress might consider to promote permanency for children in foster 
care?
    Our inquiry was limited in several respects. Time constraints 
prevented us from developing a complete view of how the states' efforts 
to enhance adoption fit into the context of the whole child welfare 
system. We also relied on self-reported answers without independent 
verification. Our sources varied somewhat from state to state, 
including staff from different levels of the state organizations, and 
responses may have varied with the source. Finally, we spoke only to 
staff at the state level and did not gain perspectives from those at 
the local level.
    Despite these limitations, we believe that we gained an accurate 
picture of the states' experiences with the adoption bonus and some 
useful suggestions for the use of bonuses to promote adoption and other 
permanency options.
Findings
States were already significantly enhancing efforts to promote 
        adoption.

    In general, states reported that they did not change adoption 
practices to respond to the Adoption Incentive Program. The program was 
authorized during a period when states were already changing their 
adoption systems to respond to internal and external pressures, such as 
the enactment of state and federal legislation, litigation, the 
financial burdens of foster care, and public dissatisfaction with the 
status of children in foster care. The bonus provided an extra 
incentive to keep moving in the same direction, but in no case were 
improvements in the adoption process motivated solely by the existence 
of the bonus.
    States did report two important side effects of the availability of 
the bonus on their systems: first, it stimulated improved data systems 
to ensure accuracy about the number of children adopted. Second, it 
fostered better collaboration with the courts to ensure timely and 
accurate transfer of information about finalized adoptions.

LStates reinvested bonus funds into activities to strengthen the 
        adoption system.

    When the incentive program was first authorized, some feared that 
states would not reinvest bonus dollars into adoption services and that 
funds would be used for general child welfare activities with little 
accountability. Our survey found that on the contrary, bonus dollars 
were invested directly back into the adoption system. Post adoption 
services and recruitment of adoptive families were a high priority for 
many states. Several states invested their funds into activities to 
move existing cases through the system, or reduce the backlog of 
waiting children. Specifically, states made investments in the 
following:

    <bullet> LPost adoption services (n=16)
    <bullet> LRecruitment of adoptive families (n=11)
    <bullet> LDistribution to county child welfare services, in some 
cases based on performance (n=11)
    <bullet> LTraining for adoption staff, mental health providers, 
etc. (n=9)
    <bullet> LContract enhancements for case management, recruitment, 
home studies, etc. (n=7)
    <bullet> LAdoption awareness (n=6)
    <bullet> LLegal services to expedite adoption (n=5)
    <bullet> LSubsidy increases (n=4)
    <bullet> LGeneral child welfare services (n=3)
    <bullet> LStaff (n=2)

    Although the amount of the bonus funds was small in relation to 
total child welfare budgets, states made strategic decisions about how 
to use the money to fill gaps and to continue building the 
infrastructure of their adoption systems. Usually, these decisions were 
made as part of the executive budget process at the state agency level. 
Some states contacted local departments to help them identify critical 
needs, while others consulted with private contractors. A handful of 
states used reinvestment funds to respond to needs identified by 
existing committees or task forces. No state had a process that 
included families or the general public in deciding how incentive funds 
would be used.
    Because the bonus received by most states was relatively small, few 
states experienced resistance to using funds in very flexible and 
innovative ways. Some states argued that if the bonuses had been 
larger, they might have had more trouble keeping the funds in their 
departments to fill critical gaps.

States found the adoption bonus a useful strategy with limitations.

    Many respondents felt strongly that, while the adoption bonus is a 
useful strategy to create incentives toward adoption in the short run, 
many other areas must be addressed to promote permanency in the long 
run. Several states responded that they would like to see an incentive 
for achieving permanency in general, including reunification, 
guardianship, and adoption. Respondents most commonly mentioned 
incentives for preventing foster care placement and for shortening the 
length of time children stay in the system as potential ways to improve 
permanency goals.
    Respondents indicated several other areas where incentives or 
increased funding might be appropriate, including:

    <bullet> LImproved court processes
    <bullet> LAdoption within one year of Termination of Parental 
Rights
    <bullet> LFewer adoption dissolutions and disruptions
    <bullet> LAdoption Tax Credit
    <bullet> LFunding for post adoption services
    <bullet> LFunding for more preventive services
    <bullet> LResearch, particularly in the area of adolescent issues
    <bullet> LMore discretionary funding to promote better practice

    In general, the child welfare officials we interviewed were 
positive about the Adoption Incentive Program. They believed it brought 
needed attention, energy, and excitement to the adoption arena. In a 
system with a long history of threatened sanctions from the federal 
government, rewards for good behavior have helped create a more 
positive environment for workers, supervisors, and administrators. 
Further, the bonus created a data collection system that allows states 
to measure their progress toward increasing the number of adoptions and 
to compare their progress with that of other states.
    On the other hand, many noted a concern about rewarding states for 
increased numbers rather than better outcomes, although few feared that 
agencies would make the wrong decisions in individual cases in a quest 
for bonus funds. Further, states that began successfully increasing 
adoptions in the mid-1990s, before the baselines were calculated, did 
not realize the same level of award as states that began reforms later. 
These state officials would like to have flexible resources to continue 
making improvements in their child welfare and adoption systems. 
Finally, perhaps the greatest criticism of the bonus is that it does 
nothing to change the largest impediment to child welfare reform: the 
structure of federal funding for child welfare.
Implications and Conclusions
    The adoption incentive bonus is a creative federal strategy to 
boost attention and resources to the adoption system. It has allowed 
state agencies to invest a modest amount of additional resources in 
areas of greatest need without creating new funding sources.
    Yet, the following concerns were raised in our interviews, as well 
as in subsequent discussions about the current proposal for 
reauthorization. These should be considered as part of any future 
decisions about this program.

The bonus should reward other forms of permanency.

    First, the bonus places value on adoption above all other forms of 
permanency, even when adoption may not be the most appropriate option 
for some families. Agencies should be rewarded for finding safe and 
stable homes for children, not only for placing children with adoptive 
families. Rewards for all permanency outcomes, including reunification, 
guardianship and adoption, are appropriate.

Fundamental restructuring of child welfare financing is needed.

    Second, the bonus does not change the fundamental structure of 
child welfare financing, which is a high priority for many concerned 
about abused and neglected children. In the future, states will not be 
able to maintain the same level of momentum toward permanency without 
access to more permanent and flexible sources of funding, as well as 
new investments, to support all forms of permanency, including family 
preservation, reunification, guardianship, kinship care arrangements, 
and adoption. This includes making more resources available to help 
achieve good adoption outcomes through post adoption services and 
supports.
    It is critical that any financing reform ensures more flexibility 
and new investments in the financing system, while also ensuring safety 
and permanency for all children who must be placed in foster care. We 
are pleased that the President's budget proposes to address this 
concern and look forward to more specifics about this proposal. We also 
look forward to the work of the independent and bi-partisan Pew 
Commission on Children in Foster Care.

Many state adoption increases are leveling off.

    Third, many have expressed concern that states will find it 
increasingly difficult to surpass a previous year's baseline numbers as 
the increase in adoptions begins to level off. Many states have already 
made great strides in reducing the backlogs in their systems and are 
not seeing the level of increase that they saw in previous years. For 
instance, in FY '98, the first year for which the bonus was available, 
states earned $42.5 million. By 2001, states only earned $17.5 million 
in bonus funds. In the long term, the questions of how to sustain 
investments made with bonus dollars and how to sustain adoption reforms 
generally will be of concern.

Incentives should support practices to remove barriers to permanency.

    Fourth, the bonus places emphasis on increased adoption numbers, 
with little attention to improved outcomes for children in foster care 
or improving the process by which children achieve permanency. Some 
have suggested that states be rewarded, for instance, for improved 
court procedures, reducing the length of time to termination of 
parental rights, completing timely home studies, reducing adoption 
disruptions and dissolutions, and recruiting eligible adoptive homes. 
Identifying best practices in adoption and supporting more research to 
understand which policies and practices promote good adoption outcomes 
would also increase the value of the bonus. This will be particularly 
true with the incentive to achieve adoptions for older youth. More 
focus on what works to recruit adoptive homes for older youth and to 
achieve more timely permanency for older youth is critical.

Bonus funds should be reinvested into the child welfare system.

    Perhaps the most critical issue is how to ensure that states 
continue to reinvest bonus dollars in the child welfare system. With 
the national and state economies lagging, it will be more difficult to 
keep these dollars in the child welfare system in general, and the 
adoption system in particular. And with very little public input into 
how these dollars are invested, there will be little accountability for 
decisions on spending the resources. In the future, the Adoption 
Incentive Program should provide measures to continue to hold states 
accountable for reinvestment of bonus funds into an array of services 
to keep children out of foster care, support them once in foster care, 
and provide post permanency supports once they have achieved permanency 
through reunification, adoption or guardianship.
    Thank you again for the opportunity to testify on this program; we 
look forward to continuing dialogue about how to best achieve safety, 
permanency and well-being for our Nation's most vulnerable children.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Miller. Now to 
turn to questions. Ms. Arnold-Williams, in your testimony you 
highlighted that your State has a 12-month limit on 
reunification efforts for families. This is shorter than the 
requirement implemented by the ASFA that requires States to 
initiate termination of parental rights for children who have 
been in care for 15 of the past 22 months. There has been 
testimony presented today that points to this 15 of 22 
provision as problematic because it does not require enough 
time to address all the issues a family might have. What has 
been Utah's experience with this shorter timeframe? How would 
you respond to this criticism?
    Ms. ARNOLD-WILLIAMS. It is a great question. We actually 
had the 12-month limit prior to ASFA. We initiated major child 
welfare reform in 1994 in our State with the State overhaul of 
our legislation. So, the 12 months predated that. We actually 
have 6 months for small children, with the option to renew, and 
I stress on that, there is the option for the judge to extend 
that if in fact the parents are making substantial progress on 
their treatment plan. So, that is one way that we deal with 
that, is--I think as was said earlier--it is a clear message 
from the judge from day one that you are expected to be at work 
on your plan now. So, we have not experienced difficulty with 
that, because there is that provision to extend if we are 
making progress.
    I would relate that the hardest issue on that is around 
substance abuse, as was mentioned earlier today. So, it has 
also taken, on the part of my Substance Abuse Division, 
concerted efforts. We had created dependency drug courts that 
provide intensive, quick treatment and follow-up that tie in 
with that, as well as additional residential treatment options, 
where moms can bring their children with them and engage in 
intensive treatment, residential treatment, along with 
employment opportunities and those types of things.
    So, you have to back it up with strong services. If you 
shorten that timeframe, it can't be the State's responsibility 
that the family is not following through with their treatment 
plan because things are not available. So, that is how we have 
addressed it.
    Chairman HERGER. Thank you very much. Now I turn to the 
Ranking Member, the gentleman from Maryland, Mr. Cardin, to 
inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Utah as well as all 
the States have opportunities for waivers or exceptions to the 
time limits when the interests of the child so determine. So, I 
think that is important.
    Let me thank all of you for your testimony. I thought this 
was a very impressive panel. Mr. Cathy, I want to thank you for 
setting a national example of how one person can make a 
difference in the lives of so many children. So, thank you very 
much. Ms. Schagrin, I also want to thank you for not only 
devoting your life to this issue, but also as a parent. Thank 
you for doing that.
    I think there is general consensus here that the States 
need flexibility and they need resources in order to deal with 
this issue, and that we can improve upon our current program. I 
think there is agreement there. Let me just caution, if I 
might, though, that in our haste to get the flexibility that 
you might want at the State level, that if we move toward block 
granting, there are going to be problems, there is going to 
be--just talking from a pragmatic point of view. I think most 
of you have agreed that the adoption bonus has been helpful. It 
hasn't been the sole reason for the increases in the numbers of 
adoptions, but it has been a useful means to access additional 
resources to accomplish a mutual objective.
    We have problems in child welfare with addiction. I am 
afraid that unless the Federal Government makes that a 
priority, with some funding flow toward that, we are not going 
to make progress in that area. I think Mrs. Johnson was right 
to underscore that issue--80 percent, I think she mentioned. We 
have problems with the qualifications and training of 
caseworkers. We know that. Yes, the States are addressing that 
issue, but if the Federal Government provides an incentive, we 
will move a little bit faster and more children will be served.
    So, yes, we need to make sure that we provide flexibility 
to our States, and a better job than we are doing currently. We 
also need to make sure that the Federal Government speaks to 
the priorities that are needed and allows the States to develop 
the models that will accomplish that. Therefore, I would just 
urge us to be very cautious on recommendations that I think can 
move us in the opportunity direction, because if you move 
toward block grants, that is usually the first step toward the 
reduction of Federal support, which I think could become a 
problem for us.
    So, I would welcome any--if you want to comment on that, 
fine. I see everybody shaking their head. Unfortunately, the 
record doesn't pick that up. Let me point out that every 
witness agreed with everything I just said.
    [Laughter.]
    Chairman HERGER. Does shaking mean you disagree?
    Mr. CARDIN. Representative Heaton.
    Mr. HEATON. Yes. I am an Appropriations Chair. When I make 
my appropriations, I like to know where my money is going, and 
I like to know that they are making good use of it. Once in a 
while, I am tempted to micro-manage just a little bit, but for 
the most part, I know that if I give them the flexibility, and 
I have my outcomes, I can get what I want. Flexibility is the 
key. Too many times things are--the appropriations are 
categorical and we can't bundle things. We don't get the 
flexibility to address specific issues.
    So, I am asking--I approach the block grant with some 
caution, but if you give us the flexibility--tell us the 
outcomes that you want, hold our feet to the fire, and if we 
don't get to those outcomes, there should be some strong 
interest from Congress in why we didn't get there. We ought to 
be ready to explain why we didn't, and we ought to have some 
reason how we can get to where you want us.
    Mr. CARDIN. I approach it a little bit differently. I think 
maybe I come to the same conclusion. I think that Congress 
needs to establish expectations and we need to provide the 
resources so that you can accomplish it, and give you the 
flexibility to meet the needs of your particular State in 
accomplishing them. I think the adoption bonus was a good 
example. We wanted to achieve a certain result, and there was 
money on the table in order to do it, so there was an 
incentive.
    Mr. HEATON. Just to continue, that is why we are taking a 
look at approaching our child welfare system in maybe a 
different way than we have in the past. We want to purchase 
results. We look at our providers and say, if you deliver and 
provide us the result, we will pay you a bonus. If you fail, we 
will punish you.
    Mr. CARDIN. Yes. Ms. Ashby, I think, wanted to make a quick 
comment. I know my time is about expended.
    Ms. ASHBY. Yes, just a brief comment. I am in agreement 
with the other two comments on what you said. Of course, in 
order to have outcomes, in order to hold feet to the fire, as 
was said, you have to have data. That, of course, was our 
bottom line, that you have to do evaluations, you have to have 
data reported, and so forth. If you don't have that, you don't 
have outcomes.
    Mr. CARDIN. Thank you.
    Chairman HERGER. You're welcome. Ms. Ashby, I have a 
question for the GAO. The ASFA included provisions intended to 
facilitate interjurisdictional adoptions. However, your 
testimony highlights a number of significant barriers that 
remain to facilitating the adoption of children across State 
lines. In a recent report you completed in 1999, as required by 
ASFA, you recommended that HHS should do more to help States 
facilitate these adoptions. It seems that barriers still remain 
if you are highlighting this problem again in your 2002 report. 
What did you recommend, and do you still think these steps are 
necessary to help States?
    Ms. ASHBY. Yes. Basically, we recommended in our 1999 
report that HHS provide an action plan to help States 
coordinate with one another, or to help child welfare within 
the States coordinate with each other and come to agreements 
and common systems for interjurisdictional placements.
    Now, one of the major problems that we saw back then and we 
still see, or saw in our most recent work, had to do with the 
home studies. Those have not been standardized. Although there 
is an Interstate Compact on the Placement of Children that has 
actually been adopted by each State, it is a uniform law in 
each State, and it has formalized the process in terms of 
interjurisdictional adoptions, but within that process, it is 
very complex.
    There are a number of places where documents and forms are 
reviewed, and home studies--there are different requirements in 
different States. There are home studies in each State, but 
they don't have the same requirements. So, you have one or more 
persons in the State requesting a home study in another State, 
mandating what needs to be done and reviewing what comes back. 
You have reviewers in the home State during the home study. 
Depending on at what point a home study is done, and sometimes 
has to be redone--if, for example, in another State you're 
simply looking for a family that is willing to adopt, but you 
don't have a specific child in mind, a home study is done. That 
home study might have to be updated or redone once a specific 
child is available for adoption. If there is a period of time 
before that child becomes available, perhaps the home study has 
to be updated every 6 months or every year, depending on the 
particular State's rules.
    So, our recommendation was that HHS--although HHS does not 
have direct control of what goes on in the States--HHS could 
formulate an action plan that would be a guide for States to, 
among themselves, come up with more uniformity, more 
collaboration.
    Chairman HERGER. Thank you very much, Ms. Ashby. Now I turn 
to the gentleman from Washington, Mr. McDermott, to inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I listen to you, 
having come up here as an NCSL witness a couple of times in the 
past, and all of you, I think to myself, we are talking here 
about a $43 million program, right? That is what this is, this 
incentive for adoptions? This is--that is a rounding error up 
in this part of the world.
    What isn't a rounding error is the cut in the Community 
Development Block Grant, when we promised you $2.8 billion and 
you now get, what, $1.7 billion? You both--at least 
Representative Heaton and Ms. Arnold-Williams, you mentioned 
it. How--are you just too polite to rail? You are talking about 
$43 million here, but that is $1.1 billion that was taken out 
of the system. Never mind what inflation is.
    The States are in--if your States are anywhere near what 
Washington State is at the moment, you are in a big hole.
    Ms. ARNOLD-WILLIAMS. Maybe if I could respond first on 
that. I mentioned the large increase in State general funds in 
my child welfare budget. Much of that was to make up the loss 
of SSBG money. Our legislature in the good years was able to do 
that. We are a State that spends the vast majority of our SSBG 
on child welfare. I spend it primarily on that, senior 
services, and disabilities. So, those reductions in SSBG did 
hit us very hard in child welfare. Now, if those were to 
continue to happen----
    Mr. MCDERMOTT. The State made it up?
    Ms. ARNOLD-WILLIAMS. Our State made it up in child welfare, 
not in the other service areas, in terms of that. Then the 
other thing, and I think it is interesting with the SSBG report 
due to come out now, and we saw an early release of that, we 
transfer temporary assistance for needy families (TANF) money. 
We transfer TANF into SSBG in our State, and we are in a 
position where we are still able to do that to make up that 
difference. I spend the majority of that transferred TANF 
dollars in my child welfare division.
    So, that is how we have pieced it together. It is 
contingent on having the TANF money to transfer--which is less 
and less available now, as TANF caseloads are going up----
    Mr. MCDERMOTT. The TANF--are going up?
    Ms. ARNOLD-WILLIAMS. Yes. Right. Which means my TANF agency 
needs the money for TANF benefits, and may not have the same 
option to transfer as much into SSBG. So, we do support 
restoring SSBG. It is a critical--it is one of the most 
flexible funds we have in order to meet and fill in the gaps 
that we can't fund with Title IV-E and some of those other 
funding sources.
    Mr. MCDERMOTT. How do you do it in Iowa?
    Mr. HEATON. Well, we came up short $5.7 million in child 
welfare, and we had to do a supplemental. We used some one-time 
moneys, found some one-time moneys, and----
    Mr. MCDERMOTT. What was the one-time money that you used?
    Mr. HEATON. We used it from a senior living trust fund. 
Moved it from senior living trust to pay for Medicaid, which 
displaced general fund dollars, and moved the general fund 
dollars to child welfare. Yes, 1996, a deal was made that SSBG 
was supposed to be $2.8 billion, and we haven't seen it.
    Mr. MCDERMOTT. How does your delegation from Congress 
explain to you why they did that to you?
    Mr. HEATON. Well, I tell you, Congressman, to be quite 
honest, I've never got up on my box and railed.
    Mr. MCDERMOTT. Well, I suggest you call Mr. Nussle and ask 
him what he's up to.
    Mr. HEATON. I'll do that.
    Mr. MCDERMOTT. This whole issue, as I listen to you--I 
started, when I was in the State legislature back in 1971, 
started the Adoption Subsidy program, which has been going for 
a long time in the State of Washington. I am interested to hear 
your impressions of whether those adoption subsidy programs 
really work. Do they?
    Ms. SCHAGRIN. Yes.
    Mr. HEATON. Yes, they do.
    Ms. SCHAGRIN. Absolutely. They----
    Mr. MCDERMOTT. What does Maryland do in terms of adopt--if 
I find a kid who is physically handicapped or mentally limited 
in one way or another, or a mixed-racial child, or whatever--
whatever one of those categories of hard-to-adopt kids are?
    Ms. SCHAGRIN. Maryland has both the State and of course the 
Federal Subsidized Adoption program, and so families are 
offered a subsidy up to the amount of the foster care grant in 
order to eliminate the obstacles to adoption. So, finances 
never needs to be an obstacle. We are theoretically negotiating 
the amount of that subsidy based on what that child's needs 
are. The definition of special needs is very broad. So, it 
basically includes all children in care, but it means that a 
child who is in a stable, loving, foster home, there will be no 
reduction in the support for that child.
    There is an issue in terms of the Title IV-E adoption 
subsidy. When children are returned to the foster care system, 
we have to keep giving them that subsidy.
    Mr. MCDERMOTT. To the parents?
    Ms. SCHAGRIN. Yes.
    Mr. MCDERMOTT. Why?
    Ms. SCHAGRIN. I would love to know the answer to that. 
Unless the rights have been terminated, our direction has been 
that it needs to continue. What we are starting to do is our 
court will order child support in the amount of the subsidy, 
but according to regulations we have recently been given, we 
can't stop the subsidy once the child returns.
    Mr. MCDERMOTT. You are shaking your head down there at the 
law.
    Mr. HARDIN. Well, I think perhaps that it would be good to 
check with the director of policy at the Children's Bureau 
about that.
    Ms. SCHAGRIN. I recently--okay, I will do that. We were 
very clearly--and I have read the Title IV-E guidelines 
carefully.
    Mr. HARDIN. That is my recommendation. Talk to the director 
of policy for the Children's Bureau.
    Chairman HERGER. The time has expired. I thank each of you. 
Just to correct the record, we have a very recent study that 
has come out by the Center for Law and Social Policy in which 
they stated that ``The national caseload has fallen 3 percent 
since the start of the recession.''
    With that, let me conclude with a question, if I could, to 
Ms. Miller. Since 1997, States have received $145 million in 
adoption incentive payments because of their success in moving 
children into adoptive homes. Can you expand for us, please, on 
the findings of your report, and detail how the States have 
reinvested these funds in their child welfare systems? What 
further steps should we consider during reauthorization of this 
successful program to ensure that States continue to receive 
these funds and reinvest these funds into their programs?
    Ms. MILLER. Sure. First, on the reinvestment question, I 
think there a number of things that States did to reinvest back 
into the adoption system. Let me say that how much a State 
received--it varies tremendously as to how much a State 
received, depending upon the extent to which they exceeded 
their baseline. So, depending upon how much they received, they 
made very strategic decisions about what they could invest in. 
Those States that didn't receive as much money, for instance, 
really invested in one-time activities, things that would 
really--hiring additional legal expertise to help move the 
backlog in the system, very specific, targeted recruitment 
campaigns to find adoptive families. A number of States have 
used technology very strategically in the past to find adoptive 
homes for waiting children.
    So, most of it was reinvested back specifically into the 
adoption system. I think it has been a system that there has 
not been a lot of attention paid to what really works in 
adoption. I think there has been a great deal of momentum in 
part because of the bonus dollars that they've had to reinvest 
and, really, sharing among the States about what works to help 
find adoptive homes for waiting children. So, as far as 
reinvestment is concerned, States made decisions to reinvest 
for the most part back into the adoption system.
    As far as your other question is concerned about what 
considerations should be made in terms of future incentive 
programs, one of the things that a lot of people have said is 
that adoption is one form of permanency, but it is not the only 
form of permanency. There are many people who would like to see 
incentives for both reunification as well as for guardianship. 
A number of States have increased their efforts to be able to 
place children into legal guardianship homes. This is going to 
be an increasing concern, I think, as we try to reduce the 
backlog of older waiting children, in particular those children 
9 and over. Many youth in particular don't want to be adopted. 
Even though many people feel that that is the best form of 
permanency. They have a tie to their biological family, there 
are cultural reasons that they don't want to be adopted, and so 
guardianship really provides another form of permanency for 
them.
    In addition, I think we want to pay very close attention to 
the baseline issue. A number of States, when the baseline was 
first established, felt that they were being compared to years 
in which they had already done quite a bit to ensure that they 
were moving children from foster care. So, they felt that they 
were being compared to years in which they had already had a 
great deal of success, so that the comparison beginning in 1997 
to the previous years was not as fruitful for them as it had 
been for other States. So, I think we want to pay close 
attention, particularly with this new proposal, as to how that 
baseline is formed.
    Chairman HERGER. Well, thank you very much. I want to thank 
each of you for your outstanding testimony. This has given us 
many ideas as we consider the next steps to improve the child 
welfare system, including reauthorization of the Adoption 
Incentives program. I look forward to working with each of you, 
all of you in this process.
    With that, this hearing stands adjourned.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]
              Statement of Child Welfare League of America
    The Child Welfare League of America welcomes this opportunity to 
submit testimony on behalf of more than 1,100 public and private 
nonprofit child-serving agencies nationwide on the implementation of 
the Adoption and Safe Families Act (ASFA) (P.L. 105-89) and the use of 
adoption incentive payments. This hearing represents an important 
opportunity to review the impact of the law and to take a look at what 
still needs to be done to ensure that all children in this country grow 
up in safe, nurturing families.
POSITIVE OUTCOMES AND DEVELOPMENTS SINCE ASFA
    The primary goal of ASFA was to ensure safety and expedite 
permanency for children in the child welfare system. This goal has been 
achieved in part. Although the entries in care appear to be static, the 
number of children in foster care has dropped slightly, as have the 
number of children waiting for adoption.\1\ The most positive outcome 
appears to be the increase in the number of legalized adoptions. The 
annual number of adoptions increased by 57% since ASFA, from 37,000 in 
1998 to 50,000 in 2001.\2\ These numbers are much larger than 
projected, however, the role ASFA played in the increase is unclear 
because some states had already begun renewed adoption efforts prior to 
ASFA.
---------------------------------------------------------------------------
    \1\ U.S. Children's Bureau. (2002). Trends in Foster Care and 
Adoption as of 11/01/02. Available online at www.acf.hhs.gov/programs/
cb/publications/afcars.htm. Washington, DC: Department of Health and 
Human Services.
    \2\ Ibid.
---------------------------------------------------------------------------
    There are other important developments related to ASFA. States have 
taken the ASFA timeframes seriously. They have enacted new legislation 
and promulgated regulations to expedite permanency, consistent with 
ASFA. Jurisdictions are holding permanency hearings sooner, often 
practicing some type of concurrent planning, and establishing a more 
expedited track for filing petitions to terminate parental rights when 
reunification is not possible or appropriate. The length of time before 
deciding on a permanency plan has been reduced. States are looking for 
tools to assist in expediting permanency, including concurrent 
planning, guardianship, and kinship support.\3\
---------------------------------------------------------------------------
    \3\ Assistant Secretary for Planning and Evaluation. (2001). 
Assessing the context of permanency and reunification in the foster 
care system. Washington, DC: U.S.D.H.H.S.
---------------------------------------------------------------------------
    In addition to the permanency option of adoption, there appears to 
be a broadening of the traditional notion of permanency in some states 
and localities. This includes states increasingly turning to relatives 
as a permanency option and making relatives a part of the permanency 
process. States report an increase in the use of temporary and 
permanent relative placements over the past few years. There are a 
number of new state initiatives in the areas of guardianship and 
kinship support. Some states are working to relieve relative burdens by 
using mediation and financial support to address relatives' needs, 
including guardianship programs and kinship assistance (subsidized and 
unsubsidized).\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    Additional practice improvements have been noted in some 
jurisdictions. There is an increased use of family-based approaches and 
interventions including family group conferencing, family mediation, 
and Family-to-Family and other neighborhood foster care approaches. 
These approaches stress non-adversarial, collaborative efforts to 
achieve permanency for children. Similarly, there is greater use of 
voluntary relinquishment and open adoption, especially in conjunction 
with concurrent planning and foster parent adoption.
    Finally, to achieve timely permanency for children, in many 
jurisdictions, there has been an increased and continuing focus on 
collaboration between public and private agencies and across systems to 
improve permanency for children.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
AREAS WHERE IMPROVEMENT IS NEEDED
    While ASFA has had some impact on increasing the number of 
adoptions from the foster care system, and possibly reducing the number 
of children in foster care, it is clear that more needs to be done. 
While there has been a decrease in number of children in foster care in 
the last year or two, there continue to be over 500,000 children in 
care.\6\
---------------------------------------------------------------------------
    \6\ There were 556,000 children in foster care on 9/30/00. The 
AFCARS Report: Interim FY 2000 estimates as of August 2002. Available 
online at www.acf.hhs.gov/programs/cb/publications/afcars/report7.htm. 
Washington, DC: Department of Health and Human Services.
---------------------------------------------------------------------------
    Families continue to come to the attention of the child welfare 
system because targeted early intervention supports are not available. 
Without these services, many families will require intensive and 
extensive interventions.\7\ Appropriate services for families whose 
children are already in care and who must meet the ASFA time frame are 
also lacking. In many communities, there continue to be insufficient 
substance abuse, mental health, and other treatment resources for 
families, as well as sufficient housing and economic supports. All 
families--whether formed through reunification, adoption, kinship 
guardianship, or another permanent plan--need follow-up support and 
assistance if they are to be successful. These services are rarely 
offered and are greatly needed to preserve permanency and prevent re-
entry into the system.
---------------------------------------------------------------------------
    \7\ There were 2,796,000 children referred for possible child abuse 
and neglect in 2000. Administration on Children, Youth, and Families. 
(2002). Child maltreatment 2000. Available online at www.acf.hhs.gov/
programs/cb/publications/cm00/outcover.htm. Washington, DC: U.S. 
Department of Health and Human Services (HHS).
---------------------------------------------------------------------------
    Children of color continue to be over represented in the child 
welfare system. For all states, the rate of entry of African American 
children was higher than the rate for Caucasian children, and in 30 
states it was more than 3 times higher.\8\ Forty percent of the 
children in foster care are black, non-Hispanic, 38% are white non-
Hispanic, 15% are Hispanic, and 2% are Native American.\9\
---------------------------------------------------------------------------
    \8\ National Clearinghouse on Child Abuse and Neglect Information. 
(n.d.) Safety, Permanency, Well-being. Child Welfare Outcomes, 1999: 
Annual Report. Washington, DC: Administration for Children and 
Families. Available online at http://www.acf.dhhs.gov/programs/cb/
publications/cwo99/index.html.
    \9\ Ibid.
---------------------------------------------------------------------------
    The lack of preventive and treatment services appears to also be 
particularly relevant for families of color, whose children are 
disproportionately represented in the child welfare system.\10\ 
Preventive and treatment services need to be culturally competent and 
available in the family and child's language. In five states (NM, CA, 
AZ, CO and TX), over 30% of the children in the child welfare system 
are Hispanic. In both North and South Dakota, Native American children 
make up more than 25% of the children in foster care.\11\ Further, 
AFCARS tells us that minority children are primarily adopted by single 
parents.\12\ These parents, often relatives, need ongoing support by 
the agency, if they request it, so that they can best care for their 
children.
---------------------------------------------------------------------------
    \10\ See Summary, Conclusion, and Final Notes, The Impact of ASFA 
on Children and Families of Color, Proceedings of a Forum. (2002). 
Washington, DC: Child Welfare League of America.
    \11\ Ibid.
    \12\ Maza, P. The Role of the Single Mother in the Adoption of 
Children from the Child Welfare System. Adoption News, 3 (4) 3. 
Washington, DC: Child Welfare League of America.
---------------------------------------------------------------------------
    The age of children in foster care waiting to be adopted has 
increased dramatically and there has been limited success in moving 
older children and youth to permanency. The average age for a child to 
become legally free for adoption has increased, the median age of 
waiting children has increased, and over half of the waiting children 
are over 8 years old.\13\ Concerted efforts are still needed to assist 
youth not only with independent living skills, but also with permanent, 
supportive relationships. For youth who enter the system at an older 
age, the use of voluntary relinquishment, open adoption, guardianship 
and other participatory approaches, are needed to assist youth and 
their families to achieve permanency.
---------------------------------------------------------------------------
    \13\ Presentation by P. Maza, CWLA National Conference, March 2003.
---------------------------------------------------------------------------
    Additionally, although the time from removal to termination of 
parental rights (TPR) has decreased, the time from TPR to adoption has 
increased, with the total time in care for waiting children remaining 
constant at 44 months.\14\ Adoption work is intense and time consuming 
if done right. Yet, child welfare caseloads for adoption workers are 
increasing. Just this week, the Wisconsin Department of Family Services 
proposed eliminating 12.5 special needs adoption workers and five 
offices due to a 3.2 billion state budget shortfall.
---------------------------------------------------------------------------
    \14\ AFCARS REPORTS (FY 1998, 1999, 2000, 2001) Op. Cit.
---------------------------------------------------------------------------
    Workforce issues pose a challenge to ensuring children's safety and 
care. A major challenge in reducing the number of children entering or 
remaining in out-of-home care or waiting for an adoptive family lies in 
the ability of a well-staffed and well-trained child welfare workforce. 
Caseworkers must assist families that are experiencing difficult and 
chronic family problems. They must also achieve the goals of safety and 
permanency and make lifetime decisions for the child within the ASFA 
timelines. Yet, the safety and permanency of children is hampered due 
to large caseloads, caseworker turnover and minimal training.
    The need for foster and adoptive families continues to grow. In 
fiscal year 2001, the federal government reported that foster parents 
adopted 59% of the children from the foster care system.\15\ Many 
states are instituting expedited permanency planning systems that seek 
to place foster children with ``resource families'' who will eventually 
become the adoptive parents. Despite this trend, the need for unrelated 
adoptive families has not diminished because there continue to be 
waiting children.
---------------------------------------------------------------------------
    \15\ Maza, Penelope, L. Ph.D., Senior Policy Research Analyst, ``Is 
the Adoption and Safe Families Act (ASFA) Doing What it is Supposed to 
do?'' November 7, 2002 workshop, Ft. Lauderdale, FL.
---------------------------------------------------------------------------
    Geographic barriers continue to delay adoptive placement for some 
children. ASFA mandated that barriers to inter-jurisdictional adoptive 
placement be eliminated. Adoption 2002, a report issued by the U.S. 
Department of Health and Human Services (HHS), noted the following 
geographic barriers to adoptive placements: lack of dissemination of 
information about waiting families and children; reluctance on the part 
of agencies to conduct home studies to place children who are outside 
their jurisdictions; reluctance of agencies to accept some studies 
conducted by agencies in other jurisdictions, difficulties in 
transferring Medicaid benefits; and issues with the Interstate Compact 
on the Placement of Children (ICPC).\16\ Although there is a national 
Internet Photolisting service, AdoptUSKids, and many states have 
Internet registries that feature waiting children and families, workers 
do not often search these registries for families. Many remain 
reluctant to list available families, or to utilize families from other 
jurisdictions. Yet, adoption recruitment has become increasingly 
national, even global, in scope, and in order to ensure that children 
are placed in a timely way with waiting families, these barriers need 
to be addressed.
---------------------------------------------------------------------------
    \16\ U.S. Department of Health and Human Services. (1997) Adoption 
2002. Washington, DC: author.
---------------------------------------------------------------------------
    ASFA also underscored the continued importance of the courts in 
ensuring timely permanency for children. Greater judicial involvement 
and oversight is required to provide added protections for foster 
children. To be effective, everyone must work together to streamline 
court processes, ensure timely and complete documentation, ensure the 
participation of all relevant parties, and maintain a sense of urgency 
for every child. Courts have been challenged to fully respond to the 
ASFA requirements, with limited new resources. Judicial caseloads, 
inadequate representation, unnecessary delays, and unprepared workers 
and legal counsel are but a few of the possible difficulties 
encountered.
REALIZING THE GOALS OF ASFA
    While some progress has been reached since the passage of ASFA, 
much more needs to be done to ensure that all children in this country 
grow up in safe, nurturing families. Several pieces of legislation have 
already been introduced this year, which would help advance that goal.
Change the Eligibility for Title IV-E Foster Care and Adoption 
        Assistance
    To ensure child safety, permanency and well-being, federal funding 
should be provided for all children in out-of-home care. Congress has 
mandated legal and permanency protections for all foster and adopted 
children, however, federal funding is only available to pay for the 
costs of children who are eligible for Title IV-E of the Social 
Security Act. The current law links Title IV-E eligibility to archaic 
standards that each state had in place under their 1996 AFDC cash 
welfare system. This provision requires states to maintain the same 
eligibility standards that existed in July 1996. Since AFDC no longer 
exists, this continues to be an administrative burden on the states. 
Even more critical, however, is the fact that as time goes by, fewer 
and fewer numbers of children are eligible for support under these two 
funding streams. Data gathered by the Urban Institute indicates that as 
of 2000, approximately 57% of all children in out-of-home placement 
were eligible for IV-E funding.\17\ Other data from HHS indicate this 
percentage is even lower. Some states may be able to serve less than 
one-third of their children in out-of-home placement through the use of 
IV-E foster care fund. If the current system remains in place, fewer 
and fewer children will be eligible for federal foster care and 
adoption assistance.
---------------------------------------------------------------------------
    \17\ The Cost of Protecting Vulnerable Children III, Occasional 
Paper Number 61, Roseana Bess, Cynthia Andrews, Amy Jantz, Victoria 
Russell, Rob Geen, The Urban Institute.
---------------------------------------------------------------------------
    CWLA recommends that the eligibility link should be eliminated so 
all children in foster care receive federal assistance. The Child 
Protective Services Improvement Act (H.R. 1534) changes Title IV-E 
eligibility to link it with a state's TANF cash assistance program 
standards. Similar legislative language was included in a TANF 
reauthorization bill (S. 2052) introduced by Senator Rockefeller in 
2002.
Prevention and Early Intervention Services
    Resources are needed for primary prevention services that can 
prevent many families from ever reaching the point where a child is 
removed from the home. Prevention and early intervention services play 
a vital role for children and families in communities. Family support, 
home visiting, and in-home services enable many parents to gain 
competence and confidence in their parenting while addressing other 
family concerns. Child care, housing, and job training/employment are 
services that enable families to stay together to the fullest extent 
possible. These and other preventive services need to be much more 
available to families early on as well as when a crisis occurs.
    Community-based child protection programs have demonstrated that 
many families can be helped before there is a need for protective 
intervention with the family. Often, the family can identify what is 
needed, can be connected to resources, and contact with the formal 
child welfare system can be averted. Often, after a formal report has 
been made, a child can be maintained safely at home with sufficient 
supports, clear expectations, and monitoring. At all points in the 
continuum, however, ongoing, targeted assessment must be taking place. 
Both the initial child protective services investigation and placement 
prevention services require appropriate immediate assessments of the 
family, the child and the community.
    The Act To Leave No Child Behind (H.R. 936) would allow states to 
claim reimbursement under the Title IV-E foster care program to address 
these needs. CWLA strongly supports efforts led by this Subcommittee 
and the Administration to secure increased resources for the Promoting 
Safe and Stable Families program. Currently funded at $405 million, 
Congress may approve up to $505 million annually for this program.
Family Reunification Services
    Reunification is the first permanency option states consider for 
children entering care. Yet, in many ways, it is the most challenging 
option to achieve in a plan-based, permanent way. Forty-three percent 
(239,552) of children in care on September 30, 2000 had a case plan 
goal of reunification with their parents or other principal caretaker 
while 57% (157,712) of the children who exited care during FY 2000 
returned to their parent's or caretaker's home.\18\ Successful 
permanency through reunification requires many things, including 
skilled workers, readily available supportive and treatment resources, 
clear expectations and service plans, and excellent collaboration 
across involved agencies, at a minimum. Worker skills are addressed 
below, as are the need for accessible and culturally appropriate 
support and treatment services for families with children. Also 
addressed is the critical need for after care or post-permanency 
services to ensure that safety and permanency are maintained following 
reunification.
---------------------------------------------------------------------------
    \18\ The AFCARS Report: Interim FY 2000 estimates as of August 
2002, Op. Cit.
---------------------------------------------------------------------------
    The Act To Leave No Child Behind (H.R. 936) would allow states to 
claim reimbursement under the Title IV-E foster care program to address 
these needs.
Kinship Permanency and Guardianship
    CWLA believes that one area that can serve as an important tool in 
providing children with a safe and permanent setting is the use of 
guardian kinship care arrangements. Some states have used various 
resources to fund this permanency option. A few states have utilized 
federal Title IV-E funds to support guardianship through the use of 
Title IV-E waivers. A federally funded guardianship permanency option 
should be available to allow states to provide assistance payments on 
behalf of children to grandparents and other relatives who have assumed 
legal guardianship of the children for whom they have committed to care 
for on a permanent basis. Kinship guardianship assistance agreements 
and payments would be similar to the adoption assistance agreements in 
that they would take into consideration the circumstances and the needs 
of the child.
    Kinship care, when properly assessed and supported, has been shown 
to provide safe and stable care for children who remain with or return 
to their families.\19\ Twenty-five percent of children in care are 
living with relatives, some of who will not be able to return to their 
parents.\20\ States vary in their use of relative homes for foster care 
even though federal regulations state that there is a preference for 
relative placements. States are challenged to provide the financial, 
social, and legal supports that are needed to ensure safety and 
permanency in kinship placements. Generally there is a lack of case 
management and support services made available to relative and legal 
guardian providers.
---------------------------------------------------------------------------
    \19\ Benedict, M.I., Zuravin, S., and Stallings, R.Y. (1996). Adult 
functioning of children who lived in kin versus non-relative family 
foster homes. Child Welfare, 75 (5), 529-549; Berrick, J.D., Barth, 
R.P., and Needell, B. (1994). A comparison of kinship foster homes and 
foster family homes: Implications for kinship foster care as family 
preservation. Children and Youth Services Review, 16 (1-2), 33-63.
    \20\ U.S. Children's Bureau. (2002).
---------------------------------------------------------------------------
    The Act To Leave No Child Behind (H.R. 936) and the Child 
Protection Services Improvement Act (H.R. 1534) would allow states to 
claim reimbursement under the Title IV-E foster care program to address 
these needs.
Post Permanency/Post Adoption Services
    Post permanency services are needed to support permanency when 
children have been reunified with their families, adopted, or when 
relatives have assumed legal guardianship and permanent care. Services 
need to be available, affordable, accessible and appropriate to the 
family's needs. To accomplish this for all children and families 
requires a system of service delivery which will ensure that post-
permanency services are available and accessible in all parts of the 
country, both rural and urban; that sufficient funding is available to 
ensure services will continue to be available as the needs of the 
families and children change; and that an appropriate range of services 
are developed to meet the varying needs of adoptive families, birth 
families, and adopted children. The provision of these services would 
support reunification, prevent recidivism of children reentering foster 
care, and maintain permanency for adopted children and those in 
guardianship arrangements.
    Due to the increased number of termination of parental rights, more 
special needs children are now waiting for an adoptive family or have 
been adopted. They need treatment services to a greater or lesser 
degree until they reach adulthood (or perhaps the rest of their lives). 
The services should be tailored to the specific needs of each child and 
family. They may range from occasional respite, to time limited therapy 
for the child and/or the parents, to day treatment, to residential 
care. Adoptive parents need a variety of supports to prevent disruption 
or dissolution. These needs are predictable, but states have no way of 
knowing the extent of the need or the cost. Potential adoptive families 
need to be able to adopt without fear that they cannot afford to adopt 
a ``special needs'' child because of potential extensive costs. It is 
imperative that appropriate services be ready for these families and 
their new children. Currently, in many jurisdictions, if an adopted 
child needs residential treatment, the adoptive family must give up 
custody of the child, and the child re-enters the foster care system 
for services.
    The Act To Leave No Child Behind (H.R. 936) would allow states to 
claim reimbursement under the Title IV-E foster care program to address 
these needs.
Access to Mental Health Services
    It is estimated that 20%, or 13.7 million American children have a 
diagnosable mental or emotional disorder. Nearly half of these children 
have severe disorders, but only one-fifth receive appropriate services. 
For children living in foster care today, the problem is even more 
serious. Eighty-five percent of the 547,000 children living in foster 
care have a developmental, emotional, or behavioral problem. Most of 
these children have experienced abuse and/or neglect and are at high 
risk of emotional, behavioral, and psychiatric problems. Upon entering 
foster care some children already have a diagnosed serious emotional 
disturbance and require significant services. In addition, all children 
who are separated from their families experience some trauma and may 
require mental health services.
    To improve the integration and coordination of services between the 
child welfare and mental health systems, CWLA supports the funding of 
$10 million for the Improving Mental Health and Child Welfare Services 
Integration Program. This program, which is yet to be funded, was 
authorized to provide coordinated child welfare and mental health 
services for children in the child welfare system. It will provide a 
single point of access in order to better provide children with 
appropriate services, including comprehensive assessments, coordinated 
service and treatment plans, integrated mental health and substance 
abuse treatment when both types of treatment are needed. With improved 
coordination and access to services and treatment, mental health 
services provided to children and youth that come to the attention of 
the child welfare system can be achieved in a more appropriate, 
efficient, and cost-effective manner.
Substance Abuse Treatment Services For Families
    Families in the child welfare system need access to appropriate 
substance abuse treatment. A common thread in child protection and 
foster care cases is the high percentage of children, their parents, or 
both who have a substance abuse problem. Up to 80% of the children in 
the child welfare system have families with substance abuse problems.
    ASFA has designed to promote the safety and permanence of children 
by expediting the timelines for decision-making. That law requires that 
a court review plan for a child's permanent living arrangement be made 
within 12 months of the date a child enters foster care. It also 
requires that if a child is in foster care for 15 or the most recent 22 
months that a petition to end a parent's rights to the child must be 
filed, unless certain exceptions apply. To ensure that permanency 
decisions can be made for children whose families have alcohol and drug 
problems, special steps must be taken to begin services and treatment 
for the family immediately upon a child's entry into foster care or 
regain custody of their children. These resources for substance abuse 
treatment for families are chronically in short supply. There is a 
national shortage in all types of publicly funded substance abuse 
treatment for those in need, especially for women with children. All 
states report long waiting lists. Alarmingly, over two-thirds of 
parents involved in the child welfare system need substance abuse 
treatment, but less than one-third get the treatment they need.
    This need is addressed in the Child Protective Services Improvement 
Act (H.R. 1534). Senator Olympia Snowe (R-ME) has also reintroduced the 
Child Protection/Alcohol and Drug Partnership Act, S. 614, and 
Representative Rangel is expected to reintroduce the companion bill in 
the U.S. House of Representatives in the near future. This bill will 
provide new resources ($1.9 billion over five years) for a range of 
state activities to improve substance abuse treatment. State child 
welfare and substance abuse agencies, working together, will have 
flexibility to decide how best to use these new funds to enhance 
treatment and services. For example, states may develop or expand 
comprehensive family-serving substance abuse prevention and treatment 
services that include early intervention services for children that 
address their mental, emotional, and developmental needs as well as 
comprehensive home-based, out-patient, and residential treatment for 
parents with an alcohol and drug abuse problem.
Adoption Incentives to Increase Adoptions
    The adoption incentives program that rewards states for increasing 
the number of ``special needs'' children adopted from foster care needs 
to be reauthorized and modified. Last year, only twenty-eight of the 
states and territories received an incentive award since they were not 
able to continue to increase their adoptions over their established 
baseline. Yet, the national total number of adoptions was very close to 
the previous year (50,600 in 2000 and 49,617 in 2001).\21\ States were 
not able to receive these payments because the backlog of foster parent 
adoptions in almost all states has been cleared, the number of children 
entering the foster care system has decreased slightly, and fewer 
children are considered ``special needs'' due to the AFDC 1996 income 
eligibility requirement, which has not been increased to keep up with 
inflation. Meanwhile, states are continuing to complete a record number 
of terminations of parental rights proceedings (75,000 in 2000),\22\ 
and the number of children waiting for an adoptive family is 
decreasing. We also know that of the children still waiting for 
adoption, those who will not be adopted by their foster parent or 
relative are older and have more challenging needs.
---------------------------------------------------------------------------
    \21\ U.S. Children's Bureau. (2002), Op. Cit.
    \22\ The AFCARS Report: Interim FY 2000 estimates as of August 
2002, Op. Cit.
---------------------------------------------------------------------------
    CWLA supports a change in the adoption incentives program. We agree 
with the Administration's proposal to create a new, additional, second 
baseline predicated on the number of children nine years of age or 
older that had finalized adoptions last year. This will focus on those 
children who have been identified as more than likely not to achieve an 
adoptive home due to their age. AFCARS has indicated that age is the 
most important factor for a child waiting for permanency.\23\
---------------------------------------------------------------------------
    \23\ Ibid.
---------------------------------------------------------------------------
    CWLA recommends that the original baseline also be modified. 
Although all states, during at least one of the program years, received 
an incentive bonus, many were not able to fully participate. States 
that had already begun to focus on increasing the number of adoptions 
prior to the implementation of ASFA were not able to continue to show 
an increase as their adoptions had already been processed in a timely 
manner. Additionally some states were able to finalize many adoptions 
in one year, which resulted in an artificially high baseline for the 
remaining years. We recommend that the original baseline be reset to 
allow states a more level playing field. An incentive to place a set 
percentage of the children waiting adoption would allow those states 
whose foster care populations are declining to continue to be rewarded 
for good work. It would also allow other states that have been excluded 
from the incentive program to again participate. These are states that 
have maximized finalizations in one year and/or have already reached a 
static waiting child population.
Reducing Inter-Jurisdictional Barriers to Adoption
    To secure additional adoptive homes, inter-jurisdictional barriers 
need to be eliminated. The interstate compacts (ICPC and ICAMA), 
designed to facilitate interstate placement, need to be modified. A 
subcompact to ICPC or a new compact could be created that is dedicated 
to only interstate child welfare adoptions. This would help facilitate 
adoptions across state lines. In order to expedite these inter-
jurisdictional adoptions, a new compact should address the purchase of 
service process.
Building a Strong Child Welfare Workforce
    Successful outcomes for children and families in child welfare 
depend heavily on the quality of services received, and in turn, on the 
ability of the workforce delivering them. Yet, child welfare agencies 
across the country are facing a workforce crisis on many fronts. 
Attracting, training, and retaining qualified staff at all levels has 
become increasingly challenging. Staff shortages and high turnover 
rates have grown with the increasingly rigorous demands of the work, 
low to modest compensation, and competition with other more attractive 
options in the current booming job market. Child welfare workers must 
be prepared to handle caseloads typically well beyond recommended 
national guidelines. Every day they work with children and families 
with complex problems and often in situations that may jeopardize their 
safety.
    New evidence recently released a report from the U.S. General 
Accounting \24\ Office found that states failed to meet some of the 
outcome measures in the Child and Family Services, due, at least in 
part, to workforce deficiencies. Areas where measures were not met due 
to workforce issues included: timely investigation of abuse complaints, 
efforts to reduce the risk of harm to the child, the ability to 
maintain stable foster care placements, establishing permanency goals 
for the child in a timely manner, involvement of children and families 
in case planning, and adequately monitoring child safety and well-
being.
---------------------------------------------------------------------------
    \24\ Child Welfare: HHS Could Play a Greater Role in Helping Child 
Welfare Agencies Recruit and Retain Staff, General Accounting Office, 
GAO-03-357, March 2003.
---------------------------------------------------------------------------
    The Child Protective Services Improvement Act (H.R. 1534) begins to 
address these workforce issues by creating an incentive fund to help 
states build a strong workforce and also provides loan forgiveness for 
students who work in child welfare system.
Training
    An important workforce issue is the need for training for both new 
staff and on-going training for current staff. States must be able to 
ensure worker competencies through the provision of comprehensive, 
rigorous, competency based training programs. We believe that an 
important part of this strategy is to allow states that contract their 
services to private agencies to be able to use federal IV-E training 
dollars to train this important part of the workforce. Legislation 
introduced by Representative Weller (H.R. 1378) and the Child 
Protective Services Improvement Act (H.R. 1534) accomplishes that goal.
National Standards and the Child and Family Service Reviews
    ASFA required states to develop and implement state standards to 
ensure that children in foster care are provided quality services. 
There is considerable variability across states in meeting this 
requirement. In addition, HHS has established ``national standards'' 
for the Child and Family Service Reviews. These standards are specific 
statewide data indicators that are used to determine, in part, whether 
or not states are operating in substantial conformity with state plan 
requirements. While useful as an aggregate measure, they do not provide 
detailed guidance to states regarding the delivery of quality child and 
family services.
    The absence of a core set of nationally agreed-upon standards by 
which agency services can be measured seriously compromises quality and 
consistency across child welfare services. The lack of clear agency 
policy and accountability with regard to best practice all too 
frequently permits ``free-lance'' and unstructured casework practice. 
It fosters decision-making that by default may be driven by individual 
workers who are often inexperienced and inadequately trained. The lack 
of national standards by which agencies are held accountable has played 
out nationally in recent reports of the disappearance, serious injury 
and death of children. In addition to these most tragic examples, 
without complying with such standards, many agencies are ill equipped 
to provide the basic care and protection of children and support to 
families that we expect of an effective child welfare system.
    Unlike other systems that provide critical services to children and 
families--such as schools and hospitals, there are no comprehensive 
nationally mandated standards for child welfare services. For many 
years, CWLA has been the principal national organization responsible 
for developing child welfare standards. CWLA's eleven volumes of 
standards provide best practice guidance on many aspects of child 
welfare including the quantification of caseload ratios. Unfortunately, 
there remains a wide gap between the best practices recommended in 
these standards and what actually occurs in practice in many 
jurisdictions.
    CWLA proposes the establishment of national standards for child 
welfare practice which would be linked to the Federal Child and Family 
Service Reviews. Once established, nationally adopted child welfare 
standards would provide guidance to state efforts to achieve the Child 
Welfare Outcomes and meet the requirements of State Program Improvement 
Plans. Establishing national standards of practice for child welfare 
services, and creating and implementing a process for states to use to 
``gear up'' to the standards would result in more consistent, quality 
practice across jurisdictions and nationally. It would provide clear 
guidance to the states in their efforts to achieve the Child Welfare 
Outcomes and make improvements as laid out in their Program Improvement 
Plans. It would provide a needed practice framework, enabling child 
welfare service systems to achieve good outcomes for children and 
families and to be accountable for the important work that they do.
Tribal Access to Title IV-E Funding
    CWLA supports direct tribal access to Title IV-E funding. 
Legislation introduced by Representative Camp (H.R. 443) allows tribes 
an option to directly access Title IV-E funds from HHS rather then 
negotiating for these funds in partnership with states. Presently the 
state IV-E agency must be responsible for the placement and care of 
foster children if Title IV-E eligible expenses are claimed; tribal 
expenditures can only be reimbursed through the state.
CONCLUSION
    CWLA aspires to an America where every child is healthy, safe, and 
thriving, and where all children develop to their full potential, are 
nurtured, and are able to grow into adults who are able to make 
positive contributions to family, community, and the nation. Though 
most Americans embrace this view and act each day to fulfill it with 
the children they love, more is needed to meet these needs for all 
children. Essential improvements are still needed for the protection 
and care of children who have been abused and neglected. CWLA calls on 
Congress to act this year to ensure that we, as a country, do a better 
job of protecting and caring for these children.

                                 <F-dash>
 Statement of the National Indian Child Welfare Association, Portland, 
                                 Oregon
    The National Indian Child Welfare Association submits this 
statement regarding the implementation of the Adoption and Safe 
Families Act of 1997. Our specific comments will focus on how this law 
has impacted Indian children and families living on tribal lands and 
under tribal jurisdiction. Attached is a brief description of the work 
of our organization.
    With the passage of the Adoption and Safe Families Act came 
sweeping reform of child welfare policy and practice in many state and 
local areas. Hopes of providing more certainty and stability for 
children caught up in the foster care system were key goals for 
agencies involved in implementing this landmark legislation. However, 
one group of children in the United States has seen little help from 
this law, and, in some cases, has actually seen progress complicated in 
their search for greater permanency. This group is Indian children, 
both under state and tribal jurisdiction. With some relatively small 
changes and improvements to federally based permanency funding, these 
children could also receive many of the benefits that Congress intended 
under ASFA.
    The need for stable funding to support permanency services.--Over 
500,000 Indian children are served by their tribal governments based 
upon their status as citizens of that government and the jurisdictional 
authority that exists for those tribal governments. There are over 560 
federally recognized tribal governments, and each one provides some 
level of child welfare services for its member children and families. 
However, the resources to exercise that authority are not there for 
tribal governments, as indicated by the hodge podge of funding streams 
that they have to patch together to create child welfare services in 
their communities. Federal child welfare funding streams, while 
available and accessible for all states, are not always provided to 
tribes. The prime example is Title IV-E Foster Care and Adoption 
Assistance program with expenditures of over $6 billion annually. 
States use this funding to support basic permanency services like 
foster care and adoption assistance, while tribal governments do not 
have direct access to this or any other reliable source of funding. The 
result is that tribal governments struggle to develop adequate foster 
care and adoptive home families without basic subsidies for training or 
support of these families. Children who need placement often have to be 
placed in homes that provide safe and loving environments, but struggle 
to make ends meet with an extra child in the home. This can also lead 
to foster care home burnout and a failed placement. Indian families 
that would like to adopt also have to think twice before making a 
commitment to a child when they know that basic support services may be 
lacking. This lack of basic permanency funding for tribal governments 
is the single largest impediment to helping Indian children find 
permanency.
    Fortunately, the solution is not difficult. Congressman Camp in the 
House and others in the Senate have introduced legislation in this 
Congress to help fix this inequity and provide tribal governments and 
Indian children with the same benefits from IV-E that all other 
children enjoy. The legislation in the House (H.R. 443) is under this 
Subcommittee's jurisdiction and could not only bring more support for 
necessary services, but also open the door to more tribes operating the 
IV-E program, which contains many of the ASFA requirements. We commend 
Congressman Camp for standing up for Indian children and seeing the 
need to correct this situation, and we urge the Subcommittee to support 
this important legislation too.
    Promoting Adoption in Indian Country.--Tribal governments, not 
unlike state governments, are concerned about the permanency of their 
children. Tribes have some of the same obstacles to face in terms of 
finding permanent placements that states do. For Indian children where 
adoption is an appropriate option, the incentives and support for 
prospective adoptive parents are not there. Because tribal governments 
cannot currently receive direct funding under Title IV-E, they have 
fewer resources and supports available to assist adoptive placements. 
Furthermore, unlike states, tribes that have increased the number of 
foster children in adoptive placement cannot share in the Adoption 
Incentives program under ASFA. In some cases, where a child is in state 
custody, but the adoptive placement originates from a tribally licensed 
adoptive home, the state receives the full incentive, while the tribe 
receives nothing. In these circumstances, often the tribe is also 
performing significant case management services to assist the state 
also. Providing tribes full access to Title IV-E and the Adoption 
Incentive Program would make good sense in helping tribes encourage 
adoption in their communities.
    Expanding the range of permanent placements.--While adoption is an 
appropriate option for many younger children in need of a permanent 
placement, it does not fit well for many older children with special 
needs. Indian communities, like many other communities, have a full 
range of children that need permanent placements. The most difficult 
placements to secure are often those for older children with special 
needs. In these cases, more creative thinking and planning needs to go 
into securing a permanent home. Often, the only available homes in 
these situations are relatives. To enable these relatives to care for 
these children it takes different kinds of supports and more flexible 
placement options. Many relatives are not willing to adopt in these 
situations and would prefer to seek a guardianship placement. However, 
because of the special needs that these children often present and the 
general economic conditions that exist in most tribal communities, it 
is important to be able to offer a subsidized placement option where 
services and basic financial assistance can be provided. ASFA 
acknowledges a range of permanent placement options but does little to 
provide incentives or greater encouragement to use these options. The 
short time that ASFA has been in place shows us that additional efforts 
and incentives will be necessary to move these types of children from 
foster care into a more permanent living arrangement.
    Improving background checks for tribal foster care and adoptive 
homes.--Because of unintentional conflicts between ASFA and the Indian 
Child Protection and Family Violence Prevention Act (P.L. 101-630), 
states are unable to use tribally licensed foster care and adoptive 
homes, which are very important to the overall goal of helping Indian 
children under their care secure permanency. The Indian Child 
Protection and Family Violence Prevention Act requires all tribes that 
license foster care and adoptive homes to conduct extensive background 
checks on these prospective homes. These background checks, which are 
often more extensive than state background checks using ASFA standards, 
include local, state and federal jurisdictions, but are often not 
accepted by states because of fears that the tribal background checks 
done through the FBI will not meet every ASFA requirement and might 
jeopardize the state's IV-E funding. This results in perfectly safe 
homes for these children being rejected and further delays in helping 
Indian children achieve timely placements. Existing federal law, the 
Indian Child Welfare Act of 1978, is also clear that tribally licensed 
homes should be treated as equivalent to state licensed homes for the 
purposes of helping Indian children find appropriate foster care and 
adoptive homes. We ask the Committee to consider an amendment to ASFA 
that would help clarify and recognize the federal system of background 
checks for tribally licensed homes and eliminate the unnecessary 
barriers to permanency for Indian children.
    Conclusion.--The ASFA sought to provide some additional tools and 
guidance in meeting the challenges of moving children out of foster 
care and into more permanent living arrangements. While numbers of non-
Indian children have been able to secure more timely permanent 
placements, Indian children have not. The primary factors have been 
less access to basic permanency funding for tribes, less access to 
financial incentives for adoption, a need for greater supports for non-
adoptive permanent placements, and resolution of conflicts in federal 
law that create delays in using tribally licensed homes that have 
undergone federally prescribed background checks. These issues can 
easily be fixed and would lead to Indian children receiving a 
significant improvement in access to permanency. We urge the 
Subcommittee to seriously consider our testimony and work with us to 
develop some solid solutions to these troublesome barriers.
    Thank you again for your consideration of our testimony.
    National Indian Child Welfare Association (NICWA). The National 
Indian Child Welfare Association provides a broad range of services to 
tribes, Indian organizations, states, federal agencies, and private 
social service agencies throughout the United States. These services 
are not direct client services such as counseling or case management, 
but instead help strengthen the programs that directly serve Indian 
children and families. NICWA services include: (1) professional 
training for tribal and urban Indian social service professionals; (2) 
consultation on social service program development; (3) facilitating 
child abuse prevention efforts in tribal communities; (4) analysis and 
dissemination of public policy information that impacts Indian children 
and families; and (5) helping state, federal, and private agencies 
improve the effectiveness of their services to Indian people. Our 
organization maintains a strong network in Indian country by working 
closely with the National Congress of American Indians and tribal 
governments from across the United States.

                                 <F-dash>
                    Statement of Voice for Adoption
    Since 1997, P.L. 105-89, the Adoption and Safe Families Act (ASFA), 
has been instrumental in moving thousands of children into permanent, 
loving adoptive homes. Adoptions from foster care have doubled from 
26,000 in 1996 to more than 50,000 in 2002. Most importantly, the law 
made children's health and safety the paramount concern for child 
welfare and court workers.
    Although there are many AFSA success stories, areas for improvement 
on the current law still exist, including interjurisdictional adoptive 
placements and the Adoption Incentive Program.
Advancing Interjurisdictional Adoptions
    This following is a true story and was taken from Placing Children 
Across Geographic Boundaries: A Step-by-Step Guide for Social Workers. 
The guide was written by the National Adoption Center and Adoption 
Exchange Association with funding by the Dave Thomas Foundation for 
Adoption. This resource guide was compiled to address the challenges of 
placing children for adoption in different geographic regions than 
where they currently reside.

    Zach, Keith, Ashley, Shawn, Eva, and Troy had many challenges. When 
the youngest was six and the eldest was 12, the six siblings faced the 
day-to-day realities of poverty coupled with learning disabilities, 
mental retardation and Troy's blindness. Despite these hardships, they 
had a stable home with parents and, most of all, each other.
    Their world changed abruptly the day their father died. Reeling 
from her own grief, their mother could no longer adequately care for 
them. Soon, social services stepped in and the children were scattered 
to six separate placements.
    After their mother's parental rights were terminated due to her 
neglect of the children, they remained separated in foster care while 
their social worker sought a permanent home for them.
    Across the country, an approved adoptive family saw the pictures of 
these children in a photolisting book. After sending a homestudy, the 
family was dismayed to learn that only families from the children's 
state of residence would be considered.
    For six years these children waited--six years of their childhood 
lost to the foster care system; six years of tax dollars supporting 
them. All the while, the family, thousands of miles away, continued to 
advocate for the children, and, after contacting their Governor, 
finally were allowed to adopt them.
    The children, now young adults, moved into their new home when 
Keith was in the middle of his senior year in high school. When asked 
by his social worker how he felt about making such a move, he stated: 
``MOVE! All the way across the country? Leave my friends, my school? Is 
it worth it? To be reunited with my brothers and sisters, to have a mom 
and dad, never to have to move again. It's definitely worth it!''

    For the majority of waiting children, a permanent family can be 
located in their own communities. Such placement is often in their best 
interest as they do not have to adjust to new schools, cultural 
differences, and new friends at the same time they are adjusting to an 
adoptive family and home. However, for many other children, the local 
community does not have enough potential families to make this 
possible. For large sibling groups, such as the one mentioned above, or 
for children with exceptional special needs, teenagers, or children who 
have waited many years in their local foster care system, the largest 
possible net must be cast to find an appropriate, permanent home.
    ASFA recognized the importance of going beyond geographic 
boundaries to place children. The law instructs states not to delay or 
deny placement of children for adoption when an approved family is 
available outside of the jurisdiction with responsibility for handling 
the child's case. To help remove barriers that keep families from 
adopting children who live in a different county or state, the law 
penalizes states' Title IV-E funding if a violation is found.
    ASFA also requires that states mobilize additional resources to 
increase the number of adoptive families. P.L. 105-89 mandates that all 
state child welfare agencies include plans for the effective use of 
interjurisdictional resources such as adoption exchanges.
    Although ASFA addresses geographic barriers, lawmakers, families, 
social workers, judges, and advocates acknowledge that numerous 
obstacles still exist to moving children between jurisdictions.
    One of the main obstacles to interjurisdictional placements is the 
lack of uniformity in adoption practice. The absence of national 
standards for family assessments has resulted in considerable 
variability among states regarding the content and format of home 
studies of prospective adoptive parents. Differences in home study 
practice have caused states to question the quality of other states' 
family assessment processes, particularly when they differ in 
meaningful ways from the process used by the child's state of origin. 
Similarly, there is great variability in the quality and intensity of 
post-placement services that are provided in different jurisdictions. 
These differences have led to concerns about the level of services and 
supervision a child will receive if placed with a family in another 
state, particularly when the perception is that those services are not 
equivalent to what the child would have received if placed with a 
family in the child's state of origin.
    VFA urges HHS to develop regulatory guidelines and a best practice 
protocol for interjurisdictional adoptive placements.
Reauthorize Adoption Incentive Payments to States
    The Adoption Incentive Program, considered one of the most 
innovative provisions in AFSA, encourages states to find adoptive homes 
for waiting children who are legally free for adoption by granting a 
financial incentive for each foster child that the state places in 
adoption. P.L. 105-89 authorized a bonus payment of $4,000 for each 
adoption from foster care, or $6,000 for each special needs adoption 
from foster care, above the baseline.
    States received millions of dollars in adoption incentive payments 
during the past five years and reinvested their bonus funds for 
adoption programs, including post-adoption services, family 
recruitment, and adoption promotion and support.
    The program is due for reauthorization this year. Congress must ask 
the Department of Health and Human Services to restructure the current 
baselines. Advocates and state child welfare workers believe that the 
existing baselines are now too high for states to reach. In 2001, only 
28 states were able to increase their numbers of foster care adoptions 
above the current baselines.
    Although details have not been released, VFA supports the Bush 
Administration's efforts to provide incentives to states for moving 
older children into permanent, loving homes. Additionally, VFA supports 
the Administration's proposal to maintain funding for the program at 
$43 million.

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
